Office of Inspector General

SEMIANNUAL REPORT
 TO THE CONGRESS
    April 1–September 30, 2010
Office of Inspector General

 SEMIANNUAL REPORT
  TO THE CONGRESS

April 1–September 30, 2010
                Inspector General

         HOTLINE
The Hotline makes it easy to report allegations of fraud, waste, abuse, mismanagement, or
misconduct in the programs and operations of the United States Agency for International
Development (USAID), the Inter-American Foundation (IAF), the United States African
Development Foundation (USADF), and the Millennium Challenge Corporation (MCC).
Employees of USAID, IAF, USADF, and MCC, contractors, program participants, or the
general public may report allegations directly to the Office of Inspector General (OIG).
Complaints may be submitted electronically by using e-mail or OIG’s online complaint form.

E-mail          ig.hotline@usaid.gov

Complaint
Form            http://www.usaid.gov/oig/hotline/hotline.htm

Individuals who are concerned about the confidentiality or anonymity of electronic
communication may submit allegations by telephone or mail.

Telephone       1-202-712-1023
                1-800-230-6539

Mail            USAID OIG HOTLINE
                P.O. Box 657
                Washington, DC 20044-0657

The Inspector General Act of 1978, as amended, and other laws protect persons making
Hotline complaints. Individuals who contact the Hotline are not required to identify
themselves and may request confidentiality when submitting allegations. However, OIG
encourages those who report allegations to identify themselves so that they can be
contacted if OIG has additional questions.

OIG will not disclose the identity of an employee of USAID, IAF, USADF, or MCC who
provides information unless that employee consents or unless the Inspector General
determines that such disclosure is unavoidable during the course of an investigation.
                                                   CONTENTS

Message from the Inspector General .......................................................................... 1

Introduction............................................................................................................................. 3

Semiannual Report to the Congress............................................................................ 7
      United States Agency for International Development (USAID)
      United States African Development Foundation (USADF)
      Inter-American Foundation (IAF)

Reporting Requirements .......................................................................................................... 8

Summary Table of Audits Conducted ................................................................................. 10

Significant Findings—USAID .................................................................................................. 11

      Peace and Security.......................................................................................................................... 11
            Afghanistan................................................................................................................... 11
            Pakistan ......................................................................................................................... 17
            Iraq................................................................................................................................. 22
            West Bank and Gaza ................................................................................................. 23
            Sudan ............................................................................................................................. 23

      Just and Democratic Government............................................................................................... 24
            Democracy................................................................................................................... 24

      Economic Growth and Prosperity................................................................................................ 26
            Economic Security...................................................................................................... 26
            Environment ................................................................................................................ 29

      Investment in People ...................................................................................................................... 32
            Health............................................................................................................................ 32

      Management Capabilities ............................................................................................................. 40
            Information Technology............................................................................................ 40
            Employee Misconduct................................................................................................ 40

      Financial Management .................................................................................................................. 41
            Management Accountability ..................................................................................... 41
            Expanding Accountability.......................................................................................... 43
            Accountability Over Contractors and Grantees................................................. 45

Significant Findings—USADF and IAF.................................................................................. 49

Significant Recommendations Without Final Action........................................................ 50

Table of Investigative Activities............................................................................................. 55

Fraud Awareness Briefings..................................................................................................... 56

Incidents in Which OIG Was Refused Assistance or Information ............................... 57

Financial Audits—Questioned Costs, Unsupported Costs, and Value of
Recommendations That Funds Be Put to Better Use...................................................... 58

Performance Audits—Questioned Costs, Unsupported Costs, and Value of
Recommendations That Funds Be Put to Better Use...................................................... 92

Miscellaneous Reports—Questioned Costs, Unsupported Costs, and Value of
Recommendations That Funds Be Put to Better Use...................................................... 94

Table of Significant Audit Reports—Afghanistan, Pakistan, and Iraq............................98

Statistical Table on Reports With Questioned and
Unsupported Costs ...............................................................................................................100

Statistical Table of Reports With Recommendations That Funds Be Put to
Better Use ...............................................................................................................................102

Reports Over 6 Months Old With No Management Decision...................................105

Significant Revisions of Management Decisions ..............................................................106

Management Decisions With Which the Inspector General Disagrees....................109

Noncompliance with Federal Financial Management Improvement Act of 1996....110

Significant Findings from Contract Audit Reports..........................................................111

Peer Reviews...........................................................................................................................112

Semiannual Report to the Congress—
Millennium Challenge Corporation..........................................................................113

Introduction.............................................................................................................................114
Significant Findings..................................................................................................................115

      Economic Security .........................................................................................................................115

      Management Capabilities ...........................................................................................................116
            Information Technology..........................................................................................116
            Financial Management..............................................................................................117
            Fund Accountability Statements............................................................................118

Significant Recommendations Without Final Action......................................................126

Investigative Activities...........................................................................................................126

Incidents in Which OIG Was Refused Assistance or Information .............................126

Financial Audits—Questioned Costs, Unsupported Costs, and
Value of Recommendations That Funds Be Put to Better Use ...................................127

Performance Audits—Questioned Costs, Unsupported Costs, and Value of
Recommendations That Funds Be Put to Better Use....................................................130

Miscellaneous Reports—Questioned Costs, Unsupported Costs, and Value of
Recommendations That Funds Be Put to Better Use....................................................131

Statistical Table of Reports With Questioned and Unsupported Costs...................132

Statistical Table of Reports With Recommendations That
Funds Be Put to Better Use.................................................................................................133

Reports Over 6 Months Old With No Management Decision...................................134

Significant Revisions of Management Decisions ..............................................................135

Management Decisions With Which the Inspector General Disagrees....................135

Noncompliance with Federal Financial Management Improvement Act
of 1996......................................................................................................................................136

Significant Findings from Contract Audit Reports..........................................................136

Peer Reviews...........................................................................................................................137

Abbreviations......................................................................................................................138
                     MESSAGE FROM THE
                    INSPECTOR GENERAL
I am pleased to present the Semiannual Report to the Congress for the 6-month
period ending September 30, 2010. This report features highlights of oversight
activities of the Office of Inspector General (OIG) for the U.S. Agency for
International Development (USAID), the United States African Development
Foundation (USADF), the Inter-American Foundation (IAF), and the Millennium
Challenge Corporation (MCC). We have prepared this report in accordance
with the requirements of the Inspector General Act of 1978, as amended.
During the reporting period, OIG activities resulted in:

•   273 audits issued
•   $21,487,290 in questioned costs and funds put to better use
•   68 investigations opened and 38 investigations closed
•   4 arrests, 2 indictments, and 6 convictions
•   89 administrative actions
•   $100,035,571 in investigative recoveries and savings
•   76 fraud awareness briefing sessions with 1,945 attendees

We continued robust oversight of USAID activities in Afghanistan, Iraq, Pakistan,
West Bank/Gaza, and the Global Health Initiative including HIV/AIDS,
tuberculosis, and malaria. Additionally, we have increased oversight of USAID
relief and reconstruction activities in Haiti.
In Afghanistan and Pakistan, USAID is channeling increasing levels of
development funding to local nongovernmental organizations (NGOs) and to the
host governments in the form of project assistance and direct budget support.
By leading the development projects, host governments can build public
confidence and improve the welfare of the people. However, both countries are
still developing the capacity to manage projects and monitor and account for
associated resources, and this places U.S. dollars at greater risk of waste, fraud,
and abuse. OIG has adjusted its oversight strategy to help ensure that
development funds provided to local NGOs and host governments are not
wasted or channeled to those who wish to do us harm.
On July 15, 2010, I testified before the U.S. House of Representatives,
Committee on Appropriations, Subcommittee on State, Foreign Operations, and
Related Programs about news accounts of large quantities of U.S. dollars being
shipped out of Afghanistan. I informed the committee that we had no evidence
linking USAID assistance programs to this reported exodus of cash.




                                    SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   1
Our performance audit and review work in both Afghanistan and Pakistan
continues to show that security conditions have hindered program
accomplishment. A recent review we conducted in Afghanistan, for example,
revealed that Afghan subcontractors working on a community development
project may have misused USAID funds to pay off insurgents in remote and
insecure Taliban strongholds. Our audits also identify continuing trends in
inadequate contract oversight or activities management and in data integrity or
quality issues. However, our recent audit of earthquake reconstruction activities
in Pakistan revealed some positive results. As part of its construction
implementation efforts, for example, USAID/Pakistan engaged local communities
to participate in building schools and basic health units.
Following the devastating earthquake in Haiti, USAID moved quickly to help
stabilize the nation. During this reporting period, we issued a performance audit
report on USAID’s cash-for-work program. Auditors found that although the
program was achieving tangible results, it was reaching far fewer people than
intended because of the large amounts of money required for heavy equipment
to remove rubble.
USAID continues to manage foreign assistance programs in Iraq, even though
Operation Iraqi Freedom officially ended on August 31, 2010. During the
reporting period, OIG completed an audit of the Iraq Financial Management
Information System and found that it has not been fully implemented nor has it
achieved its goals of helping the Government of Iraq formulate, execute, and
monitor central government budgets.
Along with assisting the agencies we oversee in improving their programs and
operations, OIG has a responsibility to prevent fraud, waste, and abuse in foreign
assistance programs. To this end, we provide fraud awareness training to agency
employees and implementers and distribute hotline posters—in English and
native languages—to inform people of the ways they can report suspicions of
fraud, waste, or abuse in foreign assistance programs. Working with
USAID/Pakistan and Transparency International, OIG recently established a
hotline in Pakistan to facilitate reporting of suspected fraud in development
assistance programs. The hotline will be staffed with English and native language
speakers and managed by OIG.
This semiannual report further describes our activities and achievements and
includes comprehensive statistics and data regarding our work. OIG supports
USAID, USADF, IAF, and MCC programs and operations through collaboration
and proactive, results-oriented oversight. We look forward to working with the
Congress and our partners and stakeholders to continue to improve the
efficiency and effectiveness of U.S. foreign assistance programs.


                                                    Donald A. Gambatesa
                                                    Inspector General


2   USAID OFFICE OF INSPECTOR GENERAL
                              INTRODUCTION

                    History and Mandated Authority
USAID’s OIG was established on December 16, 1980, by statutory amendment 1
to the Foreign Assistance Act of 1961. 2 On December 29, 1981, the President
signed the International Security and Development Cooperation Act of 1981, 3
bringing the USAID Inspector General under the purview of the Inspector
General Act of 1978. 4 OIG assumed audit and investigative oversight of USADF
and IAF in 1999, 5 and of MCC in 2004. 6

The Inspector General Act of 1978, as amended, authorizes the Inspector General
to conduct and supervise audits and investigations. Our mission is to protect
and enhance the integrity of U.S. foreign assistance programs and operations
administered by USAID, USADF, IAF, and MCC. Some of our work is mandated by
statute or other requirements, and other work is performed at the discretion of
OIG. When identifying the audits and activities to undertake, and setting priorities
in performing them, we consider stakeholder interests and needs, alignment with
strategic goals, and program funding levels. Each decision to perform specific work
is made after considering the risks associated with the agencies’ programs and
assessing potential vulnerabilities in internal controls.


                             Areas of Responsibility
Audits. OIG audits activities relating to worldwide foreign assistance programs
and agency operations of USAID, USADF, IAF, and MCC. Audit activities include
performance audits of programs and management systems, financial statement
audits required under the Chief Financial Officers Act, and audits related to
financial accountability of grantees and contractors. On May 9, 2010, OIG/Audit
launched its new Inspections and Evaluations Division, consisting of a director
and three employees. The division will perform four types of reviews: quick




1
    International Security and Development Cooperation Act of 1980, Public Law 96-533.
2
    Public Law 87-195.
3
    Public Law 97-113.
4
    Public Law 95-452.
5
 Consolidated Appropriations Act, 2000, Public Law 106-113, Division B, Section 1000(a)(7),
Admiral James W. Nance and Meg Donovan Foreign Relations Authorizations Act, Fiscal Years
2000 and 2001.
6
 Consolidated Appropriations Act, 2004, Public Law 108-199, Division D, Title VI, Millennium
Challenge Act of 2003.



                                           SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   3
response activities, inspections, evaluations, and special assignments (such
as monitoring functions).

Investigations. OIG investigates allegations of fraud, mismanagement, and
misconduct relating to the foreign assistance programs and agency operations of
our client agencies. Investigations of criminal, civil, and administrative violations
cover all facets of these worldwide operations. We also work proactively by
providing fraud awareness training and by providing fraud awareness literature,
audiovisual aids, and advice on fraud prevention strategies to agency personnel
and employees of foreign assistance implementers worldwide.

Millennium Challenge Corporation. OIG is responsible for oversight of the
Corporation’s programs and operations worldwide. Our MCC office has its own
performance and financial audit divisions, but it coordinates with OIG’s
Investigations and Audit offices for investigative and supplementary audit
support. Budget, information technology, and human resources support is
provided by our Management office.

Locations of OIG Offices. OIG carries out its audit and investigative work in
about 100 countries from offices in:

•   Kabul, Afghanistan
•   Islamabad, Pakistan
•   Baghdad, Iraq
•   Cairo, Egypt
•   Dakar, Senegal
•   Manila, Philippines
•   Pretoria, South Africa
•   San Salvador, El Salvador
•   Tel Aviv, Israel
•   Washington, DC

                                   Joint Work and Partners
OIG participates on task forces and cooperates with other interagency groups.
In this reporting period, for example, OIG contributed to task forces to provide
oversight for accountability and transparency in USAID operations in Afghanistan
and Pakistan and to assist the Department of Justice in addressing procurement
and grant fraud, especially in Iraq and Afghanistan.

Southwest Asia Joint Planning Group. This group, formed to coordinate
oversight activities in Afghanistan and other countries in the region, issued its
first Comprehensive Audit Plan for Southwest Asia in June 2008, in accordance


4   USAID OFFICE OF INSPECTOR GENERAL
with the FY 2008 National Defense Authorization Act. 7 The group comprises
representatives of the Offices of Inspector General for USAID and the
Department of State, the Government Accountability Office (GAO), the Special
Inspector General for Iraq Reconstruction, the Special Inspector General for
Afghanistan Reconstruction, the U.S. Army Audit Agency, the Naval Audit
Service, the Air Force Audit Agency, and the Defense Contract Audit Agency.

Afghanistan-Pakistan Subgroup. The U.S. Government’s efforts to stop
terrorism require support from the major oversight organizations to ensure
accountability and transparency in multi-billion-dollar programs implemented in
Southwest Asia. To avoid overlapping efforts and reduce the burden that the
oversight process places on overseas staff, a subgroup of the Southwest Asia
Joint Planning Group coordinates multiagency work to guard against fraud,
waste, and abuse in military and civilian programs implemented in Afghanistan
and Pakistan. The Afghanistan-Pakistan Subgroup comprises representatives of
the Offices of Inspector General for USAID and the Departments of State and
Defense, GAO, and the Special Inspector General for Afghanistan
Reconstruction. The subgroup acts as the central point for sharing information
and coordinating planned and ongoing audits, reviews, and inspections. The
subgroup is chaired by a representative from USAID/OIG.

Iraq Council of Inspectors General. Oversight organizations operating in
Iraq meet quarterly to discuss ongoing and planned activities to share
information, resolve conflicts, and avoid duplication. The Special Inspector
General for Iraq Reconstruction chairs the meetings, which are attended by
representatives of Offices of Inspector General for USAID and the Departments
of State and Defense; other oversight offices within the Department of Defense,
such as the Army Audit Agency and the Defense Contract Audit Agency; and
GAO. Representatives located in Washington, DC, and Iraq participate in these
meetings, in person or by phone.

USAID Afghanistan-Pakistan Task Force. The USAID Afghanistan-Pakistan
Task Force is a multi-agency planning group that seeks to make USAID assistance
to U.S. Government reconstruction and development efforts in Afghanistan and
Pakistan as effective as possible by providing analyses, strategies, and
recommendations and by cultivating interagency coordination and cooperation.
The task force includes a USAID/OIG representative to respond to the Agency’s
oversight needs and to promote accountability and transparency in these two
countries.

Department of Justice Task Forces. OIG participates on two Department
of Justice task forces—the National Procurement Fraud Task Force and the


7
 Public Law 110-181, Section 842, “Investigation of Waste, Fraud, and Abuse in Wartime
Contracts and Contracting Processes in Iraq and Afghanistan.”



                                        SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   5
International Contract and Corruption Fraud Task Force. The mission of both
task forces is to promote the early detection, prevention, and prosecution of
procurement and grant fraud associated with increased contracting activity for
national security and other government programs.

                   OIG Program Areas and Priorities
OIG structures its work to provide oversight in worldwide U.S. foreign
assistance programs. Our audits include recommendations to improve the
infrastructure of agency systems and operations to increase the efficiency of the
work the agencies undertake. OIG’s investigative activities detect and prevent
fraud, waste, and abuse in development assistance programs.

Priority program areas covered in this reporting period include:

Peace and Security
•   Afghanistan
•   Pakistan
•   Iraq
•   West Bank and Gaza
•   Sudan

Just and Democratic Government
•   Democracy

Economic Growth and Prosperity
•   Economic Security

Investment in People
•   Health

Management Capabilities
•   Information Technology
•   Employee Misconduct

Financial Management
•   Management Accountability
•   Expanding Accountability
•   Accountability Over Contractors and Grantees




6   USAID OFFICE OF INSPECTOR GENERAL
 SEMIANNUAL REPORT TO THE CONGRESS

    United States Agency for International
           Development (USAID)
United States African Development Foundation
                   (USADF)
                     and
      Inter-American Foundation (IAF)




                   SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   7
                  REPORTING REQUIREMENTS
The Inspector General Act of 1978, as amended (5 U.S.C. Appendix 3,
Section 5), and other public laws set forth congressional reporting requirements
for Offices of Inspector General. There are 15 general categories of reporting
requirements.

The summaries of significant findings, starting on page 11, respond to
Requirements 1 and 2; responses to the remaining requirements follow the
summaries.

1. Significant problems, abuses, and deficiencies uncovered.
2. Recommendations for corrective action identified.
3. Recommendations described previously on which corrective action has not
   been completed.
4. Investigative activities including matters referred to prosecutive authorities.
5. Reports of incidents in which OIG was refused assistance or information.
6. Questioned costs, unsupported costs, and dollar value of recommendations
   that funds be put to better use.
7. A summary of each particularly significant report.
8. Statistical tables showing:
    a) The total number of reports at the beginning of the period for which a
       management decision had not been made, including the total dollar values
       of questioned and unsupported costs associated with these reports.
    b) The total number of reports during the reporting period, including the
       total dollar value of questioned costs and unsupported costs associated
       with these reports.
    c) The total number of reports during the reporting period for which a
       management decision was made, including the dollar value of disallowed
       costs and the dollar value of costs not disallowed.
    d) The total number of reports for which no management decision has been
       made by the end of the reporting period.
9. Statistical tables showing:
    a) The total number of reports at the beginning of the period for which a
       management decision had not been made, including the total dollar values
       of recommendations that funds be put to better use.
    b) The total number of reports issued during the reporting period, including
       the total dollar value of funds put to better use.
    c) The total number of reports during the reporting period for which a
       management decision was made, including the dollar value of


8   USAID OFFICE OF INSPECTOR GENERAL
       recommendations that were agreed to by management, and the dollar
       value of recommendations that were not agreed to by management.
   d) The total number of reports for which no management decision has been
      made by the end of the reporting period.
10. Reports previously issued for which no management decision has been made
    by the end of the reporting period (including the date and title of each such
    report), an explanation of the reasons such management decision has not
    been made, and a statement concerning the desired timetable for achieving a
    management decision on each such report.
11. Revisions of management decisions—a description and explanation of the
    reasons.
12. Management decisions with which the Inspector General is in disagreement.
13. Noncompliance with the Federal Financial Management Improvement Act of
    1996.
14. Significant audit findings from contract audit reports.
15. Peer review results, including the following:
   a) Reviews conducted on OIG during the rating period, or the date of its
      last peer review and any unimplemented recommendations.
   b) List of reviews conducted by OIG during the reporting period.
   c) List of outstanding recommendations made by OIG during the reporting
      period.




                                    SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   9
            Summary Table of Audits Conducted
                 USAID, USADF, and IAF
                                 April 1–September 30, 2010

                                                                          Amount of
                                                      Number of
                   Type of Report                                      Recommendations
                                                       Reports
                                                                            ($)
Financial Audits
USAID (ARRA)*                                               1                7,860
USAID programs and operations                               0                    0
Foundations’ programs and operations                        0                    0
U.S.-based contractors                                      5             2,539,220
      Quality-control reviews                               2                    0
U.S.-based grantees                                        88             2,837,948
Quality-control reviews                                     1                    0
Foreign-based organizations                               114           13,981,382
Quality-control reviews                                     2                    0
Enterprise funds                                            9                    0
Performance Audits
USAID economy and efficiency                               25              780,880
Foundations’ economy and efficiency                         1                    0
Other                                                       7                    0

                        Total                             255           20,147,290

 * American Recovery and Reinvestment Act of 2009, Public Law III-5.




 10 USAID OFFICE OF INSPECTOR GENERAL
                  SIGNIFICANT FINDINGS
                                    USAID

                          Peace and Security

                                  Afghanistan
Audit of USAID/Afghanistan’s Alternative Development Program—
South West Region. The production and trafficking of illicit narcotics pose a
serious challenge to the Islamic Republic of Afghanistan (Afghanistan). Narcotics
revenues breed corruption at virtually all levels of the Afghan Government and
provide resources to the Taliban, drug lords, and other terrorist groups. To
address the narcotics problem, the U.S. Government has supported the Afghan
Government’s counternarcotics strategy of providing incentives to stop growing
opium poppy through alternative development projects and supporting strong
disincentives in the form of provincial governor-led eradication, interdiction, and
law enforcement.

USAID/Afghanistan launched its Alternative Development Program Expansion
South West through awarding a $75 million contract to Associates in Rural
Development, Inc. (ARD). The program sought to counteract illicit poppy
cultivation by providing alternative development programs, improved economic
opportunities, and diverse regional economic growth.

The audit found that the program had made progress toward counteracting illicit
poppy cultivation by providing alternative development programs and improving
economic opportunities in selected southern and western provinces. The
Afghanistan Opium Survey said that the collective decrease in the 2009 poppy
production in the provinces of Helmand, Uruzgan, Nimroz, and Farah, which
were covered by the program, was 42,852 hectares—an approximate 32 percent
decrease from 2008 levels. The decrease is attributable to such factors as strong
antipoppy messages from provincial governors, increased interdiction activities,
an overproduction of poppy in prior years that suppressed market prices, and
alternative economic opportunities in targeted districts within each province.

Despite the program’s progress, the audit identified two issues that need to be
addressed. First, continued reductions in poppy cultivation may not be
sustainable because a follow-on program has not been approved beyond
March 2011 and a critical southern province is not included in the current
program. The investment in agricultural programs may be wasted and economic
gains received by the local communities may disappear, possibly causing farmers
to return to poppy cultivation. Second, the program has experienced delays in
implementation, partially due to security issues. Further, changes in the mission’s


                                   SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   11
business practices present possible future challenges that could further delay
program implementation if not properly managed.

This audit made three recommendations to overcome these issues, including
development of an implementation plan for follow-on activities and
improvements in mission internal controls to manage changes in its business
practices. Management decisions were reached on all recommendations.

(Audit Report No. 5-306-10-011-P)

Contractor in Afghanistan Terminated for Mishandling Nonpublic
Information Pertaining to Government Procurements.
USAID/Afghanistan terminated an Australian serving as a senior construction
manager and contracting officer’s technical representative on two USAID-funded
programs, one designed to repair buildings and the other to construct health and
education facilities in Afghanistan. OIG found that the individual, serving under a
personal services contract, had released sensitive, contractor bid information by
sending it to his personal e-mail account in violation of USAID and federal
regulations.

USAID Contractor Terminates 10 Employees for Soliciting Kickbacks.
Development Alternatives, Inc., a USAID contractor managing a $349 million
governance and community development project in Afghanistan, terminated 10
local employees after a joint investigation by OIG and the International Contract
Corruption Task Force revealed that the individuals were soliciting kickbacks.
Some of the terminated staff members set up their own companies, which
subsequently won subcontracts issued by the USAID contractor, and failed to
report their interest in the enterprises. Others reportedly helped companies win
subcontracts in exchange for a percentage of the total value of the project.

Afghan Sentenced to Prison for Fraud Against USAID. A former
employee of a USAID contractor who had worked on a $229 million local
governance program financed by USAID was found guilty of embezzlement and
falsification of tax records in connection with the theft of $193,000 in program
funds. The subject was responsible for depositing the American contractor’s
monthly tax payments to the Afghan Ministry of Finance in a local bank account.
When the ministry reported that it had not received the payments, an
investigation was initiated. Local law enforcement officials and OIG investigators
discovered that the bank deposit slips the subject used to prove he had made the
payments had been forged. The subject was sentenced to 7½ years in an Afghan
prison and fined $160,000.

Audit of USAID/Afghanistan’s Afghanistan Vouchers for Increased
Productive Agriculture (AVIPA) Program. USAID’s Afghanistan Vouchers
for Increased Productive Agriculture (AVIPA) Program was created in response
to a growing food crisis in Afghanistan. This crisis was brought on by rising global
wheat prices and a severe drought during the 2007–8 crop seasons. The


12     USAID OFFICE OF INSPECTOR GENERAL
program was designed to provide agricultural supplies to drought-affected
subsistence farmers to help them increase wheat production. Following the initial
year of operations, the authorized funding level of the program was increased
from $60 million to $360 million, and the focus shifted toward implementing
agricultural stabilization activities in Afghanistan’s southern provinces of Helmand
and Kandahar.




           Wheat seed provided to farmers in Afghanistan’s Baghlan Province in
                   February 2009. (Photo by implementing partner.)

This audit was conducted to determine whether the program was increasing
wheat production and implementing stabilization activities in Afghanistan’s
southern region.

OIG found that the program had contributed to the country’s increase in wheat
production. However, we could not determine the extent to which the program
had played a role in this increase, because some of the reported results were not
reliable. In addition, the program’s stabilization activities were not being
implemented as widely as originally planned.

Initially, the program carried out distributions of wheat seed and fertilizer,
benefiting almost 300,000 farmers in northern, western, and central Afghanistan
and contributing to the country’s large increase in wheat production in 2009.
The audit questioned the reliability of some of the reported results for this
activity, however, because of irregularities in the records documenting the
distributions to the farmers and deficiencies in the methodology used to assess
the activity’s impact. The irregularities warranted follow-up and were referred to
OIG/Investigations for further review.

The audit also found that the program’s stabilization activities in the southern
provinces were being implemented on a smaller scale than originally envisioned.
The activities carried out to date and projected through the remaining months of



                                     SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   13
the program—coupled with the $300 million allocated to fund these and other
activities over only a 1-year period—indicate that the program was not expected
to spend the entire amount of authorized funding by its completion date.

OIG made three recommendations to assist the mission with its management of
this program. Management decisions have been reached on all of them.

(Audit Report No. 5-306-10-008-P)

Review of School and Health Clinic Buildings Completed Under the
Schools and Clinics Construction and Refurbishment Program in
Afghanistan. In September 2002, USAID/Afghanistan began to build and
reconstruct schools and health clinics throughout Afghanistan under the Schools
and Clinics Construction and Refurbishment Program. During the next 4 years,
the mission increased the number of structures subject to the program from
fewer than 100 to 776. Similarly, the number of implementing partners grew
to more than a half dozen, and disbursements under the program amounted to
more than $105 million.

OIG conducted this review to (1) determine whether schools and clinics built
under the program were being used for their intended purposes and (2) measure
the impact of the program on education and health services. Because the
program sites of many schools and clinics were located in areas we were not
allowed to visit, we contracted with KPMG Afghanistan, whose staff could travel
more easily within Afghanistan.

For the first objective, KPMG inspected 50 buildings to verify their existence and
to observe how they were being used. KPMG found that 48 of the 50 facilities
were being used for their intended purposes. The two exceptions were a school,
which had been used as an administrative office for the Ministry of Education,
and a health clinic, which had been abandoned. KPMG also noted many
deficiencies in the physical condition of the schools and health clinic buildings.
These deficiencies included poor maintenance, physical problems, lack of
furniture and equipment, inadequate staff, poor hardware, lack of electricity,
deficient water service and plumbing, and toilet problems. These conditions,
however, were mostly the responsibility of the Afghan Government.

For the second objective, KPMG found that the 30 schools visited had 1,385
teachers and were educating 57,744 students. The 20 health clinics visited had
109 clinical staff members and provided medical treatment to about 39,500
patients monthly. However, because baseline information was not available to
make any comparisons, KPMG concluded that these values did not clearly
indicate whether the completed buildings were having the intended effect on
education and health services in Afghanistan.




14     USAID OFFICE OF INSPECTOR GENERAL
OIG made two recommendations to help USAID address these issues.
Management decisions were reached on both of them, and final action was taken
on one before the report was issued.

(Review Report No. 5-306-10-002-O)

               Private Security Contractors in Afghanistan

USAID/Afghanistan relies on private security contractors (PSCs) to supply an
array of security services for contractors and grantees that implement
USAID-funded projects in Afghanistan. PSCs free up military forces for their
core missions and provide protection to USAID’s implementing partners in
hostile environments. USAID/Afghanistan usually delegates responsibility and
oversight for security to its implementing partners and factors the cost of
security into their program budgets. These implementing partners typically
subcontract their security services to PSCs. USAID pays for PSCs indirectly
when the partners submit their invoices for payment, which include the cost of
security services.

Audit of USAID/Afghanistan’s Oversight of Private Security
Contractors in Afghanistan. Incidents in Iraq in 2004 and 2007 caused some
to voice concerns about U.S. Government failures to supervise PSC performance
and prompted legislation that set forth requirements to ensure oversight of PSCs
in areas of combat operations, including Afghanistan.

In light of these concerns, OIG undertook audits addressing PSCs in Iraq and
Afghanistan. The audit in Afghanistan sought to determine (1) what types of
serious security incidents have been reported by PSCs contracted with
USAID/Afghanistan’s implementing partners during the period from October 1,
2006, through June 30, 2009; (2) whether USAID/Afghanistan ensured that its
implementing partners had subcontracted with responsible PSCs; and (3) how
much has been spent by USAID/Afghanistan’s implementing partners for PSC
services and whether has there been effective oversight of these security costs.

USAID/Afghanistan received 149 incident reports during the period covered, 44
of which met the definition of a serious incident. However, USAID/Afghanistan
was not receiving all reports of casualties and serious incidents, and it had only
an informal process for handling reported incidents. Consequently,
USAID/Afghanistan had no assurance of reliable or complete reports on the
types and numbers of incidents that have occurred.

USAID/Afghanistan’s oversight of PSCs used by its implementing partners has not
ensured that only responsible firms are employed. For example, two
subcontracted PSCs were not licensed with the Afghan Government, and
USAID/Afghanistan did not provide subcontracting consent for 17 PSCs.
Moreover, USAID/Afghanistan did not use all available oversight tools and was



                                   SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   15
hampered by a lack not only of standard award provisions and clauses but also
Embassy-wide instructions relative to PSCs. Consequently, PSCs funded by
USAID/Afghanistan have not been subjected to oversight contemplated by
governing laws to ensure that such contractors are qualified and responsible.

With regard to security costs, USAID/Afghanistan’s prime implementing partners
reported that, for the period October 1, 2006, through June 30, 2009, they had
charged about $167 million for subcontracted PSC services. On average, these
services accounted for 8.3 percent of award disbursements. One program spent
34 percent of total disbursements on subcontracted private security firms, while
another spent only 0.5 percent.

We made eight recommendations to strengthen USAID/Afghanistan’s oversight
of PSCs used by its implementing partners. Management decisions were reached
on all recommendations. Final action was taken on one recommendation before
the audit report was issued.

(Audit Report No. 5-306-10-009-P)

Review of Security Costs Charged to USAID Projects in Afghanistan.
In the past year, news reports have said that U.S. Government funds paid to
contractors for reconstruction projects were being siphoned off to Taliban
insurgents in exchange for “protection” to prevent attacks. One news article
reported that USAID funds were ending up in the hands of the Taliban through a
protection racket for contractors. Another article said that in southern
Afghanistan, no contract can be implemented unless the Taliban takes a cut,
sometimes at various steps along the way. Other news reports said that PSCs
were involved in the negotiations with insurgents.

OIG conducted a review of Edinburgh International’s security costs charged to
the following three USAID-funded projects in Afghanistan implemented by
Development Alternatives, Inc. (DAI):

•    Afghanistan Small and Medium Enterprises Development (ASMED)
•    Incentives Driving Economic Alternatives for the North, East, and West
     (IDEA-NEW)
•    Local Governance and Community Development (LGCD)

We selected Edinburgh International from a universe of 22 PSCs that provided
security to 39 USAID-funded implementing partners in Afghanistan. In making
the selection, OIG considered the number of USAID projects charged per PSC,
the location of USAID activities and security services provided, and the costs
charged to USAID. Edinburgh International was one of USAID’s top five
highest-paid PSCs.




16      USAID OFFICE OF INSPECTOR GENERAL
This review looked for any indication that Edinburgh International had misused
USAID funds to pay the Taliban or others in exchange for protection. The
review covered the period from January 1 to December 31, 2009.

The review found no indication that Edinburgh International had misused USAID
funds to pay the Taliban or others in exchange for protection. However, we
found indications that Afghan subcontractors working on the LGCD project had
paid insurgents for protection in remote and insecure areas of Afghanistan. The
payments allegedly were made as part of a security arrangement with local
communities that very likely included the Taliban or groups that support them.
Moreover, we found indications of pervasive fraud in DAI’s LGCD office in
Jalalabad as well as indications of endemic corruption in Nangarhar Province,
where Jalalabad is located. We referred these findings to OIG/Investigations for
further examination.

The review report made four recommendations to help USAID/Afghanistan
reduce the likelihood that subcontractors will misuse USAID funds to pay off
Taliban insurgents or other criminal elements and to mitigate the risk of fraud
within its LGCD project. Management decisions were reached on two
recommendations, and final action was taken on one of them by the time the
report was issued.

(Review Report No. 5-306-10-002-S)


                                      Pakistan
Review of USAID’s Internally Displaced Persons Programs in Pakistan.
Between August 2008 and September 2009, conflict between the Government of
Pakistan (GOP) and militant groups in the North-West Frontier Province
(NWFP, recently renamed Khyber Pakhtunkhwa) and the Federally Administered
Tribal Areas (FATA) displaced over 400,000 Pakistani households. This
displacement required an intensive response by the GOP and the international
community to provide immediate humanitarian assistance to internally displaced
persons (IDPs) in the face of deteriorating security. As the crisis escalated, the
U.S. Government rapidly provided assistance through USAID’s Office of Foreign
Disaster Assistance—the lead organization within the U.S. Government for
providing assistance to Pakistani IDPs. OIG conducted this review to determine
the status of USAID/Pakistan’s IDP programs.

The review found that from October 2008 through December 2009, the
U.S. Government as a whole provided approximately $403 million in assistance
to IDP populations in Pakistan. This assistance included support for agriculture
and food security; economic recovery; health services; logistics and emergency
relief supplies; and nutrition, shelter, safe drinking water, and sanitation activities.
Despite the deteriorating security situation in Pakistan, USAID responded



                                     SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   17
quickly by directing 71 percent of the $403 million to six programs implemented
through 21 nongovernmental organizations, 5 U.N. organizations, a contractor,
and the GOP. More than $151.8 million was obligated for food aid, while $44
million was transferred to the GOP for budgetary support for IDP families.

Although USAID has carried out six IDP programs in Pakistan, OIG found that
the Agency’s monitoring and evaluation methods needed improvement. For
example, USAID had used third-party monitoring methods only once.
Third-party monitoring is one of the most effective methods for monitoring
programs in high-threat environments, like Pakistan, where managers have only a
limited ability to conduct site visits, verify program performance, meet with
implementing partners and beneficiaries, and observe program activities first
hand. USAID did not use third-party monitoring in the other programs primarily
because the mission had not established a missionwide third-party monitoring
mechanism that could be used by any program office in the mission.
Consequently, without an instrument to easily employ third-party monitoring,
USAID/Pakistan did not verify program performance, observe program activities,
or consistently validate results first hand.

OIG also found that USAID had not implemented monitoring controls to
provide reasonable assurance that the $44 million in cash-transfer funds had
actually reached 140,000 IDP families as intended. The grant agreement for the
cash transfer identified four controls to be implemented by the mission and the
GOP. However, 6 months after the transfer was made, neither the mission nor
the GOP had implemented the controls. Consequently, USAID has little
assurance that the cash-transfer funds actually reached displaced families.

OIG made four recommendations to help the mission improve its management,
monitoring, and evaluation of USAID programs. Management decisions were
reached on all of them, and final action was taken on two prior to the issuance
of OIG’s report.

(Review Report No. 5-391-10-001-S)

Audit of USAID/Pakistan’s Primary Healthcare Revitalization,
Integration, and Decentralization in Earthquake-Affected Areas
Project. On October 8, 2005, residents of northern Pakistan were shaken by a
7.6 magnitude earthquake that claimed more than 74,000 lives and left some
3.5 million people homeless. Thousands of teachers, health care providers, and
civil servants were killed or badly injured. Public systems that supported essential
services, including logistics and administration for health care, no longer existed.

In response to this disaster, USAID/Pakistan designed the Primary Healthcare
Revitalization, Integration, and Decentralization in Earthquake-Affected Areas
(PRIDE) Project and awarded a $28.5 million cooperative agreement to the
International Rescue Committee (IRC), a U.S.-based nongovernmental



18     USAID OFFICE OF INSPECTOR GENERAL
organization, to provide technical support to the public sector health system in
the earthquake-stricken districts of Mansehra and Bagh.




           The drug storage facility at Balakot Tehsil Headquarters Hospital in
            Mansehra District was renovated by this project. (Photo by OIG.)

The project aims to (1) improve the performance of public health services and
management systems, (2) improve access to primary health care services and
improve their quality, and (3) promote healthier behaviors and institutionalize
community participation in health services.

OIG conducted the audit to determine whether the project has improved access
to and quality of primary health care services in the earthquake-affected areas.

We found that numerous project activities had contributed to improving the
quality of primary health care services. For example, a “standards-based
management and recognition approach” helped improve the quality of health
care in 89 of 126 primary health care facilities. A standards-based approach sets
and implements standards, measures progress, and rewards achievement.
Another example was the identification of 11 priority health problems in
121 health facilities by using guidelines that were established through a
“performance improvement process.” And, 113 “health management
committees” were formed to bring communities and local governments together
to form guidelines to ensure improved health care services. By the end of
September 2009, committees had used guidelines to approve 35 grant proposals
funded at $268,889 for local infrastructure improvements.

While the project showed success in improving primary health care quality,
improvements were needed in the access to health care services at higher levels.
To promote wider access to such services, the project had planned to
strengthen the patient referral system. However, the preliminary planning for



                                      SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   19
improving the referral system was completed a year later than anticipated, and
the implementation of an improved referral system was not expected until June
2010. Implementation was delayed because Pakistani Government staff scheduled
to work with the project implementer were not available when needed. Also,
other project activities took precedence over revamping the patient referral
system.

OIG made one recommendation, and final action had been taken by the time the
audit report was issued.

(Audit Report No. 5-391-10-010-P)

Audit of USAID/Pakistan’s Family Advancement for Life and Health
(FALAH). USAID works closely with the Government of Pakistan to improve
the health and well-being of the Pakistani people. In 2009, the Pakistani
population was about 181 million—the world’s sixth most populous country.
By the year 2020, the population is expected to reach 208 million.

In June 2007, USAID’s mission in Pakistan signed a 5-year cooperative agreement
with the Population Council to implement the Family Advancement for Life and
Health (FALAH) Program. The $60 million program aims to increase demand for
and use of birth spacing and family planning services in 20 districts (later
increased to 26 districts) in 4 of Pakistan’s provinces. The Population Council
issued subaward agreements to three Pakistani NGOs to assist in carrying out
the FALAH Program.

FALAH focuses on promoting birth spacing, for improved health of Pakistani
mothers and children, and social marketing of family planning commodities.
Working in predominantly rural districts, FALAH fosters public and private
partnerships for the delivery of family planning services. The Population Council
and other organizations assist in the partnerships to satisfy couples’ unmet needs
for family planning information, services, and products.

The audit sought to determine whether the program was increasing demand for
family planning services and improving family planning services in the public and
private sectors in selected areas of Pakistan.

The audit found, for the items tested and in the geographical areas we were able
to visit, that FALAH was achieving its main goals, as evidenced by the following:

•    Increased demand for family planning services
•    Improved family planning services in the public sector
•    Improved family planning services in the private sector

Notwithstanding these accomplishments, the audit found that none of the
required financial audits had been completed for the Pakistani NGOs helping to



20      USAID OFFICE OF INSPECTOR GENERAL
implement FALAH. Financial audits should have been completed for three such
subrecipients for FY 2008 and 2009.

The audit made one recommendation to assist the mission in improving its
oversight of the program, and a management decision has been reached on the
recommendation.

(Audit Report No. 5-391-10-012-P)

$150 Million Cooperative Agreement in Pakistan Terminated for
Fraud. USAID/Pakistan terminated a 5-year, $150 million cooperative
agreement after OIG found evidence of fraud relating to the procurement of
household kits obtained by the implementer of USAID’s livelihoods development
program in the FATA. Under this program the implementer was responsible for
a wide range of disaster relief, infrastructure development, and educational,
agricultural, and related activities.

The investigation conducted by OIG and the Pakistan National Accountability
Bureau revealed evidence of collusion between vendors and staff of the
implementing partner, resulting in overpayment for certain goods. The
investigation also discovered that the implementing partner had inappropriately
hired relatives of the USAID agreement officer’s technical representative
responsible for overseeing the program.

As a result of the investigation, USAID terminated its cooperative agreement
with the implementer, and the implementer returned over $992,000 [figure
corrected 12-10-2010] in previously disbursed funds.

USAID Personal Services Contractor in Pakistan Terminated for
Misuse of Official Position. A USAID personal services contractor serving as
an agreement officer’s technical representative was terminated as a result of
information uncovered by OIG investigators. The contractor was overseeing
two cooperative agreements issued by USAID for the implementation of a
$300 million program designed to carry out disaster relief, infrastructure
activities, and education and agricultural development in Pakistan’s FATA. The
investigation revealed that the contractor—a dual Canadian and Pakistani
citizen—had misused his official position for the personal gain of his relatives and
had solicited favors from USAID implementing partners. He sought employment
for two of his relatives and requested that an implementing partner create a new
position for one of them.

In addition to terminating the personal services contractor, USAID debarred him
as a participant or principal in all federal procurement and nonprocurement
programs for a period of 3 years.




                                    SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   21
                                           Iraq
Audit of USAID/Iraq’s Implementation of the Iraq Financial
Management Information System. The Iraq Financial Management
Information System was designed to help the Iraqi Government formulate,
execute, and monitor central government budgets. The system was developed
under two contracts between USAID and BearingPoint Inc. that ran from July
2003 through July 2009 for a total cost of $37.4 million.

Although BearingPoint completed a substantial amount of systems development,
equipment procurement, and training, the Iraq Financial Management Information
System has not been fully implemented and has not achieved its goals of helping
the Government of Iraq formulate, execute, and monitor central government
budgets. The system was not being used as the Government of Iraq’s system of
record, and the system could not produce complete trial balances, useful reports
for individual ministries and offices, or information needed to perform bank
reconciliations. It also could not support voucher numbers that would uniquely
identify individual ministries and offices or support multiple budgets for individual
ministries and offices.

These issues occurred for two main reasons. First, the contractor did not
provide key contract deliverables, including purchasing and budget modules, an
offline data-entry tool, or enhanced reporting tools, and participants were not
satisfied with the training that the contractor had provided. Second, in the urgent
pressure to develop the system in postwar Iraq, the contractor did not follow
certain best practices for systems development, including obtaining functional
user requirements, selecting a system on the basis of system and user
requirements, developing a concept design, obtaining customer buy-in and
support, or conducting system testing. Had the contractor followed these best
practices, it could have prevented many of the problems we found. In addition,
USAID/Iraq stated that a lack of support and commitment by some officials
within the Iraqi Ministry of Finance had hindered implementation of the system.

We recommended that USAID/Iraq develop a strategy for correcting system
deficiencies, and USAID/Iraq agreed with the recommendation. According to the
mission, all funding has concluded, and USAID/Iraq is not planning any further
funding of the system because of the lack of support from the Ministry of
Finance.

Although USAID/Iraq agreed with the report recommendation, it thought that
the report was too critical of the mission and its contractor and not sufficiently
critical of the Government of Iraq, which, as the intended user of the system,
shared responsibility for implementing it.

(Audit Report No. E-267-10-002-P)



22     USAID OFFICE OF INSPECTOR GENERAL
                             West Bank and Gaza
OIG’s Oversight Activities Continue in the West Bank and Gaza. OIG’s
oversight activities in the West Bank and Gaza included an examination of
USAID’s cash-transfer program to the Palestinian Authority and continuing audits
of USAID’s contractors and grantees.

USAID contracted with independent public accounting firms to conduct
examination procedures of cash transfers to the Palestinian Authority; financial
audits; and examination procedures of contractors, grantees, subcontractors,
and subgrantees. These audits help ensure the validity of costs claimed and
compliance with Executive Order 13224 regarding blocking assistance to
terrorist organizations. 8 During this period, OIG issued 16 final reports. The
reports identified questioned costs of approximately $4.3 million of the
$380 million audited. In addition, the reports identified areas for improvement in
internal controls and instances of noncompliance with agreements. OIG
oversight activities during this period did not identify any instances in which
terrorist organizations had received USAID funds.


                                        Sudan
Implementing Partner Pleads Guilty to Sending USAID Funds to
Terrorist Organizations. OIG investigated whether a former USAID
implementing partner may have funneled USAID funds to specially designated
global terrorist organizations.

We discovered that the partner was the U.S. office of a charitable organization
headquartered in Khartoum, Sudan, that had been formed to raise money in the
United States to assist Africa in times of famine. It was closed in October 2004,
after the U.S. Treasury Department had identified it as a specially designated
global terrorist organization. The international offices had provided financial
support for Osama bin Laden, al-Qa’ida, and the Taliban.

In 2008, the implementing partner and some of its employees were indicted
because they had engaged in transactions for the benefit of terrorists and
conspired with a former U.S. congressman to convert stolen USAID funds into
payment for his advocacy on behalf of the charity. A codefendant and former
fund-raiser pleaded guilty to conspiring with the former congressman to lobby
for the partner’s removal from a U.S. Senate Finance Committee list of charities
suspected of having terrorist ties, while concealing this advocacy and failing to



8
  Executive Order 13224 of September 23, 2001, “Blocking Property and Prohibiting
Transactions With Persons Who Commit, Threaten to Commit, or Support Terrorism.”



                                     SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   23
register with the proper authorities. Two other codefendants pleaded guilty for
their roles in the conspiracy. The executive director also pleaded guilty for his
role in illegally transferring over $1 million to Iraq and for obstructing U.S. laws
governing tax-exempt charities.

The former congressman pleaded guilty to violations of the Foreign Agent
Registration Act and to obstruction of justice because he had used his own
charities to hide payments made to him by the organization and had lied
repeatedly to federal agents and prosecutors investigating the case.


                 Just and Democratic Government

                                           Democracy
Audit of USAID/Lebanon’s Rule of Law Program. Lebanon’s judiciary has
not had the resources it needs for more than 30 years. Moreover, the judiciary’s
independence has been historically weak. To encourage judicial independence
and promote an effective court system, USAID launched the Strengthening the

Independence of the Judiciary and Citizen Access to Justice in Lebanon Project in
2007 and awarded a 3-year, $8.2 million task order to the National Center for
State Courts (NCSC).




                   Renovated Beirut Judgment Executions Court in Adlieh,
                        Lebanon. (Photo by implementing partner.)

NCSC was expected to design and implement a rule of law project that would
increase the effectiveness and independence of the Lebanese judicial system with
better-educated judges, more efficient and transparent courts and legal
processes, and frameworks that support judicial independence and impartiality.
In addition, NCSC was tasked with improving judicial training and court facilities.



24     USAID OFFICE OF INSPECTOR GENERAL
USAID/Lebanon’s rule of law program is not making the Lebanese judicial system
more independent and effective, and reported results have been inaccurate.
According to NCSC officials, judicial independence is the most important goal.

However, the implementer did not complete any activities on legal journalism
and cancelled two of the activities planned for developing consensus for
institutional judicial independence. In addition, USAID/Lebanon significantly
overstated results for 10 of 12 program performance measures that had been
reported to Congress and stakeholders during FY 2008 and 2009.

USAID/Lebanon and its implementer encountered many difficulties that resulted
in increased and questioned costs valued at approximately $231,000. USAID’s
activities suffered primarily because the mission did not manage the activities
adequately, the implementer did not renovate facilities as required by the Federal
Acquisition Regulation, and the mission paid for activities outside of the scope of
work, such as unauthorized legal journalism activities.

OIG made 14 recommendations. For example, USAID/Lebanon could better
protect the U.S. Government’s investment in its rule of law activities in Lebanon
by strengthening its management controls. Also, the mission should provide
more oversight of the project-funded renovations and ensure their sustainability,
make sure that funding requests and expenditures are appropriate, develop
negotiation points for tax exemptions, strengthen program oversight of the
contractor’s performance, and report accurate and complete information to
stakeholders. Management decisions were reached on all 14 recommendations,
and final actions were reached on 8 before the report was issued.

(Audit No. 6-268-10-006-P)

Estonian Sentenced to Prison for Major Fraud. A former USAID
contractor, who had worked from May through October 2003 on a $239 million
governance contract in Iraq, was sentenced to 33 months in prison and fined
$150,000 in connection with his guilty plea to charges of major fraud against the
United States. As we reported in our last two semiannual reports, the
contractor was the first Estonian national ever extradited to the United States.
The investigation revealed that he had unlawfully directed two subcontract
agreements worth $1 million to a Dubai firm in return for goods and services
worth hundreds of thousands of dollars, including improvements to a home in
North Carolina and the purchase of two condominiums in Miami, FL. The
Estonian was also debarred from future government contracts by USAID.




                                   SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   25
                 Economic Growth and Prosperity

                                      Economic Security
Audit of USAID’s Cash-for-Work Activities in Haiti. Following the
January 2010 earthquake in Haiti, three USAID operating units sponsored
cash-for-work (CFW) activities implemented by Development Alternatives Inc.,
Chemonics International, Cooperative Housing Foundation, and the International
Organization for Migration. OIG’s audit found that the projects provided
tangible, though limited, contributions to Haiti’s recovery. Through
June 15, 2010, these projects had created more than 60,500 short-term
employment opportunities and provided $7.2 million in salaries to workers.

Several factors limited the positive effects of the CFW projects. Following the
earthquake, extensive rubble and debris kept Haitians from rebuilding. To help
address this situation, USAID’s implementing partners undertook projects
offering cash for rubble removal. However, because efficient rubble removal
demands a substantial investment in trucks and heavy equipment, associated
costs significantly reduced the funds available for workers’ salaries and the
overall number of workers employed by the projects. Consequently, CFW
projects did not always reach employment targets and fewer Haitians received
jobs than intended.

Second, CFW implementing partners had adopted different safety policies and
procedures for rubble removal, potentially exposing workers to health risks.

Rubble removal sites sometimes contain electrical and biological hazards, toxic
substances, falling materials, unstable surfaces, and other physical hazards.




             To remove rubble, the implementing partner used small labor
             teams to supplement heavy equipment.
             (Photo by implementing partner.)




26     USAID OFFICE OF INSPECTOR GENERAL
Implementing partners have not developed a uniform approach to protecting
workers from these hazards or responding to accidents that occur. While one
implementing partner generally ensured that workers wore hard hats, gloves,
protective eyewear, and rubber boots at work sites, others did not.

Third, the processes for selecting project workers and sites for rubble removal
activities did not always involve desirable levels of community participation or
transparency, and USAID’s implementing partners did not have sufficient
controls in place to prevent corruption. For example, one implementing partner
permitted local mayors to select CFW participants without reviewing the
selections to ensure that family members and friends did not dominate the labor
pool. Improvements could also be made to the process for selecting sites for
rubble removal activity, as not all implementers had established controls to
ensure that private residences included in these projects met USAID’s clearly
defined criteria.

In addition, the audit noted that one of the USAID operating units sponsoring
CFW activities had not conducted financial reviews of its implementing partners.
USAID performs such financial reviews to determine whether implementing
partners have adequate controls to safeguard project assets against waste, fraud,
and abuse.

The audit made seven recommendations to address these issues, and
management decisions were reached on four of them.

(Audit Report No. 1-521-10-009-P)

Audit of USAID’s Response to the Global Food Crisis. From March 2007
to March 2008, global food prices increased an average of 43 percent. These
rising prices led to an increase in food insecurity among poorer populations. A
number of factors contributed to this spike in food prices, including increased
consumer demand, rising energy costs, and lower crop yields. Globally, the
majority of countries facing food security crises are in Africa, with more than
120 million Africans suffering chronic hunger. In West Africa, eight countries
have experienced riots and demonstrations related to high food prices, posing
threats to peace and security.

In fall 2008, the Supplemental Appropriations Act, 2008 (Public Law 110-252)
provided $200 million to USAID to address the global food crisis. The goals of
this multiyear (FY 2009–10) response were to support actions to increase
agriculture productivity and production, increase regional trade in food staples,
and promote sound market-based principles. Of the $200 million allocated to
development assistance funding, USAID designated $128 million to six missions
in West Africa: Ghana, Liberia, Mali, Nigeria, Senegal, and the West Africa
Regional Mission.




                                    SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   27
This audit was conducted to determine whether USAID activities were helping
to address the global food crisis in West Africa.

OIG found that USAID assistance programs are generally contributing to the
goals of increased agricultural productivity, increased production, and increased
regional trading of food staples.

In the first year of funding, however, USAID was hampered by the short
timeframe in which it had to plan and implement the programs, as well as low
staffing levels in its economic growth and agriculture offices. Although some
USAID employees reported that the performance targets were unrealistic, these
two factors—short timeframes and a lack of sufficient staff—contributed to
results that fell short of performance targets. The audit concluded that with
mission staff overextended and additional funding on the way, workloads may be
unsustainable.

To address these challenges, OIG made two recommendations, and management
decisions were reached on both.

(Audit Report No. 9-000-10-007-P)

Audit of USAID/Zambia’s Food Security Activities. Poverty and food
insecurity are widespread throughout Zambia, one of the world’s least
developed countries. Nearly two-thirds of Zambians earn less than $1 per day,
and nearly half cannot meet their basic food needs. Among the many causes of
food insecurity are poor health, limited rural development, government policy
that discouraged development of the agricultural sector, and low agricultural
productivity.

To help address food insecurity in Zambia, USAID’s Office of Food for Peace in
Washington, DC, signed a 5-year agreement in 2006 with a consortium to
implement food security activities. The total estimated value of the agreement as
of September 30, 2009, was $38 million. The consortium includes Catholic Relief
Services (CRS), CARE, World Vision, and Land O’ Lakes, with CRS as the lead
organization. The goals of the consortium are to help reduce food insecurity and
increase resiliency of vulnerable communities.

OIG collected anecdotal evidence that USAID/Zambia’s food security activities
were benefiting individuals. For example, in the community of Siakacheka,
auditors observed a field that was used to demonstrate new agricultural
techniques and equipment to approximately 20 beneficiary farmers. With the
training and equipment, the beneficiaries had the field ready for planting when
the first rains came in late November 2009, while other farmers were unable to
plant until December. The difference between the mature crops in the
demonstration field and the younger crops in neighboring fields was evident.
Early planting was critical because if rainfall suddenly diminished or ceased, the
mature crops would be more likely to survive than the younger crops.


28     USAID OFFICE OF INSPECTOR GENERAL
Other anecdotal evidence indicated that USAID’s food security activities in
Zambia were having an effect; however, OIG could not fully evaluate the benefit
of the activities because of a lack of relevant and reliable empirical data. For
example, auditors found material misstatements related to food security
activities in the mission’s Full Performance Plan and Report for FY 2009. The
number of program beneficiaries who reportedly had made the transition from
reliance on food aid to sustainable farming was not adequately supported, and
the number of beneficiaries who had received food aid was significantly
overstated. In addition to these reporting issues, data collection and reporting
did not always yield useful information.

The mission also had cost-control and scheduling problems. For instance, the
costs of distributed food commodities were unreasonably high—5 to 10 times
more expensive than comparable commodities on the local market—and the
mission had not adequately investigated the difference. Auditors noted that more
than half of the total costs of these distributed commodities were internal
transport, storage, and handling expenses. Finally, infrastructure improvement
activities were not progressing on schedule.

OIG made eight recommendations to help USAID/Zambia correct the problems
uncovered by the audit. Management decisions were reached on all but one
recommendation, and final action was taken on six before the audit report was
issued.

(Audit Report No. 4-611-10-007-P)


                                    Environment
Audits of USAID’s Efforts to Mitigate Environmental Impact in Its
Project Portfolio in Egypt and Democratic Republic of Congo. Title 22
of the Code of Federal Regulations, Part 216 (22 CFR 216), describes the
environmental procedures that USAID must follow on all its programs, projects,
and activities. These procedures are designed to ensure environmentally sound
design and management of development activities and to prevent environmental
damage resulting from inadequate attention to these issues. USAID guidance
requires that the requirements of 22 CFR 216 be included in project design and
implementation. The guidance also requires USAID staff who are responsible for
the activity to plan how they will comply with environmental requirements and
monitor activities for compliance with approved environmental reviews and
documentation. Audits were conducted to determine whether the missions in
Egypt and Democratic Republic of Congo were achieving their goals and
objectives of mitigating environmental impact.

USAID/Egypt. OIG reviewed 20 projects implemented in FY 2008 and 2009 and
valued at $150 million that included activities with potential for environmental



                                     SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   29
damage. OIG found that USAID/Egypt was achieving its goals and objectives to
mitigate environmental impact for the 20 projects and found no indication of
significant adverse impact to the environment as a result of USAID-implemented
activities. For projects with environmental determinations requiring mitigation
and monitoring, the mission developed measures to minimize the potential
adverse effects resulting from these activities, incorporated the measures into
the project’s technical specifications, and—with the exception of the avian
influenza activities—has been monitoring compliance with environmental
requirements through its project management.

Although USAID/Egypt has taken steps to develop measures to lessen the
adverse effects of its activities on the environment, OIG found some areas of the
mission’s environmental management practices that could be strengthened.

OIG made five recommendations. For example, USAID/Egypt could improve its
environmental procedures by (1) improving its monitoring of the specified
mitigating measures for avian influenza activities, (2) developing a procedure to
ensure that environmental factors and mitigating measures that are requirements
identified in Initial Environmental Examinations are included in solicitation
documents and implementation instruments, such as for contracts and
agreements, and (3) formally designating a mission environmental officer.

Management decisions and final actions have been taken on all five
recommendations.

(Audit Report No. 6-263-10-005-P)

USAID/Democratic Republic of Congo (DRC). OIG’s environmental audit focused on
four projects that were active in 2009 and were valued at $133.9 million. The
audit found that USAID/DRC is achieving its goals and objectives related to
mitigating environmental impact. This is partly because the mission avoids
projects with components that normally have a significant effect on the
environment. For the most part, activities implemented by USAID/DRC have a
low risk of environmental damage, and the mission and its partners have
developed specific measures to minimize and compensate for adverse effects of
these activities.

Although USAID/DRC has taken steps to minimize adverse effects of its activities
in the environment, OIG found pervasive environmental management compliance
deficiencies. USAID/DRC (1) did not adequately incorporate Initial
Environmental Examination assessment requirements into solicitations and
awards, (2) has not updated the appointment memorandum for the mission’s
environmental officer to include important responsibilities, (3) needs to
strengthen the process for ensuring environmental compliance, and (4) needs to
report on environmental compliance annually.




30     USAID OFFICE OF INSPECTOR GENERAL
Auditors made six recommendations to help the mission overcome noted
deficiencies. Management decisions have been reached on all six.

(Audit Report No. 7-660-10-009-P)

Audit of USAID/Panama’s Environmental Activities. With its strategic
location and 80-kilometer canal between the Atlantic and Pacific Oceans, the
Republic of Panama is an important hub for global commerce. To help the
Government of Panama protect this critical economic and environmental
resource, USAID/Panama has implemented its Conservation of Biodiversity in
the Panama Canal Watershed (CBC) Program as a joint venture between
International Resources Group and Tetra Tech (IRG/TT). The program intends
to mitigate threats to the ecosystems in the Panama Canal watershed and
improve management of those areas in order to maintain the hydrological
functioning of the water system, protect biodiversity, and enhance development
objectives. As of December 2009, USAID/Panama had obligated approximately
$7.7 million and expended over $6.1 million to support CBC activities.

OIG conducted this audit to determine whether USAID/Panama’s environmental
activities were mitigating threats to the ecosystem in the Panama Canal
watershed and improving the management of areas with high environmental and
socioeconomic importance.

We found that USAID/Panama’s CBC Program has provided significant benefits
to some individuals and organizations in the Panama Canal watershed and buffer
areas. However, the program achieved only limited documented progress
toward improving the management of these areas.

USAID/Panama’s partner, IRG/TT, has generally performed as outlined in the
contract and has accurately reported on its progress. However, despite several
notable accomplishments, the CBC Program’s overall effects and progress were
difficult to assess or verify. Overall performance indicators lacked a connection
to the field activities they were meant to measure. Also, the reporting on the
implementation of program activities generally was not useful for monitoring the
program, managing the watershed and buffer areas, or communicating the effects
of the program’s activities.

OIG made four recommendations, and management decisions have been reached
on all of them.

(Audit Report No. 1-525-10-008-P)




                                    SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   31
                               Investment in People

                                           Health
Audits of USAID Activities to Prevent the Transmission of HIV in
Uganda and Kenya. Enacted in May 2003, the President’s Emergency Plan for
AIDS Relief (PEPFAR) was designed to combat HIV/AIDS throughout the world.
PEPFAR was extended in July 2008 when the President signed legislation
authorizing up to $48 billion over 5 additional years (2009–13) to continue the
U.S. Government’s global efforts against HIV/AIDS, tuberculosis, and malaria.
PEPFAR is implemented collaboratively by seven government agencies and
departments—USAID; the Departments of State, Commerce, Health and Human
Services, Labor, and Defense; and the Peace Corps. USAID is one of the lead
agencies and in FY 2009 administered 60 percent of all PEPFAR funds, or a total
of about $3.4 billion.

PEPFAR is geared toward improving HIV/AIDS prevention, care, treatment, and
support, as well as the long-term sustainability of these efforts. These two
audits focused on the goal of prevention, specifically the prevention of sexual
transmission of the virus using the “ABC” approach: “A” for abstinence, “B” for
being faithful, and “C” for consistent and correct use of condoms.

USAID/Uganda. USAID/Uganda has sponsored activities to prevent sexual
transmission of HIV that align with Uganda’s national HIV/AIDS strategy.
Through these activities, USAID/Uganda reached millions of individuals with
messages promoting abstinence, faithfulness to one partner, and other means of
preventing HIV/AIDS transmission, such as condom use. However, after 6 years
and $116.4 million in expenditures, USAID/Uganda could not demonstrate how
much progress it had made in preventing infections and reducing the incidence of
HIV. Long-term results on HIV incidence and condom use are not reported with
enough frequency for USAID/Uganda to use them in tracking program progress,
so the mission planned to use an intermediate measure for this purpose.
However, USAID/Uganda was unable to assess progress on this intermediate
measure because the Ugandan Ministry of Health had not collected needed data
since 2005.

OIG made four recommendations to help USAID better manage the program,
and management decisions have been reached on all of them.

(Audit Report No. 9-000-10-008-P)

USAID/Kenya. OIG conducted an audit of three USAID PEPFAR programs in
Kenya that are part of the AIDS, Population, and Health Integrated Assistance
Program II (APHIA II). APHIA II includes the full range of HIV/AIDS prevention,
care, and treatment services as well as activities to address tuberculosis, child



32     USAID OFFICE OF INSPECTOR GENERAL
survival, and malaria. One of the three programs was administered nationwide,
while the remaining two focused on the Western and Coast Provinces.
USAID/Kenya’s PEPFAR obligations for the three audited programs totaled
$41.1 million for FY 2008 and 2009.

Estimates indicate that new HIV infections have declined in Kenya, from 132,000
new adult infections in 2007 to 100,000 new adult infections in 2009. However,
it is not possible to determine whether or to what extent USAID activities may
have contributed to this decline because of data collection, reporting, and
integrity issues. OIG could not determine whether USAID-financed activities
achieved performance targets for specific performance indicators because
performance targets were inconsistent and reported results were unreliable and
unverifiable. The deficiencies that OIG found were so large that we could not
make even an educated guess as to whether targets for the specific performance
indicators had been met.

Performance targets established in the mission’s country operational plans and
performance management plans sometimes did not agree with each other or
with targets used by the implementing partner. For example, the FY 2009
APHIA II Western target for individuals reached through community outreach
promoting HIV/AIDS prevention through abstinence or being faithful was listed
as 1,440,000 in the country operational plan, 60,000 in the performance
management plan, and 30,000 in the partner’s progress report.

In another program, the results reported for prevention indicators were
inconsistent. For example, Family Health International, the implementing
partner for the APHIA II Coast program, reported reaching 206,461 people
with abstinence messages, while USAID reported reaching 470,012. Similar
inconsistencies appeared between USAID’s records and the records of the
other implementing partners. Inconsistencies occurred because USAID and its
implementing partners had updated reports without coordinating with one
another.

Moreover, the reported results could not be verified. Results could not be
traced to supporting documentation in some cases and, in others, reported
results were inconsistent with underlying information. Also, data were not
collected uniformly, site visits were infrequent, and key meetings were not
documented.

OIG made 10 recommendations to help the mission improve its management of
these PEPFAR programs. Management decisions were reached on all the
recommendations, and final action was taken on one before the report was
issued.

(Audit Report No. 7-615-10-010-P)




                                    SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   33
Audit of USAID/Mozambique’s HIV/AIDS Treatment Program. The
U.S. Government channels a large percentage of its total funding for combating
HIV/AIDS in Mozambique through USAID. USAID/Mozambique’s HIV/AIDS
program seeks to mitigate the impact of the epidemic and to support the
country’s health system for HIV/AIDS treatment. In FY 2009, the treatment
program involved three major implementing partners:

•    Health Alliance International. USAID signed a cooperative agreement for
     $57.3 million to provide HIV/AIDS-related services from January 2004
     through October 2009.
•    Family Health International. USAID signed a cooperative agreement for
     $16.9 million to provide HIV/AIDS-related services from June 2006 through
     November 2009.
•    Supply Chain Management System. USAID obligated $51.9 million for
     FY 2007–09 activities related to a task order to help the Ministry of Health
     improve its storage and distribution system for medications, including
     antiretroviral drugs.

OIG conducted this audit to determine (1) whether USAID/Mozambique’s
HIV/AIDS treatment program was mitigating the impact of the epidemic and
supporting the country’s health system for HIV/AIDS treatment and (2) whether
USAID/Mozambique had implemented the recommendations from a previous
audit to strengthen the procurement, deployment, and warehousing of program
commodities. 9

USAID/Mozambique had some success in mitigating the impact of the epidemic
in Mozambique and supporting the country’s health system for HIV/AIDS
treatment. We found that patients on HIV/AIDS treatment in the provinces
we visited were living longer and had a better quality of life than they would
without USAID support. In addition, free antiretroviral drugs, provided by the
U.S. Government, were invaluable in treating infected Mozambicans. However,
the mission conceded that it had been less successful in terms of increasing the
number of new antiretroviral therapy patients and the number of individuals
trained in HIV-related institutional capacity building.

Although the program had achieved some of its goals, some areas needed
improvement. Specifically, implementing partners reported performance data
inconsistently, one implementing partner could not always support the data it
had reported, USAID/Mozambique had not developed an FY 2009 performance
management plan, pharmacy stockroom management was insufficient, the central
warehouse’s drug inventory system was inadequate, warehouses and pharmacies


9
 “Audit of USAID/Mozambique’s Procurement and Distribution of Commodities for the
President’s Emergency Plan for AIDS Relief,” Audit Report 4-656-09-001-P, December 18, 2008.




34      USAID OFFICE OF INSPECTOR GENERAL
were not storing antiretroviral drugs properly, and USAID/Mozambique was
not enforcing branding policy. We made 12 recommendations related to these
findings, and management decisions were reached on 9.

(Audit Report No. 4-656-10-006-P)

Audit of USAID/Ghana’s HIV/AIDS Program. In 2009, Ghana had an HIV
prevalence rate of approximately 1.7 percent. Under PEPFAR, the U.S.
Government developed a strategy for working with the Government of Ghana
to reduce new infections by 30 percent by 2013 through prevention efforts.
Other goals included strengthening the health management systems needed to
achieve prevention and care goals and strengthening the capacity of organizations
to provide services to at-risk populations and people living with HIV.

Since 2004, USAID has supported training, logistics, and performance
improvements to improve care in selected sites in Ghana. To carry out these
activities, the mission entered into agreements with EngenderHealth, Academy
for Educational Development (AED), John Snow International (JSI),
Opportunities Industrialization Centers International, and Ghana’s Ministry of
Education, Science, and Sports. During FY 2009, USAID disbursed $3.3 million
for the Ghana program.

OIG sought to determine whether USAID’s activities in Ghana have reduced the
prevalence of HIV and improved the quality of services. We concluded that
although the prevalence rate of HIV has decreased—from a peak in 1998 of
2.4 percent to an estimated 1.7 percent in 2009—USAID has been only partially
successful in achieving the specific goals of its programs. OIG made nine findings,
three of which are discussed below.

According to two of USAID’s nine principles of development and reconstruction
assistance (capacity building and sustainability), the Agency is to strengthen local
institutions, transfer technical skills, and design programs to ensure their impact
endures. Contrary to these principles, AED did not give its subpartners enough
time to implement activities that were targeted at reducing infections and
mitigating the effects of AIDS. As a result, although the infection rate in Ghana
has declined, the subpartners may not have achieved the capacity to sustain
mitigation efforts.

OIG also found limited improvement in the overall quality of health services.
EngenderHealth did not collaborate sufficiently with hospital management,
document action plans it had helped hospitals to develop, or assist in
implementing the plans. Consequently, hospital staff lost interest in the program,
limiting its effectiveness.




                                    SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   35
               Supplies that would not fit in storage rooms at the Greater Accra
                 Regional Medical Store are piled outdoors. (Photo by OIG.)

Regarding the HIV/AIDS commodities supplied under the DELIVER program
implemented by JSI, auditors observed that storage temperatures at the Central
Medical Store exceeded manufacturers’ established limits, expired drugs were
not disposed of regularly, and one-third of antiretroviral treatment drugs were
unavailable.

OIG made nine recommendations to help the mission address the problems
uncovered by the audit. USAID agreed with all but one recommendation,
although management decisions were reached on all nine and final action taken
on four by the time the audit report was issued.

(Audit Report No. 7-641-10-006-P)

Audit of USAID/ Southern Africa’s Regional HIV/AIDS Program in
Botswana. USAID/Southern Africa’s Regional HIV/AIDS Program in Botswana is
a critical part of the mission’s HIV/AIDS program. Three partners are
implementing prevention and care activities: (1) Research Triangle Institute,
(2) Project Concern International, and (3) Academy for Educational Development.
At the end of FY 2009, USAID/Southern Africa reported obligations of
$10.7 million.

Two main goals of the mission’s prevention and care activities in Botswana are
to (1) prevent transmission of HIV/AIDS by educating people with prevention
interventions and (2) provide care to people suffering with HIV/AIDS and to
orphans and other vulnerable children. The mission strives to achieve these goals
by a variety of means, including the following:

•    Promoting HIV/AIDS prevention through outreach and training


36      USAID OFFICE OF INSPECTOR GENERAL
•      Providing HIV-related palliative care and training related to palliative care 10
•      Serving orphans and vulnerable children and providing training related to
       caring for such children
•      Training individuals in institutional capacity building and community
       mobilization

OIG found that the mission had reached a significant number of people with its
interventions during FY 2009, the first year of these activities. At least
4,817 individuals were reached with HIV/AIDS prevention messages, and at
least 274 orphans and vulnerable children received care. However, because of
problems with data quality, the audit could not determine whether
USAID/Southern Africa’s regional HIV/AIDS program in Botswana had provided
individuals with prevention and care services at the levels planned.

OIG also determined that USAID/Southern Africa needs to strengthen its
program by clarifying management authority and responsibility for the regional
HIV/AIDS program, training the staff of prevention and care service providers,
developing a complete performance management plan, and requiring that mission
staff perform and document adequate data-quality assessments and site visits.

The audit made six recommendations, and management decisions were reached
on all of them.

(Audit Report No. 4-674-10-005-P)

Audit of USAID/Nigeria’s Malaria Interventions. Malaria is endemic
throughout Nigeria. It accounts for nearly 110 million clinically diagnosed cases
per year, 60 percent of outpatient visits, and 30 percent of hospitalizations. It is
also believed to cause up to 11 percent of maternal mortality, 25 percent of
infant mortality, and 30 percent of mortality of children under age 5. Aside from
malaria’s direct effect on health, the disease places severe social and economic
burdens on communities and the country as a whole, with about $879 million
lost to malaria annually in treatment and prevention costs and missed work. In
Nigeria, malaria kills an estimated 300,000 children per year.

USAID participates in the Roll Back Malaria Partnership, a global initiative of
more than 90 partners that aims to reduce the burden of malaria by 50 percent
by 2010. USAID also supports the national malaria program to increase access to
and use of proven prevention and treatment interventions.

USAID/Nigeria’s FY 2009 budget for malaria totaled $14.8 million, of which
43 percent went to purchase antimalarial drugs, 43 percent to purchase and
distribute insecticide-treated nets, and the remainder to fund activities like


10
     Palliative care focuses on reducing the severity of disease symptoms.



                                            SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   37
training health workers in prevention and treatment techniques. To implement
its malaria activities, the mission entered into agreements with four implementing
partners: Society for Family Health, Academy for Educational Development,
Pathfinder International, and John Snow, Inc.—DELIVER.

OIG conducted this audit to determine whether USAID/Nigeria’s activities have
increased access to and use of proven malaria prevention and treatment
interventions.

Toward the goal of preventing malaria by 50 percent, mission officials and the
Nigerian Ministry of Health have asserted slow progress because of limited
funding and relatively low levels of activity by other donors. Nonetheless,
increasing numbers of children under 5 and pregnant women now sleep under
treated bed nets. Nigeria’s demographic and health surveys also reported that
under-5 mortality has decreased and that 16 percent of children under 5 had
fever (the main symptom of malaria) during the 2 weeks preceding the interview,
compared with 32 percent in 2003.

USAID has made progress in providing assistance to the national malaria
program by increasing access to insecticide-treated nets, providing malaria
treatment and prevention training to more than 2,500 people, and raising
awareness of malaria among an estimated 23 million people.

Despite these noteworthy accomplishments, the mission has not achieved its
main goals, and significant problems include missing or stolen bed nets, results
reported without documentation, and failure to distribute over 400,000 doses of
artemisinin-based combination therapies. To address these problems, OIG
made six recommendations. Management decisions were reached on all six, and
final action has been taken on one.

(Audit Report No. 7-620-10-008-P)

Audit of USAID’s Food Aid Assistance Under the Liberia Integrated
Assistance Program. From October 1, 2006, to May 31, 2010, the
U.S. Government provided food assistance to Liberia through the Liberia
Integrated Assistance Program (LIAP). The program was designed to transform a
program addressing the emergency humanitarian needs resulting from Liberia’s
14-year civil war into one more focused on long-term development. A
consortium of three U.S.-based NGOs—Catholic Relief Services (CRS), the lead
organization; Samaritan’s Purse; and Africare—served as the cooperating
sponsors to implement the program. With budgeted funding of approximately
$23 million, the program focused on reducing food insecurity among rural
households in six counties of Liberia and providing assistance to more than
134,000 direct beneficiaries. The program also worked with 10 local NGOs to
build their capacity to implement programs on their own.




38     USAID OFFICE OF INSPECTOR GENERAL
OIG conducted this audit at USAID/Liberia to determine whether USAID’s food
assistance under LIAP had (1) enhanced household livelihoods, (2) increased
community resilience to hazards and shocks, and (3) improved health and
nutrition.

We found that LIAP had provided considerable assistance to those who had
suffered from the war but had reached only about 74,000 of the expected
134,000 beneficiaries and only partially achieved its main goals. The program
distributed 4,879 of the 5,591 metric tons (MT) of commodities budgeted for
feeding vulnerable groups for the life of the program but sold or monetized 11
only 11,847 of the 24,920 MT of commodities budgeted for monetization. The
program sold fewer commodities than expected because, in light of exorbitant
increases in food and fuel prices, in 2008 USAID’s Office of Food for Peace
found that providing the cooperating sponsor with cash in lieu of commodities
was more cost effective.

We also found weaknesses in monitoring and reporting, such as:

•    Lack of follow-up on the status of claims for lost commodities.
•    Lack of documentation at food distribution sites and cooperating sponsor
     offices.
•    Inaccurate documentation of beneficiary lists and quarterly reports on food
     inventories.
•    Absence of the cooperating sponsor at food distributions.
•    Poor conditions and lack of security at warehouses where food is stored.

These weaknesses occurred largely because CRS lacked a full-time employee to
monitor work done by 10 local NGOs. Because of these weaknesses, we could
not determine whether the program was achieving its intended results, and the
Office of Food for Peace may not be able to recuperate funds it is owed for
commodity losses.

We also found that the cooperating sponsor did not adequately monitor
monetized proceeds and could not retain its trained program volunteers. Also,
the cooperating sponsor did not revise targets that were set too low or too high
and did not adhere to branding and marking requirements.




11
  The sale of U.S. agricultural commodities by cooperating sponsors (turning food assistance into
program funds) is referred to as monetization.



                                         SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   39
We made 11 recommendations to resolve these issues. Management decisions
were reached on all the recommendations, and final action was taken on five of
them by the time the audit report was issued.

(Audit Report No. 7-669-10-007-P)


                          Management Capabilities

                                 Information Technology
Audit Finding on Funding for Information Technology Security and
Upgrades. Under the American Recovery and Reinvestment Act of 2009
(ARRA), USAID received $38 million for immediate IT security and upgrades to
support mission-critical operations. USAID determined that the funding would
be used for the development and deployment of the Global Acquisition and
Assistance System over a 2-year period.

Although USAID implemented procedures for separating ARRA payments from
other payments, it erroneously used ARRA funds to pay for services that were
not authorized under the ARRA obligations. Six invoices with contract line items
totaling $7,860 were improperly paid with ARRA funds for services rendered
from September 2009 through February 2010. These payments reduced the
funds available for satisfying current obligations incurred under the Recovery Act
and have resulted in improper payments, as defined by the Improper Payments
Information Act of 2002. In June 2010, USAID corrected this error and
reimbursed the $7,860 to the Recovery Act Fund.

(Memorandum Report No. 0-000-10-001-K)


                                   Employee Misconduct
USAID Employee Pleads Guilty to False Statements. Based on
information originally provided to OIG by USAID, an investigation revealed that
a newly hired employee had defrauded the Agency of more than $4,000. The
employee was detailed from Washington, DC, to an East African mission for
30 days before proceeding to his permanent post of assignment. Upon arrival at
his assigned post, the employee filed a claim for lodging expenses supposedly
incurred while on detail to the East African mission. The investigation discovered
that the employee had stayed in a USAID-funded residence free of charge and
that he had submitted a fictitious receipt to support his lodging claim.

The U.S. Attorney’s Office, District of Columbia, accepted the case for
prosecution. The employee waived his right to a grand jury indictment and
pleaded guilty to a one-count charge of making false statements. He was


40     USAID OFFICE OF INSPECTOR GENERAL
sentenced to 1 year of probation by the U.S. District Court for the District of
Columbia. USAID terminated the employee and debarred him as a participant or
principal in all federal procurement and nonprocurement programs for a period
of 1 year.

Former USAID Employee Confesses to Theft. OIG investigated
allegations that a former USAID employee in West Bank/Gaza had misused
USAID-purchased gasoline cards for his personal gain. USAID had terminated
the employee previously for an unrelated matter. Upon questioning by OIG
agents, the former employee confessed that he had stolen more than $100,000
worth of gasoline cards from USAID over the past 7 years.

USAID withheld over $42,000 of the former employee’s severance pay.

USAID Executive Officer Suspended for Motor Pool Abuse. The
executive officer of a Southeast Asian mission was suspended without pay for
30 days for misusing official vehicles and drivers. The officer, who is responsible
for enforcement of motor pool regulations and for supervising motor pool
drivers, had engaged in over 1,000 miles of motor pool misuse, including
instances of transporting family members to school and on shopping trips. On
one journey he took friends to a resort area outside the capital. Other examples
of misuse took place on weekends and evenings. Even after he had been
counseled, the executive officer continued to engage in misuse of government
vehicles.

USAID suspended the officer without pay for 30 days.

Former USAID Background Investigator Arrested for Falsifying
Official Records. On the basis of a referral to OIG by USAID’s Office of
Security, OIG special agents arrested a former background investigator assigned
to that office after an investigation revealed that he had falsified documents
associated with many background investigations he had been assigned to
complete. He had falsified the documents by affixing the seals of numerous
agencies to background investigation files, falsely indicating that appropriate
checks had been completed. The employee was charged in U.S. District Court
for the District of Columbia with false statements and misuse of a government
seal.


                       Financial Management

                        Management Accountability
Review of USAID’s Effectiveness in Obtaining the Benefits of Its
Research and Development Efforts. At the annual meeting of the National
Academy of Sciences in 2009, President Obama set a goal to “devote more than


                                   SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   41
3 percent of our GDP to research and development.” Research and
development allows USAID to develop, test, and refine new and improved tools,
approaches, and interventions for addressing concerns in developing countries
and countries in transition.

In 1980 the Bayh-Dole Act 12 established a uniform federal patent policy to
encourage recipients of research and development awards to collaborate with
industry. 13 As a result of the act, USAID developed policy on patent rights, which
has since been expanded to include intellectual property rights.

OIG conducted this review to determine whether USAID has protected
U.S. Government–financed patented terms and processes. The review found that
USAID’s right to use such patented products is protected, except under 2 of the
15 assistance awards selected for review. Contracting officers and agreement
officers did not include property rights provisions and clauses in two funding
agreements reviewed from the Bureau for Global Health.

To address these shortcomings, OIG made three recommendations. The Office
of Acquisition and Assistance agreed with all of them and presented plans to
implement the recommendations by December 30, 2010.

(Audit Report No. 9-000-10-001-S)

Review of USAID’s Travel Card Program. To reduce U.S. Government
travel costs and improve managerial oversight of employees’ travel expenditures,
Congress passed the Travel and Transportation Reform Act, Public
Law 105-264, on October 19, 1998. The act mandates that all federal employees
use a travel charge card for travel expenses while on official travel, unless their
agency’s program coordinator has granted an exemption.

To comply with the act, USAID provides a Citibank travel card to its employees
and personal services contractors who are required to travel on official business.
Citibank issues travel cards in the employee’s name, and the employee is liable
for all payments. USAID is not responsible for delinquent or unpaid transactions
on the card. However, USAID does receive a rebate from Citibank, and the
higher the volume of money spent on the card, and the fewer days taken to pay
the balance owed, the higher the rebate-earning potential. In FY 2009, USAID
received approximately $28,000 in rebates from Citibank for charges made to
the individually billed travel cards.




12
  Bayh-Dole University and Small Business Patent Procedures Act, Public Law 96-517, Section
6(a), codified in 35 U.S.C. 200 to 211.
13
  In this context, a recipient is an organization whose research work is funded in whole or in part
through research grants, contracts, or cooperative agreements.



42       USAID OFFICE OF INSPECTOR GENERAL
The Financial Policy and Support Division in USAID’s Office of the Chief Financial
Officer monitors and manages USAID’s travel card program. For FY 2009,
USAID had 2,691 active travel cards, with total charges of approximately
$6.8 million.

OIG conducted this review to determine whether the travel card program is
operating effectively.

We found that USAID could revise existing policies and improve certain
procedures to operate the program more effectively. The review identified the
following problems: (1) cardholders did not always use their travel cards while
on official travel, (2) USAID officials did not deactivate travel cards for separated
employees in a timely manner, and (3) USAID officials could not provide
documentation to confirm compliance with Agency policies.

OIG made three recommendations. The Office of the Chief Financial Officer
generally agreed with the recommendations and presented plans to implement
them by October 1, 2010.

(Report No. 9-000-10-002-S)


                          Expanding Accountability
Corruption and lack of accountability are major impediments to development.
These issues threaten to negate years of economic growth, especially in the
areas of the world subject to political instability and violence. OIG audits and
investigations afford two methods of safeguarding USAID funds; however, OIG
pursues additional methods to promote accountability and transparency. For
example, OIG works with supreme audit institutions (SAIs) to expand their
capabilities and provides training in cost principles and fraud awareness.

Expanding Capabilities of Supreme Audit Institutions. OIG continues to
work closely with selected SAIs in countries where USAID is present. SAIs are
the principal government audit agencies in the recipient countries and are often
the only organizations that have a legal mandate to audit the accounts and
operations of their governments. Thus, SAIs may be called upon to audit funds
provided to host governments by USAID or other donors. OIG and USAID
missions have signed memorandums of understanding (MOUs) with 21 SAIs.

Before SAIs can conduct audits of USAID, they must have professional capability
and independence. OIG often provides training to SAIs in how to conduct
financial audits of USAID funds in accordance with USAID guidelines and
U.S. Government auditing standards. This training helps build capacity within
SAIs to enhance their ability to audit all public funds. The SAI, the USAID




                                    SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   43
mission, and OIG then sign an MOU detailing standards and procedures to be
used in auditing USAID funds provided to the host government.

As part of the shift to use host country systems to deliver foreign assistance,
USAID must now rely more heavily on SAIs and work to build their capacities.

During this reporting period, OIG conducted a review to determine whether the
Ghana Audit Service—Ghana’s SAI—had conducted audits in accordance with
applicable audit requirements. OIG found that the organization generally had
complied with applicable audit requirements. However, we also found that it did
not fully comply with the standards of independence, qualifications, due care, and
audit evidence set forth by the International Organization of Supreme Audit
Institutions. 14 The Ghana Audit Service agreed with all recommendations and will
take appropriate action.

OIG also participated in an audit guidelines workshop in Ghana in June 2010.
The workshop included members from the Ghana Audit Service, World Bank,
United Nations, Canadian International Development Agency, European Union,
and others. It focused on aligning audit practices, procedures, and requirements
to enhance coordination and aid effectiveness among donors and to enhance
host country capacity in conducting audits. The workshop’s overall goal was to
align donor requirements with national accounting and auditing processes so that
the SAIs can conduct more audits.

Training USAID Staff and Others. OIG remains committed to preventing
losses of development funds and continues to provide training in cost principles
and fraud awareness to USAID employees, contractors, grantees, SAIs, and
auditors from local accounting firms.

Cost Principles Training. USAID’s contracts and grants include cost
principles provisions that define the types of costs that can be legitimately
charged to USAID programs. Although the full text of these cost principles is
contained in voluminous sections of the Federal Acquisition Regulation (FAR)
and various Office of Management and Budget (OMB) circulars, USAID
agreements generally contain only a single sentence that refers to these
principles. To increase awareness of—and compliance with—cost principles and
to promote the highest standards, OIG conducts training for overseas USAID
staff, contractors, grantees, and others. This training provides a general overview
of U.S. Government cost principles and examples of actual instances that
demonstrate concepts such as reasonableness, allocability, allowability, and
various other cost principles (e.g., travel expenses or entertainment costs).
The training also includes financial audit requirements and accountability issues.




14
     SAIs must follow International Organization of Supreme Audit Institutions guidance.



44         USAID OFFICE OF INSPECTOR GENERAL
During this reporting period, OIG provided training in cost principles and related
subjects in 3 countries and trained about 160 individuals.

Fraud Awareness Training. In the reporting period, OIG conducted fraud
awareness training in 11 countries for 1,945 individuals. As part of our oversight
strategy for Afghanistan, OIG’s Investigations and Audit staff presented 34 fraud
awareness briefings there to 824 USAID staff, prime implementers, and
significant subpartners. We also gave presentations to 83 USAID employees in
Haiti. The briefings addressed internal controls and factors to consider for
minimizing opportunities for fraudulent actions. See page 56 for statistics on
fraud awareness.


                 Accountability Over Contractors and Grantees
USAID is required by the FAR, the Single Audit Act, 15 OMB circulars, and its
own internal policies and procedures to obtain appropriate and timely audits of
its contractors, grantees, and Enterprise Funds. OIG provides oversight of these
audit activities, ensuring that audits are conducted in accordance with
appropriate quality standards and that they enhance accountability over USAID
contractors and grantees. Also, in accordance with provisions in USAID
contracts and agreements, OIG reviews reports of audits conducted on foreign
organizations that receive USAID funds.

Audits of U.S.-Based Contractors. U.S.-based contractors carry out many
USAID-funded activities. The Defense Contract Audit Agency (DCAA) conducts
audits, reviews, and preaward surveys of U.S.-based contractors on USAID’s
behalf. OIG then reviews DCAA’s reports and transmits them to USAID
management. During the reporting period, OIG had nothing significant to report
on DCAA activities.

Audits of U.S.-Based Grantees and Enterprise Funds. U.S.-based
nonprofit organizations also receive significant USAID funds to implement
development programs overseas. As required by OMB Circular A-133, “Audits
of States, Local Governments, and Non-Profit Organizations,” nonfederal
auditors perform annual financial audits of USAID grantees that spend over
$500,000 of federal funds annually. These auditors are required to identify:

•      Significant deficiencies involving major programs.
•      Material noncompliance with laws and regulations.
•      Known fraud affecting a federal award.
•      Misrepresentations of the status of prior audit findings.


15
     Single Audit Act of 1984, Public Law 98-502, as amended.



                                           SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   45
•      Reasons why the auditor’s report on compliance for major programs is other
       than unqualified.

OIG provides oversight for the nonfederal auditors performing these audits and
reviews to determine whether auditors prepared audit reports in accordance
with reporting requirements of OMB Circular A-133. OIG also conducts quality-
control reviews to determine whether the underlying audits complied with OMB
A-133 audit requirements and generally accepted government auditing standards.
In some instances, OIG contracts with DCAA to perform special financial audits
and, with independent public accounting firms, to perform Agency-contracted
financial audits of U.S.-based grantees.

Enterprise funds are U.S.-based nonprofit organizations established under the
Support for Eastern European Democracy Act of 1989 (SEED Act). 16 USAID has
established 11 enterprise funds, 10 of which invest in countries in Eastern
Europe and Eurasia while the 11th invests in South Africa. Enterprise funds are
subject to annual audits of financial statements performed by private accounting
firms and reviewed by OIG.

OIG activities during the reporting period:

•      Issued 80 desk reviews for A-133 Single Audit Act reports and issued 4 desk
       reviews for agency-contracted audit reports covering USAID funds of
       approximately $2,216,268,000 spent by U.S.-based grantees.
•      Completed 2 quality-control reviews covering over $199,627,000 in grantee
       expenditures.
•      Issued 4 reports completed by DCAA, covering approximately $29,311,600
       spent by U.S.-based grantees.
•      Identified about $2,838,000 in questioned costs.
•      Issued nine enterprise fund audits, covering over $904,574,000 in grantee
       expenditures.

Audits of Foreign-Based Contractors and Grantees. OMB Circular A-133
does not apply to foreign-based contractors and grantees. Given the high-risk
environment in which USAID operates, however, USAID has extended similar
audit requirements to its foreign-based contractors and grantees through
standard provisions included in grants, cooperative agreements, and contracts
through OIG’s Guidelines for Financial Audits Contracted by Foreign Recipients
(February 2009). Financial audits of foreign-based contractors and grantees are
normally conducted by independent audit firms approved by OIG’s overseas
regional offices.




16
     Public Law 101-179.



46         USAID OFFICE OF INSPECTOR GENERAL
Under the recipient-contracted audit programs, audits are required for all
foreign nonprofit organizations that spend $300,000 or more per their fiscal
year. USAID may also request financial audits of nonprofit organizations that fall
below the $300,000 threshold.

USAID’s financial audit requirements concerning its contracts, grants, and
cooperative agreements are normally satisfied under the recipient-contracted
audit program. However, Agency-contracted audits may be initiated by either
USAID or OIG to provide additional audit coverage or address specific
concerns.

OIG reviews all audit reports and, if they are found to be in compliance with
Guidelines for Financial Audits Contracted by Foreign Recipients, transmits the report
to the appropriate USAID mission for corrective actions. Audit firms are also
notified of any problems identified in the audit reports.

During this reporting period, OIG reviewed and transmitted 114 audits of
foreign-based organizations, covering over $2,060,095,000 in expenditures and
resulting in over $13,981,000 in questioned costs. OIG also completed 3
quality-control reviews to ensure that the audits were completed in accordance
with appropriate audit standards.

Corruption and Prostitution Discovered in USAID Program. An OIG
investigation involving the Growth with Equity in Mindanao Program in the
Philippines has uncovered gross misconduct by program implementers. The
$250 million program has operated in Mindanao since 1996 and covers a wide
range of activities, including infrastructure development, improvements in
business and government practices, and strengthening education. The program is
implemented by a U.S. prime contractor who subcontracts many activities to
local entities in Mindanao.

OIG’s investigation discovered that over 100 unqualified entities lacked the
necessary licenses to compete for subcontracts issued by the prime contractor
and used licensed contractors as fronts to win the subcontracts. The unqualified
entities paid the licensed contractors a fee for the use of their credentials with
the full knowledge of numerous staff members of the prime contractor.

Moreover, a USAID employee responsible for overseeing certain portions of the
program admitted to investigators that over a 4-year period he had accepted
gifts of prostitution from local employees of the prime contractor. In addition,
OIG found that the firm’s internal system for conducting fraud investigations was
flawed and served to keep problem employees in place while discouraging
complainants from coming forward.

As a result of the investigation, 62 systemic changes were made to various
processes of program implementation. The prime contractor’s deputy chief of



                                     SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   47
party and a team leader were removed from the project, and USAID’s employee
retired. OIG referred its investigative results to USAID for consideration of
debarment or suspension, and the Agency subsequently issued six notices of
proposed debarment.

Contractor’s False Statements Lead to $800,000 Civil Settlement.
An OIG investigation revealed that a contractor had falsely attested, on a
prequalification application for the USAID-funded Greater Amman Water
Project in Jordan, that it had not failed to complete any previously awarded
contracts. The contractor also falsely attested that all of the information
provided in the application was true, complete, and accurate. Because it did not
disclose its default on a previous contract, the contractor was awarded the
USAID-funded contract.

The contractor disputed and denied the allegations. A civil settlement agreement
reached between the U.S. Attorney’s Office and the contractor constituted
neither an admission of liability by the contractor nor a concession by the United
States that its claims were not well founded. To avoid the delay, uncertainty,
inconvenience, and expense of protracted litigation, however, the United States
and the contractor reached a full and final civil settlement, in which the
contractor agreed to pay the United States $800,000.




48     USAID OFFICE OF INSPECTOR GENERAL
                  SIGNIFICANT FINDINGS
                                    USADF
OIG did not issue any reports for the United States African Development
Foundation during the reporting period.

                                        IAF
Audit of Inter-American Foundation’s Compliance With Provisions of the
Federal Information Security Management Act for Fiscal Year 2010. An audit was
conducted to determine whether IAF had implemented selected security
controls for its information systems as required by the Federal Information
Security Management Act of 2002 (FISMA), Title III of Public Law 107-347.

The audit found that IAF generally complied with FISMA requirements. However,
the audit made one recommendation to improve IAF’s information security
program. A management decision was reached on the one recommendation.

(Audit Report No. A-IAF-10-003-P)




                                    SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   49
         Significant Recommendations Described
             Previously Without Final Action
                          USAID
                                  April 1–September 30, 2010

     Section 5(a)(3) of the Inspector General Act of 1978, as amended, requires each
     inspector general to identity each significant recommendation described in previous
     semiannual reports on which corrective action has not been completed.

                                                                                    Final
        Report                                    Issue    Rec.    Management      Action
                            Subject of Report
        Number                                    Date     No.     Decision Date   Target
                                                                                    Date
                                                             2      01/15/09       03/11
                        Audit of Engender
                                                             3      01/15/09       03/11
                        Health’s Management
1-511-09-004-P                                 01/15/09      5      01/15/09       03/11
                        of Activities Financed
                                                             7      04/27/09       03/11
                        by USAID/Bolivia
                                                             8      04/27/09       03/11
                                                            5       10/01/09       12/10
                        Audit of USAID’s
                                                            6       10/01/09       12/10
                        Process for
9-000-10-001-P                                  10/01/09    8       10/01/09       12/10
                        Suspension and
                                                           11       05/12/10       12/10
                        Debarment
                                                           12       05/12/10       12/10
                        Audit of
                        USAID/Guatemala’s
1-520-10-001-P          Democracy and           10/30/09     7      10/30/09       12/10
                        Governance
                        Program
                        Audit of
                        USAID/Afghanistan’s
                        Power Sector
                        Activities Under Its                 1      11/10/09       11/10
5-306-10-002-P                                  11/10/09
                        Afghanistan                          7      11/10/09       11/10
                        Infrastructure
                        Rehabilitation
                        Program
               Audit of USAID’s
               Financial Statements
0-000-10-001-C                                  11/13/09     1      11/13/09       12/10
               for FY 2009 and
               2008




50         USAID OFFICE OF INSPECTOR GENERAL
                                                                                                Final
    Report                                     Issue          Rec.        Management           Action
                   Subject of Report
    Number                                     Date           No.         Decision Date        Target
                                                                                                Date
               Audit of USAID’s                                5            11/17/09          05/11
               Compliance with the                             6            11/17/09          01/11
               Federal Information                             7            11/17/09          12/10
A-000-10-001-P                     11/17/09
               Security Management                            12            11/17/09          12/09
               Act for Fiscal Year                            15            11/17/09          12/12
               2009                                           16            11/17/09          12/10
               Audit of USAID’s                                3            12/31/09          11/10
               Compliance with §                               7            12/31/09          12/10
               522 of the                                      8            12/31/09          12/10
A-000-10-002-P                              12/31/09
               Consolidated                                   10            12/31/09          12/10
               Appropriations Act                             11            12/31/09          12/10
               of 2005                                        12            12/31/09          12/10
                 Audit of
                 USAID/Pakistan’s
                 Capacity Building
                 Program for the
5-391-10-005-P                              01/28/10            4           01/28/10          12/10
                 Federally
                 Administered Tribal
                 Areas Development
                 Program
                 Audit of
                 USAID/Afghanistan’s
                                                                1           01/29/10          11/10
5-306-10-006-P   Building Education         01/29/10
                                                                3           01/29/10          10/10
                 Support Systems for
                 Teachers Project
                 Audit of
                 USAID/West Africa’s
                 P.L. 480 Title II Food
                                                                2           02/11/10          10/10
                 Aid in Support of the
                                                                3           02/11/10          10/10
7-685-10-003-P   Livelihood Expansion 02/11/10
                                                                4           02/11/10          10/10
                 and Asset
                                                                5           02/11/10          10/10
                 Development
                 Project in Sierra
                 Leone
                                                                1           07/30/10          12/10
                                                                2.1         08/04/10          11/10
                 Audit of
                                                                2.2         08/04/10          11/10
7-688-10-004-P   USAID/Mali’s               02/26/10
                                                                3           07/30/10          12/10
                 Education Program
                                                                4           02/26/10          01/11
                                                                7           02/26/10          01/11




                                       SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010    51
                                                                               Final
     Report                                   Issue    Rec.   Management      Action
                        Subject of Report
     Number                                   Date     No.    Decision Date   Target
                                                                               Date
                                                        1      03/01/10       11/10
                                                        3      03/01/10       11/10
                    Audit of USAID’s                    4      03/01/10       11/10
                    Internal Controls                   5      03/01/10       11/10
9-000-10-003-P      Over the Separate       03/01/10    6      03/01/10       11/10
                    Maintenance                         7      03/01/10       11/10
                    Allowance                           8      03/01/10       11/10
                                                        9      03/01/10       11/10
                                                       10      03/01/10       11/10
                    Audit of
                    USAID/Senegal’s
7-685-10-005-P      Implementation of       03/15/10    4      03/15/10       12/10
                    the President’s
                    Malaria Initiative
                    Audit of                            5      03/24/10       10/10
                    USAID/Rwanda’s                      6      03/24/10       03/11
4-696-10-002-P                         03/24/10
                    HIV/AIDS Treatment                  7      03/24/10       10/10
                    Activities                          8      03/24/10       10/10
                                                        1      06/07/10       12/10
                                                        2      03/30/10       03/11
                                                        3      06/07/10       12/10
                                                        4      06/07/10       12/10
                    Audit of                            5      03/30/10       12/10
                    USAID/Ethiopia’s                    6      03/30/10       12/10
4-663-10-003-P      Agricultural Sector     03/30/10   10      03/30/10       12/10
                    Productivity                       11      03/30/10       12/10
                    Activities                         12      03/30/10       12/10
                                                       13      06/07/10       12/10
                                                       14      03/30/10       03/11
                                                       15      03/30/10       12/10
                                                       17      03/30/10       12/10
                    Audit of
                                                        2      03/31/10       12/10
                    USAID/Afghanistan’s
                                                        5      03/31/10       12/10
5-306-10-007-P      Human Resources         03/31/10
                                                        7      03/31/10       12/10
                    and Logistical
                                                        8      03/31/10       12/10
                    Support Program




52     USAID OFFICE OF INSPECTOR GENERAL
                                                                                                 Final
    Report                                      Issue          Rec.        Management           Action
                    Subject of Report
    Number                                      Date           No.         Decision Date        Target
                                                                                                 Date
                                                                 1           08/26/10          03/11
                 Audit of
                                                                 2           03/31/10          03/11
                 USAID/Jordan’s
                                                                 3           03/31/10          03/11
                 Sustainable
6-278-10-004-P                               03/31/10            4           08/26/10          03/11
                 Achievement of
                                                                 6           08/26/10          03/11
                 Business Expansion
                                                                 7           08/26/10          03/11
                 and Quality Project
                                                                 8           03/31/10          03/11
                                                                 1           03/31/10          03/11
                                                                 2           09/29/10          12/10
                                                                 3           09/29/10          12/10
                                                                 4           09/29/10          12/10
                 Audit of USAID’s
                                                                 5           09/29/10          12/10
                 Internally Displaced
E-267-10-001-P                               03/31/10            6           03/31/10          03/11
                 Persons Activities in
                                                                 8           09/29/10          12/10
                 Iraq
                                                                 9           09/29/10          12/10
                                                                10           09/29/10          12/10
                                                                11           09/29/10          12/10
                                                                12           09/29/10          12/10




                                        SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010    53
     Significant Recommendations Described
         Previously Without Final Action
                  USADF and IAF*
                              April 1–September 30, 2010
                                                                               Final Action
     Report                                    Issue    Rec.   Management
                         Subject of Report                                        Target
     Number                                    Date     No.    Decision Date
                                                                                   Date
                      Follow-up Audit of
                      the Awarding and
                      Monitoring of
                                                        16      06/12/08       12/10
7-ADF-08-006-P        Grants by the          06/12/08
                                                        18      06/12/08       12/10
                      African
                      Development
                      Foundation
                                                         1      09/17/08       12/10
                      African
                                                         5      01/27/09       12/10
                      Development
7-ADF-08-007-P                               9/17/08     7      09/17/08       12/10
                      Foundation/Ghana
                                                        14      09/17/08       12/10
                      Project Activities
                                                        17.4    09/26/08       12/10

*The Inter-American Foundation had nothing to report.




54     USAID OFFICE OF INSPECTOR GENERAL
      Investigative Activities Including Matters
        Referred to Prosecutive Authorities
            USAID, USADF, IAF, and MCC
                              April 1–September 30, 2010
                  Workload                                                   Civil Actions
Investigations opened                      68              Civil referrals                                  1
Investigations closed                      38              Civil declinations                               2
                                                           Complaints                                       0
                                                           Judgments                                        0
                                                           Settlements                                      1
                                                           Total                                            4
               Criminal Actions                                         Administrative Actions
Prosecutive referrals                      14              Reprimands / demotions                           0
Prosecutive declinations                    7              Personnel suspensions                            1
Arrests                                     4              Resignations / terminations                     13
Indictments                                 2              Recoveries                                       2
Convictions                                 6              Savings                                          1
Sentencing                                  5              Suspensions / debarments                        10
Fines / assessments                         4              Systemic changes                                62
Restitutions                                3              Other                                            0
Total                                      45              Total                                           89
Judicial recoveries (criminal and civil)                                                       $4,029,826
Administrative recoveries                                                                      $1,034,247
Savings                                                                                       $94,971,498
Total savings / recoveries                                                                $100,035,571




                                           SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   55
                       Fraud Awareness Briefings
                         Conducted Worldwide
                               USAID*
                                April 1–September 30, 2010
Month                Location                Sessions   Attendees         USAID Affiliation

          Kabul, Afghanistan                     3          88      Contractors
APR
          Kabul, Afghanistan                     5          49      Personnel

          Kabul, Afghanistan                     2           3      Personnel
          Kabul, Afghanistan                     3         126      Contractors
          Islamabad, Pakistan                    1          16      Personnel
MAY
          Hanoi, Vietnam                         2          24      Personnel
          Hanoi, Vietnam                         3          65      Contractors
          Washington, DC                         1          48      Personnel

          Kabul, Afghanistan                     4         269      Contractors
          Kabul, Afghanistan                     1          10      Personnel
JUN
          Port-au-Prince, Haiti                  2          83      Personnel
          Dakar, Senegal                         3          57      Personnel
          Washington, DC                         1          27      Personnel

          Kabul, Afghanistan                     7         191      Personnel and contractors
JUL       Manila, Philippines                    1          36      Contractors
          Washington, DC                         1          43      Personnel

          Kabul, Afghanistan                     5           66     Personnel and contractors
          Amman, Jordan                          2           89     Personnel and contractors
          Dakar, Senegal                         1            6     Personnel
AUG       Guatemala City,                        4           85     Personnel and contractors
            Guatemala
          Lima, Peru                             3           99     Personnel and contractors
          Washington, DC                         1           35     Personnel

           Kabul, Afghanistan                    4          22      Personnel and contractors
SEPT       Nairobi, Kenya                       15         386      Personnel and contractors
           Washington, DC                        1          22      Personnel and contractors

              TOTAL                             76       1,945

*OIG conducted no fraud awareness training for USADF, IAF, or MCC in the reporting period.




56       USAID OFFICE OF INSPECTOR GENERAL
         Incidents in Which OIG Was Refused
               Assistance or Information
                USAID, USADF, and IAF
                         April 1–September 30, 2010

The Inspector General Act of 1978, Section 5(a)(4), as amended, requires the
identification of any reports made to the head of agency describing incidents in
which information or assistance was refused or not provided.

During this reporting period, there were no reports to the USAID
Administrator of instances in which information or assistance was unreasonably
refused or not provided.




                                   SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   57
                                   Financial Audits
        Associated Questioned Costs, Unsupported Costs, and
      Value of Recommendations That Funds Be Put to Better Use
                                             USAID
                               April 1–September 30, 2010
                                                                               Amt. of
                       Date of                                                          Type of
 Report Number                                     Report Title                Findings
                       Report                                                           Findings
                                                                               ($000)
                    American Recovery and Reinvestment Act of 2009 (ARRA)
                                    Improper Payments Made Under the
0-000-10-001-K      09/30/10        American Recovery and Reinvestment                8 QC
                                    Act of 2009
                                      Foreign-Based Organizations
                                    Audit Report on the Financial Audit of
                                    the Government of Georgia’s Separate
                                    Dollar Account, U.S. Dollar Related
                                    Account and Local Currency Treasury
0-114-10-001-R      06/11/10
                                    Single Account under
                                    USAID/Caucasus’s Budgetary Support
                                    for the Government of Georgia, Fiscal
                                    Year 2009
                                    Audit Report of MDC-TI.NET under
                                    USAID Grant No. 165-G-00-05-00102-
0-165-10-020-R      07/14/10
                                    00, for the Year Ended December 31,
                                    2008
                                    Audit Report of Solidarities, under
                                                                                 1,575 QC
0-000-10-027-R      08/24/10        Multiple Agreements for Fiscal Year
                                                                                 1,575 UN
                                    Ended December 31, 2008
                                    Audit Report of Centre for British
                                    Teachers under USAID Grant                     205 QC
0-000-10-030-R      05/10/10
                                    Agreement No. 615-IL615-0003-006,              201 UN
                                    Fiscal Year Ended March 31, 2006




BU—Better Use of Funds        QC—Questioned Costs UN—Unsupported Costs       Note: UN is part of QC




58      USAID OFFICE OF INSPECTOR GENERAL
                                                                                   Amt. of
                     Date of                                                                Type of
 Report Number                                 Report Title                        Findings
                     Report                                                                 Findings
                                                                                   ($000)
                               Audit Report of Norwegian Refugee
                               Council, Under Multiple Agreements,
0-000-10-032-R     04/16/10
                               for Fiscal Year Ended December 31,
                               2008
                               Audit Report of Première Urgence,
0-000-10-033-R     06/02/10    Under USAID Multiple Agreements,
                               for Fiscal Year Ended June 30, 2008
                               Audit Report of Moscow Helsinki
                               Group (MHG), under USAID
                                                                                          1 QC
0-118-10-033-R     07/01/10    Cooperative Agreement No. 118-A-
                                                                                          1 UN
                               00-02-00183 for Period September 27,
                               2002, through January 31, 2010
                               Audit of Regional Society of Disabled
                               People “Perspektiva” under USAID
                               Cooperative Agreement No. 118-A-
                               00-03-00085, IREX Agreement No.
                               YDCP-FY08-IRS28 within Cooperative
                               Agreement 118-A00-08-00001-00, and
0-118-10-034-R     08/05/10
                               Agreement with Inter-Regional Public
                               Foundation “Siberian Civic Initiatives
                               Support Center” within Cooperative
                               Agreement No. 118-A-00-03-00127,
                               for Fiscal Year Ended December 31,
                               2008
                               Audit of Moscow Helsinki Group
                               under USAID Agreement No. 118-A-
0-118-10-035-R     07/13/10
                               00-02-00183 for Fiscal Year Ended
                               December 31, 2009
                               Audit Report of OXFAM GB under
                                                                                        13 QC
0-000-10-036-R     08/04/10    DFD-G-00-07-00208-00 and DFD-G-
                                                                                        13 UN
                               00-07-00198-00
                               Audit of Action Contre La Faim, Paris,
                               France, Under Multiple USAID                         2,508 QC
0-000-10-037-R     08/25/10
                               Agreements, for Fiscal Year Ended                    2,319 UN
                               December 31, 2008
                               Audit Report of OXFAM GB under
0-000-10-038-R     08/20/10    USAID Grant No. DFD-G-00-08-
                               00189-00
                               Audit of Save the Children UK, under
                                                                                        34 QC
0-000-10-039-R     08/02/10    Multiple Agreements for Fiscal Year
                                                                                        13 UN
                               Ended March 31, 2008

BU—Better Use of Funds    QC—Questioned Costs UN—Unsupported Costs              Note: UN is part of QC




                                       SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   59
                                                                               Amt. of
                       Date of                                                          Type of
 Report Number                                    Report Title                 Findings
                       Report                                                           Findings
                                                                               ($000)
                                    Audit of All Ukrainian Public
                                    Organization “Institute for Budgetary
                                    and Socioeconomic Research” under
0-121-10-040-R      08/04/10
                                    USAID Agreement No. 121-A-00-08-
                                    00708-00 for Fiscal Year Ended
                                    December 31, 2009
                                    Audit Report of Institute for Family
                                    Health (IFH), under USAID
0-118-10-041-R      08/19/10        Cooperative Agreement No. 118-A-                 1 QC
                                    00-06-00077-00 for Period September
                                    29, 2006, through December 31, 2009
                                    Recipient Contracted Audit Report of
                                    the Mentor Initiative, under USAID               1 QC
0-000-10-042-R      08/20/10
                                    Multiple Agreements, for Fiscal Year             1 UN
                                    Ended September 30, 2008
                                    Audit of International HIV/AIDS
                                    Alliance, under Multiple Agreements
0-000-10-043-R      08/20/10
                                    for Fiscal Year Ended December 31,
                                    2008
                                    Audit Report of The Mentor Initiative,
                                                                                     3 QC
0-000-10-044-R      08/23/10        under Multiple Agreements, for Fiscal
                                                                                     3 UN
                                    Year Ended September 30, 2007
                                    Audit Report of The Mentor Initiative,
                                                                                     1 QC
0-000-10-045-R      08/24/10        under USAID Multiple Agreements, for
                                                                                     1 UN
                                    Fiscal Year Ended September 30, 2006
                                    Audit of Moscow Public Science
                                    Foundation (MPSF), under USAID
0-118-10-046-R      08/26/10        Agreement No. 118-A-00-02-00135-
                                    00, for Fiscal Year Ended
                                    December 31, 2009
                                    Audit of Tearfund, Under Multiple
                                                                                    11 QC
0-000-10-047-R      09/27/10        Agreements for Fiscal Year Ended
                                                                                     1 UN
                                    March 31, 2009
                                    Audit of Russian Microfinance Center
0-118-10-048-R      09/03/10        (RMC), under Multiple Agreements, for
                                    Fiscal Year Ended December 31, 2009
                                    Audit of Center for Fiscal Policy,
                                    Under USAID Agreement No. 118-A-
0-118-10-049-R      09/09/10
                                    00-03-00084, for Fiscal Year Ended
                                    December 31, 2009


BU—Better Use of Funds        QC—Questioned Costs UN—Unsupported Costs       Note: UN is part of QC




60      USAID OFFICE OF INSPECTOR GENERAL
                                                                                  Amt. of
                     Date of                                                               Type of
 Report Number                                Report Title                        Findings
                     Report                                                                Findings
                                                                                  ($000)
                               Audit Report of Center for Research
                               on the Epidemiology of Disasters
                               (CRED)/Université Catholique de
                                                                                        54 QC
0-000-10-050-R     09/21/10    Louvain (UCL), under USAID
                                                                                        45 UN
                               Cooperative Agreement DFD-A-00-
                               07-00179-00 “EM-DAT Project” for
                               Fiscal Year Ended September 30, 2009
                               Audit of Foundation for Information
                               Policy Development, Under USAID
0-118-10-051-R     09/22/10    Agreement No. 118-A-00-04-00061,
                               for Fiscal Year Ended December 31,
                               2009
                               Audit Report of Agency for Social
                               Information, under USAID
0-118-10-052-R     09/21/10    Cooperative Agreement No. 118-A-
                               00-07-00059-00 for Fiscal Year Ended
                               December 31, 2009
                               Revised Report—Audit of the Grant
                               Agreement No. 512-A-00-03-00027-00
1-512-10-041-R     04/28/10    Managed by World Wildlife Fund Brazil                    28 QC
                               (WWF Brazil) for the Period January 1,
                               2006, to September 30, 2007
                               Audit of the Fund Accountability
                               Statement Under Cooperative
                               Agreement No. 524-A-00-06-00005-00
                               for the “Proyecto Familias Unidas por                    10 QC
1-524-10-042-R     04/29/10
                               su Salud-Fami Salud/USAID,” Managed                       6 UN
                               by “Federacion Red NicaSalud,” for the
                               Period From April 1, 2008, to
                               March 31, 2009
                               Close-out Audit of the Strategic
                               Objective Grant Agreement Number
                               532-0011, Implementation Letters 21
                               and 26, for the HIV/AIDS Prevention                    821 QC
1-532-10-043-R     06/01/10
                               and Control Project, Managed by the                    819 UN
                               Ministry of Health and Environment,
                               for the Period From January 1, 2008,
                               to September 26, 2008




BU—Better Use of Funds    QC—Questioned Costs UN—Unsupported Costs             Note: UN is part of QC




                                      SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   61
                                                                                Amt. of
                       Date of                                                           Type of
 Report Number                                    Report Title                  Findings
                       Report                                                            Findings
                                                                                ($000)
                                    Audit of the USAID Cooperative
                                    Agreement No. RLA-A-00-06-00065-
                                    00 FORTIS Consortium “Institutional
                                    Strengthening in Southern Amazonas”              22 QC
1-512-10-044-R      06/02/10
                                    Managed by Instituto Internacional de            22 UN
                                    Educacao do Brasil (IEB) for the Period
                                    from October 1, 2006, to
                                    September 30, 2007
                                    Close-out Audit of the USAID
                                    Agreement No. 512-A-00-03-00028-00
                                    “Estradas Verdes” Managed by
                                                                                    772 QC
1-512-10-045-R      06/02/10        Instituto de Pesquisa Abiental da
                                                                                    489 UN
                                    Amazonia (IPAM) for the Period From
                                    October 1, 2006, to September 30,
                                    2007
                                    Audit of USAID Grant Agreement No.
                                    527-0407; Strengthened Environmental
                                    Management (STEM) Project; Managed
                                    by the “Ministerio del Ambiente—
1-527-10-046-R      06/18/10
                                    MINAM, ex Consejo Nacional del
                                    Ambiente—CONAM,” for the Period
                                    from January 1, 2007, to December 31,
                                    2008
                                    Close-out Audit of the Fund
                                    Accountability Statement of the
                                    Sustainable Technologies Promotion
1-511-10-047-R      08/23/10        Center (STPC), Grant Agreement
                                    USAID No. 511-A-00-02-00282-00, for
                                    the Period From January 1, 2009, to
                                    September 30, 2009
                                    Audit of the Cooperative Agreement
                                    No. 518-A-00-07-00056-00, “Program
                                    for the Protection of Water Resources
                                    to Keep the Biodiversity: Financial
                                    Mechanisms for the Protection of the
1-518-10-048-R      08/31/10        Watersheds of Ecuador,” Managed by
                                    the Fideicomiso Mercantil Fondo
                                    Ambiental Para la Proteccion de las
                                    Cuencas y Agua—FONAG, for the
                                    Period From October 1, 2008, to
                                    September 30, 2009



BU—Better Use of Funds        QC—Questioned Costs UN—Unsupported Costs        Note: UN is part of QC




62      USAID OFFICE OF INSPECTOR GENERAL
                                                                                   Amt. of
                     Date of                                                                Type of
 Report Number                                 Report Title                        Findings
                     Report                                                                 Findings
                                                                                   ($000)
                               Audit of the Fund Accountability
                               Statement of Cooperative Agreement
                               No. 527-A-00-08-00014-01: “Youth
                               Development in Peruvian Coca
1-527-10-049-R     09/02/10    Growing Areas,” Managed by the
                               Information and Education Center for
                               the Prevention of Drug Abuse
                               (CEDRO), for the Period from
                               March 1, 2009, to February 28, 2010
                               Audit of USAID Resources Managed by
                               Caribbean Regional Negotiating
1-538-10-050-R     09/07/10    Machinery Under Grant Agreement
                               No. 538-009-02B, for the Period From
                               February 24, 2006, to March 31, 2009
                               Financial Audit of the “Civil Society
                               Action for Improved Public Sector
                               Performance” Program and “Formation
                               of Young Leaders of Political Parties in
                               the Dominican Republic—Phase II”
                               Program, USAID Grant Agreement
1-517-10-051-R     09/07/10
                               Nos. 517-A-00-09-00103-00 and 517-
                               A-00-09-00105-00 Managed by
                               Participacion Ciudadana for the
                               Periods October 22, 2008, and
                               December 1, 2008, to August 31, 2009,
                               Respectively
                               Audit of USAID Resources Managed by
                               the Organization of Eastern Caribbean
                               States (OECS), Under Grant
1-538-10-052-R     09/09/10
                               Agreement No. 538-009-04, for the
                               Period From October 18, 2007, to
                               October 31, 2008
                               Audit of the Fund Accountability
                               Statement of the ABC Cancer Center
                               Project, Grant No. 1331-990 of the
1-523-10-053-R     09/16/10
                               American British Cowdray Medical
                               Center for the Year Ended on
                               December 31, 2008




BU—Better Use of Funds    QC—Questioned Costs UN—Unsupported Costs              Note: UN is part of QC




                                       SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   63
                                                                                Amt. of
                       Date of                                                           Type of
 Report Number                                    Report Title                  Findings
                       Report                                                            Findings
                                                                                ($000)
                                    Audit of USAID Resources Program
                                    No. 598-0023-00, Managed by
                                    Universidad Pedagógica Nacional
                                    Francisco Morazán (UPNFM) Under
                                    Cooperative Agreement No. 522-A-
1-522-10-054-R      09/24/10        00-06-00307-00, Program Center of                  2 QC
                                    Excellence for Teachers Training in
                                    Central American And Dominican
                                    Republic (CETT/CARD), for the
                                    Period From October 1, 2008, to
                                    September 30, 2009
                                    Close-Out Audit of the Fund
                                    Accountability Statement of the Project
                                    “National Survey of Family Health—
                                    FESAL,” Cooperative Agreement No.
1-519-10-055-R      09/28/10        519-A-00-07-00049-00, Managed by                 24 QC
                                    the Asociacion Demografica
                                    Salvadorena (ADS), for the Period
                                    From January 1, 2009, to January 30,
                                    2010
                                    Report on the Examination of the
                                    Financial Reports for Cooperative
                                    Agreement Nos. 518-A-00-07-00067-
                                    00 “Municipal Integrated Development
                                    Program—MIDP,” and 518-A-00-06-
                                    00077-00, Close-Out Audit of the                   2 QC
1-518-10-056-R      09/28/10
                                    “Program to Combat the Trafficking in              2 UN
                                    Persons in Ecuador (TIP),” Managed by
                                    the International Organization for
                                    Migration (IOM), for the Period
                                    Between January 1, 2009, to
                                    December 31, 2009
                                    Audit of the Fund Accountability
                                    Statement of the Program to
                                    Strengthen Competitiveness of
                                    Guatemalan Business and Products,
1-520-10-057-R      09/29/10        Cooperative Agreement No. 520-A-
                                    00-05-00009-00, Administered by the
                                    Asociacion Guatemalteca de
                                    Exportadores (AGEXPORT), for the
                                    Year Ended December 31, 2009



BU—Better Use of Funds        QC—Questioned Costs UN—Unsupported Costs        Note: UN is part of QC




64      USAID OFFICE OF INSPECTOR GENERAL
                                                                                   Amt. of
                     Date of                                                                Type of
 Report Number                                 Report Title                        Findings
                     Report                                                                 Findings
                                                                                   ($000)
                               Close-Out Audit of Project,
                               Fortalecimiento Institucional del
                               Centro Paraguayo de Estudios de
1-526-10-058-R     09/29/10    Poblacion (CEPEP), Cooperative
                               Agreement No. 526-A-00-99-00008-00
                               Managed by CEPEP, for the Period
                               From January 1 to September 30, 2009
                               Audit of the Fund Accountability
                               Statement of the Cooperative
                               Agreement 511-A-00-02-00206-00
                               “Support to Arising Market of Forest
1-511-10-059-R     09/29/10
                               Products” Administered by the
                               Amazonian Forest Development
                               Center (CADEFOR), for the Period
                               From January 1 to December 31, 2009
                               Agency Contracted Audit of USAID
                               Resources Managed by Deloitte and
                                                                                         14 QC
4-617-10-002-N     07/23/10    Touche under Contract No. 617-C-00-
                                                                                         14 UN
                               07-00004-00 for the Period January 1,
                               2008 to June 30, 2009
                               Agency Contracted Close-out Audit of
                               USAID Resources Managed by the
                               Zambia Agricultural Commodities
                                                                                       604 QC
4-611-10-003-N     07/23/10    Agency Under Cooperative Agreement
                                                                                       585 UN
                               No. 690-A-00-04-00342-04 for the
                               Period January 1, 2005 to June 30,
                               2007
                               Audit of USAID Resources Managed by
                               the Government of the United
                               Republic of Tanzania’s Ministry of
                               Health and Social Welfare—Primary
                               Health Care Institute (PHCI) IRINGA
4-621-10-022-R     04/22/10
                               under Strategic Objective Grant
                               Agreement No. 621-0011.01,
                               Implementation Letters No. 15 and 19
                               for the period July 1, 2008 to June 30,
                               2009




BU—Better Use of Funds    QC—Questioned Costs UN—Unsupported Costs              Note: UN is part of QC




                                       SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   65
                                                                              Amt. of
                       Date of                                                         Type of
 Report Number                                   Report Title                 Findings
                       Report                                                          Findings
                                                                              ($000)
                                    Recipient Contracted Audit of USAID
                                    Resources Managed by Olive Leaf
                                    Foundation 1989 under Cooperative
                                    Agreements Numbered GPO-A-00-05-              105 QC
4-674-10-023-R      04/22/10
                                    00007-00 and GPO-A-00-05-00014-00,             81 UN
                                    as well as Sub Agreements Numbered
                                    0X3102 and P3121A0009 for the two-
                                    year period ended December 31, 2008
                                    Recipient Contracted Close-out Audit
                                    of USAID Resources Managed by the
                                    National Drug Authority (NDA), under
                                    Co-operative Agreement No. 617-A-
4-617-10-024-R      04/22/10        00-08-00010-00 for the Quality                  1 QC
                                    Assurance and Pharmacovigilance for
                                    condoms and Anti-retroviral Drugs
                                    Program for the period March 6, 2008
                                    to September 9, 2009
                                    Audit of USAID Resources Managed by
                                    Joint Clinical Research Centre under
4-617-10-025-R      04/29/10        Cooperative Agreement No. 617-A-              179 QC
                                    00-04-00003-00 for the year ended
                                    June 30, 2009
                                    Audit of USAID Resources Managed by
                                    the Ministry of Health and Social
                                    Welfare—Kigoma Zonal Training
                                    Centre under the Strategic Objectives          15 QC
4-621-10-026-R      04/29/10
                                    Grant Agreement Nos. 621-0011-01,              15 UN
                                    Implementation Letters Nos. 12, 17
                                    and 21 for the period July 1, 2007 to
                                    June 30, 2009




BU—Better Use of Funds        QC—Questioned Costs UN—Unsupported Costs      Note: UN is part of QC




66      USAID OFFICE OF INSPECTOR GENERAL
                                                                                  Amt. of
                     Date of                                                               Type of
 Report Number                                Report Title                        Findings
                     Report                                                                Findings
                                                                                  ($000)
                               Audit of USAID Resources Managed by
                               African Palliative Care Association
                               under Award Agreement No. 621-A-
                               00-07-00013-00 and Sub Agreement
                               Awards Numbers: JOE-G-001, HF-F2-
                               REG-06-P-PTR-APCA-00, H-F3-ZAM-
                               06-P-PTR-APPC-00, JOD 103, H-F2-
                               MOZ-06-P-PTR-APAN-00, H-F3-BOT-                            8 QC
4-621-10-027-R     05/07/10
                               07-P-PTR-APBO, H-F3-CDI-07-P-PTR-                          8 UN
                               APTB, P1104-A0010, P1102-A0009,
                               GPO-A-00-03-00003-00, 265A0014,
                               P1105-A0025, FFPPO-2007-01, P1108-
                               793, P1108-793(1), P1104-122,
                               255033-TE2-APCA-01, P1102-P-0209,
                               for the Fifty Three-month period from
                               1 November 2004 to 31 March 2009
                               Recipient Contracted Audit of USAID
                               Resources Managed by Kenya Wildlife
                               Services (KWS), under Development
4-615-10-028-R     05/21/10    Assistance Grant Agreement No. 615-                      45 QC
                               005, Implementation Letter No. 8, for
                               the period July 1, 2007 to June 30,
                               2008
                               Recipient Contracted Audit of USAID
                               resources managed by Mothers 2
                               Mothers South Africa under
                               agreements                                             368 QC
4-674-10-029-R     05/21/10
                               U62/CCU223540/CFDA#93.941,                              41 UN
                               GHH-A-00-07-00019-00 and
                               P1321A0027 for the year ended
                               December 31, 2008
                               Audit of USAID Recipient Contracted
                               Audit of USAID Resources Managed by
                               Counseling Services Unit under Grant
4-613-10-030-R     05/21/10                                                             28 QC
                               Agreement Number 613-G-00-01-
                               00244-00 for the year ended
                               December 31, 2008
                               Audit of USAID Resources Managed by
                               The Church Alliance for Orphans
                               under Agreement No. NPI/HUGS-
4-000-10-031-R     05/25/10                                                             19 QC
                               GHA-A-G-00-07-00015-00 for the
                               period from March 1, 2008 to
                               February 28, 2009

BU—Better Use of Funds    QC—Questioned Costs UN—Unsupported Costs             Note: UN is part of QC




                                      SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   67
                                                                               Amt. of
                       Date of                                                          Type of
 Report Number                                    Report Title                 Findings
                       Report                                                           Findings
                                                                               ($000)
                                    Audit of USAID Resources Managed by
                                    Hamlin Fistula Welfare and Research
                                    Trust, Addis Ababa Fistula Hospital,
                                    (Fistula Hospital) USAID Support for              1 QC
4-663-10-032-R      05/25/10
                                    Fistula Identification, Referral and              1 UN
                                    Treatment in Ethiopia, under Grant
                                    Agreement No. 663-G-00-06-00418-00
                                    for the year ended June 30, 2009
                                    Recipient Contracted Audit of USAID
                                    Resources Managed by Regional
                                    Centre for Quality of Health Care
                                    under Strategic Objective Agreement
4-623-10-033-R      06/09/10                                                        16 QC
                                    No. 623-0011.02-60088 and the Close-
                                    out audit of Limited Scope Grant
                                    Agreement No. 6230010.40-00002 for
                                    the year ended June 30, 2009
                                    Recipient Contracted Audit of USAID
                                    Resources Managed by Integrated
                                    Community Based Initiatives (ICOBI)
4-000-10-034-R      06/10/10                                                          3 QC
                                    Cooperative Agreement Number
                                    GHO-A-00-08-00005-00 for the
                                    period April 1, 2008 to June 30, 2009
                                    Recipient Contracted Audit of USAID
                                    Resources Managed by South African
                                    Institute of Race Relations, under Co-          38 QC
4-674-10-035-R      06/17/10
                                    operative Agreement No. 674-A-00-               38 UN
                                    90-00039-00, for the period April 1,
                                    2003 to March 31, 2004
                                    Audit of the USAID Resources
                                    Managed by Kenya Agricultural
                                    Research Institute (KARI) under
                                    USAID Strategic Objective and
4-615-10-036-R      07/01/10
                                    Development Assistance Grant
                                    Agreement No. 615-007
                                    (Implementation Letter No. 3) for the
                                    period July 1, 2007 to June 30, 2008
                                    Audit of USAID Resources Managed by
                                    BroadReach HealthCare Africa (Pty)
                                    Ltd under Cooperative Agreement No.
4-674-10-037-R      07/07/10                                                       112 QC
                                    674-A-00-08-00008-00 for the four
                                    month period September 1 to
                                    December 31, 2007

BU—Better Use of Funds        QC—Questioned Costs UN—Unsupported Costs       Note: UN is part of QC




68      USAID OFFICE OF INSPECTOR GENERAL
                                                                                   Amt. of
                     Date of                                                                Type of
 Report Number                                 Report Title                        Findings
                     Report                                                                 Findings
                                                                                   ($000)
                               Audit of the USAID Resources
                               Managed by East, Central and Southern
                               Africa Health Community (ECSA-HC)
                               under USAID Strategic Objective
4-623-10-038-R     07/13/10    Grant Agreement (SOAG) No.
                               6230011.02-60087 and Limited Scope
                               Grant Agreement (LSGA) No.
                               6980483.23-80003 for the Period
                               July 1, 2008 to June 30, 2009
                               Revised Recipient Contracted Close-
                               out Audit of USAID Resources
                               Managed by Wits Health Consortium
                                                                                       892 QC
4-674-10-039-R     07/16/10    under Cooperative Agreement No.
                                                                                         1 UN
                               674-A-00-05-00003-00 and 674-A-00-
                               05-00004-00 for the period January 1,
                               2007 to September 30, 2007
                               Close-out Audit of the USAID
                               Resources Managed by Kenya Institute
                               for Public Policy Research and Analysis
                               (KIPPRA) under USAID Development
                               Assistant Agreement No. 615-007                           49 QC
4-615-10-040-R     07/22/10
                               Implementation Letter No. 4 and                           49 UN
                               Limited Scope Grant Agreement No.
                               615-LSGA-001, Implementation Letter
                               No. 21 for the Period April 8, 2003 to
                               June 30, 2007
                               Recipient Contracted Audit of USAID
                               Resources Managed by Egerton
                               University—Tegemeo Institute under
                               the Development Assistance Grant                        669 QC
4-615-10-041-R     07/23/10
                               Agreement No. 615-007 and                               669 UN
                               Implementation Letter No. 14 for the
                               Period from October 1, 2007 to
                               September 30, 2008
                               Financial Audit of the Enhance
                               Karnataka Project, Project No. 386-A-
                               00-06-00144, Managed by the
5-386-10-028-R     04/30/10
                               University of Manitoba (UOM), for the
                               Period from April 1, 2008 to March 31,
                               2009




BU—Better Use of Funds    QC—Questioned Costs UN—Unsupported Costs              Note: UN is part of QC




                                       SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   69
                                                                                Amt. of
                       Date of                                                           Type of
 Report Number                                    Report Title                  Findings
                       Report                                                            Findings
                                                                                ($000)
                                    Financial Audit of the Developing Non-
                                    Bankable Territories for Financial
                                    Services Program, USAID/Pakistan
5-391-10-029-R      04/30/10        Cooperative Agreement No. 391-A-                 90 QC
                                    00-03-01011-00, Managed by Khushhali
                                    Bank, for the Year Ended
                                    December 31, 2008
                                    Financial Audit of the Statement of
                                    Costs Incurred and Billed to
                                    USAID/Indonesia by Swisscontact to
                                    Implement The Aceh Polytechnic
5-497-10-030-R      04/30/10
                                    Program (TAPP), USAID/Indonesia
                                    Contract No. 497-C-00-08-00001-00,
                                    for the Period from November 27,
                                    2007 to December 31, 2008
                                    Financial Audit of USAID Funds
                                    Managed by the Asian Disaster
5-493-10-031-R      04/30/10        Preparedness Center (ADPC) for the
                                    Period from January 1, 2008 to
                                    December 31, 2008
                                    Financial Audit of AVERT Project,
                                    USAID/India Project No. 386-0544,
5-386-10-032-R      04/30/10        Managed by the AVERT Society, for
                                    the period from April 1, 2008 to
                                    March 31, 2009
                                    Financial Audit of the College
                                    Improvement Program,
                                    USAID/Pakistan Grant Agreement No.
5-391-10-033-R      05/18/10        391-G-00-04-01036-00, Managed by
                                    Forman Christian College, Lahore
                                    (FCC), for the Period from July 1, 2007
                                    to June 30, 2009
                                    Financial Audit of the Condom Social
                                    Marketing Project—Maharashtra,
                                    Project No. 386-A-00-07-00024-00,
                                                                                       6 QC
5-386-10-034-R      06/28/10        Managed by Hindustan Latex Family
                                                                                       2 UN
                                    Planning Promotion Trust (HLFPPT),
                                    for the Period from April 1, 2008, to
                                    March 31, 2009




BU—Better Use of Funds        QC—Questioned Costs UN—Unsupported Costs        Note: UN is part of QC




70      USAID OFFICE OF INSPECTOR GENERAL
                                                                                   Amt. of
                     Date of                                                                Type of
 Report Number                                 Report Title                        Findings
                     Report                                                                 Findings
                                                                                   ($000)
                               Financial Audit of the Innovations in
                               Family Planning Services II–Jharkhand,
                               Project No. 386-0527, Managed by
5-386-10-035-R     06/28/10
                               Jharkhand Health Society (JHS), for the
                               Period from April 1, 2008 to March 31,
                               2009
                               Financial Audit of the Innovations in
                               Family Planning Services II—
                               Uttarakhand, Project No. 386-0527,
5-386-10-036-R     06/29/10    Managed by Uttarakhand Health &
                               Family Welfare Society (UKHFWS), for
                               the Period from April 1, 2008 to
                               March 31, 2009
                               Financial Audit of the Innovations in
                               Family Planning Services—Uttar
                               Pradesh, Project No. 386-0527,
5-386-10-037-R     06/29/10    Managed by State Innovations in Family
                               Planning Services Agency (SIFPSA), for
                               the Period from April 1, 2008, to
                               March 31, 2009
                               Financial Audit of the Program “Scaling
                               up the Faith-based Response to
                               HIV/AIDS in Vietnam,” USAID
5-440-10-038-R     07/30/10    Cooperative Agreement No. GHH-A-                          22 QC
                               00-07-00018-00, Managed by Nordic
                               Assistance to Vietnam (NAV), for the
                               Year Ended December 31, 2008
                               Financial Audit of USAID/India Grant
                               No. 386-G-00-06-00125-00 for the
                               Workforce Development Initiative
                               Project (WDI) and USAID/India
                               Cooperative Agreement No. 386-A-                        146 QC
5-386-10-039-R     07/30/10
                               00-06-00180-00 for the Expansion of                     127 UN
                               Madrasa Education in Andhra Pradesh
                               Project (Madrasa Project), Managed by
                               the CAP Foundation, for the Period
                               from April 1, 2008, to March 31, 2009




BU—Better Use of Funds    QC—Questioned Costs UN—Unsupported Costs              Note: UN is part of QC




                                       SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   71
                                                                                Amt. of
                       Date of                                                           Type of
 Report Number                                    Report Title                  Findings
                       Report                                                            Findings
                                                                                ($000)
                                    Closeout Financial Audit of the Project
                                    “Ensuring Comprehensive Services to
                                    Reduce HIV Transmission and Mitigate
                                    the Impacts of HIV/AIDS at the
                                    Community Level in Cambodia,”                    13 QC
5-442-10-040-R      08/04/10
                                    USAID Cooperative Agreement No.                  10 UN
                                    442-A-00-06-00012-00, Managed by
                                    the Khmer HIV/AIDS NGO Alliance
                                    (KHANA), for the Period from
                                    January 1, 2009, to September 29, 2009
                                    Financial Audit of USAID Funds
                                    Managed by the Philippine Business for
5-492-10-041-R      08/18/10        Social Progress, Inc. (PBSP), for the
                                    Period from October 1, 2007, to
                                    September 30, 2009
                                    Financial Audit of the Social Marketing
                                    Sustainability Program,
                                    USAID/Bangladesh Cooperative
                                                                                     53 QC
5-388-10-042-R      08/20/10        Agreement No. 388-A-00-08-00020-
                                                                                     39 UN
                                    00, Managed by the Social Marketing
                                    Company (SMC), for the Period from
                                    January 1, 2008, to September 30, 2008
                                    Close-out Audit of the Fund
                                    Accountability Statement of USAID
                                    Resources Managed by the American
                                    Chamber of Commerce in Egypt,
6-263-10-008-R      05/17/10
                                    Trade Related Assistance Center,
                                    Grant Agreement Number 263-G-00-
                                    06-00001-00, for the Period From
                                    January 1, 2009, to September 30, 2009
                                    Financial Audit of USAID Resources
                                    Managed and Expenditures Incurred by
                                    the Ministry of Health and Population,
                                    Strengthening Avian Influenza
                                    Detection and Response Project,
6-263-10-009-R      05/23/10
                                    USAID/Egypt Grant Agreement
                                    Number 263-0287, Element Number
                                    A050, Implementation Letter Number
                                    1, for the Period From January 1, 2009,
                                    Through December 31, 2009




BU—Better Use of Funds        QC—Questioned Costs UN—Unsupported Costs        Note: UN is part of QC




72      USAID OFFICE OF INSPECTOR GENERAL
                                                                                  Amt. of
                     Date of                                                               Type of
 Report Number                                Report Title                        Findings
                     Report                                                                Findings
                                                                                  ($000)
                               Financial Audit of the Ministry of
                               Health and Population, Integrated
                               Reproductive Health Services Project,
                               Implementation Letter Number 2,                           2 QC
6-263-10-010-R     05/23/10
                               Under USAID Agreement Number                              1 UN
                               263-0287.07, for the Period From
                               January 1, 2006, Through
                               December 31, 2007
                               Financial Audit of USAID Resources
                               Managed and Expenditures Incurred by
                               the Ministry of Agriculture and Land
                               Reclamation, General Organization of
                               Veterinary Services, Strengthening
                               Avian Influenza Detection and
6-263-10-011-R     06/22/10
                               Response Project, USAID/Egypt Grant
                               Agreement Number 263-0287,
                               Element Number A050,
                               Implementation Letter Number 1, for
                               the Period From October 1, 2007, to
                               September 30, 2009
                               Close-out Financial Audit of Resources
                               Managed and Expenditures Incurred by
                               Credit Guarantee Company, Small
                               Scale Enterprises, Under USAID/Egypt
6-263-10-012-R     07/22/10
                               Financing Agreement Number 263-
                               0228, Small Emerging Business Service
                               Units Program, for the Period From
                               January 1, 2008, to December 31, 2008
                               Financial Audit of USAID Resources
                               Managed and Expenditures Incurred by
                               the Ministry of Agriculture and Land
                               Reclamation, General Organization of
                               Veterinary Services, Strengthening
                               Avian Influenza Detection and
6-263-10-013-R     09/30/10
                               Response Project, USAID/Egypt Grant
                               Agreement Number 263-0287,
                               Element Number A050,
                               Implementation Letter Number 1, for
                               the Period From October 1, 2009, to
                               July 31, 2010




BU—Better Use of Funds    QC—Questioned Costs UN—Unsupported Costs             Note: UN is part of QC




                                      SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   73
                                                                               Amt. of
                       Date of                                                          Type of
 Report Number                                    Report Title                 Findings
                       Report                                                           Findings
                                                                               ($000)
                                    Close-Out Financial Audit of USAID
                                    Resources Managed and Expenditures
                                    Incurred by the Ministry of Health and
                                    Population—Integrated Reproductive
6-263-10-018-N      04/28/10        Health Services Project, USAID/Egypt              4 QC
                                    Project Number 263-0287.07/AO52,
                                    Element Number 3, Implementation
                                    Letter Number 2, for the Period From
                                    January 1, 2008, to September 30, 2009
                                    Close-Out Financial Audit of USAID
                                    Resources Managed and Expenditures
                                    Incurred by the Ministry of Health and
                                    Population-Integrated Maternal Child
                                    Health, Reproductive Health Service
6-263-10-019-N      04/28/10
                                    Family Planning Project, USAID/Egypt
                                    Project Number 263-0287.07,
                                    Implementation Letter Number 1, for
                                    the Period From January 1, 2008, to
                                    September 30, 2009
                                    Close-Out Financial Audit of USAID
                                    Resources Managed and Expenditures
                                    Incurred by the State Information
                                    Service/Information, Education and
6-263-10-020-N      04/28/10        Communication Center under
                                    USAID/Egypt Project Number 263-
                                    0287.05, Implementation Letter
                                    Number 1, for the Period From
                                    January 1, 2008, to September 30, 2009
                                    Close-Out Financial Audit of USAID
                                    Resources Managed and Expenditures
                                    Incurred by the Ministry of Health and
                                    Population—Infectious Disease
                                    Surveillance and Response Project,
6-263-10-021-N      05/09/10
                                    USAID/Egypt Project Number 263-
                                    0287.03, Element Number 1,
                                    Implementation Letter Number 3, for
                                    the Period From April 1, 2008, to
                                    September 30, 2009




BU—Better Use of Funds        QC—Questioned Costs UN—Unsupported Costs       Note: UN is part of QC




74      USAID OFFICE OF INSPECTOR GENERAL
                                                                                  Amt. of
                     Date of                                                               Type of
 Report Number                                Report Title                        Findings
                     Report                                                                Findings
                                                                                  ($000)
                               Financial Audit of Arab Penal Reform
                               Organization, Spreading Young
                               People’s Legal Awareness Program,
6-263-10-022-N     05/09/10
                               Under USAID Grant Number 263-G-
                               00-07-00079-00, for the Period From
                               September 1, 2007, to August 31, 2008
                               Audit of USAID Resources Managed by
                               Holy Family Hospital, Under
                               Cooperative Agreement Number 294-
                               A-00-05-00236-00, “Partnership for
6-294-10-023-N     05/13/10    Expanded Access to Quality Maternal                        1 QC
                               and Neonatal Health Care for
                               Palestinian Women and Infants,” for
                               the Period From October 1, 2007, to
                               September 29, 2008
                               Examination of the Statement of
                               Deposit and Release of the Resources
                               Provided to the Palestinian Authority,
                               Through the Ministry of Finance,
6-294-10-026-N     07/22/10
                               Under the Cash Transfer Grant
                               Agreement Dated October 10, 2008,
                               for the Period From October 10, 2008,
                               to January 9, 2009
                               Examination of Statement of Deposit
                               and Release of the Resources Provided
                               to the Palestinian Authority, Through
6-294-10-027-N     07/22/10    the Ministry of Finance, Under the
                               Cash Transfer Grant Agreement Dated
                               July 15, 2009, for the Period From
                               July 15, 2009, to October 14, 2009
                               Close-out Audit of USAID Resources
                               Managed by Parents Circle-Families
                               Forum, Under Grant Number 294-G-
                                                                                        11 QC
6-294-10-028-N     07/22/10    00-05-00223-00, “Opening Hearts: An
                                                                                        11 UN
                               Israeli-Palestinian Drama Series,” for
                               the Period From September 2, 2006, to
                               July 31, 2008




BU—Better Use of Funds    QC—Questioned Costs UN—Unsupported Costs             Note: UN is part of QC




                                      SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   75
                                                                              Amt. of
                       Date of                                                         Type of
 Report Number                                    Report Title                Findings
                       Report                                                          Findings
                                                                              ($000)
                                    Close-out Audit of the Fund
                                    Accountability Statement of USAID
                                    Resources Managed by Palestinian
                                    Business Women Association
                                    “ASALA,” Under Sub-Grant Number
                                    3569-004-07-NUSNG-02/08 With
6-294-10-029-N      07/22/10        Academy for Educational
                                    Development, Cooperative Agreement
                                    Number 294-A-00-06-00210-00, “Small
                                    and Microfinance Assistance for
                                    Recovery and Transition,” for the
                                    Period From February 1, 2008, to
                                    September 20, 2008
                                    Close-out Audit of the Fund
                                    Accountability Statement of USAID
                                    Resources Managed by Palestine for
                                    Credit and Development “FATEN,”
                                    Under Sub-Grant Number 3569-004-
                                    07-NUSNG-01/08 With Academy for
6-294-10-030-N      07/22/10        Educational Development, Cooperative
                                    Agreement Number 294-A-00-06-
                                    00210-00, “Small and Microfinance
                                    Assistance for Recovery and
                                    Transition,” for the Period From
                                    February 1, 2008, to September 20,
                                    2008
                                    Financial Audit of the Statement of
                                    Inflows and Releases of Funds of the
                                    Government of Jordan’s Local
6-278-10-031-N      07/22/10        Currency Special Account, Under
                                    USAID/Jordan’s Sector Policy Reform
                                    Programs for Calendar Years 2008 and
                                    2009
                                    Financial Audit of the Statement of
                                    Deposits and Releases of Funds of the
                                    Government of Jordan’s Dollar
6-278-10-032-N      07/22/10        Separate Account, Under
                                    USAID/Jordan’s Sector Policy Reform
                                    Programs for Calendar Years 2008 and
                                    2009




BU—Better Use of Funds        QC—Questioned Costs UN—Unsupported Costs      Note: UN is part of QC




76      USAID OFFICE OF INSPECTOR GENERAL
                                                                                   Amt. of
                     Date of                                                                Type of
 Report Number                                 Report Title                        Findings
                     Report                                                                 Findings
                                                                                   ($000)
                               Close-out Examination of El Concorde,
                               Hamid Jaber & Partners Ltd.
                               Compliance With Terms and
                               Conditions of USAID Funded Contract
6-294-10-033-N     08/29/10    Number 294-C-00-05-00238-00,                            733 QC
                               Construction of the Gaza Emergency
                               Water Connection, for the Period
                               From September 29, 2005, to May 10,
                               2006
                               Close-Out Financial Audit of the
                               Ministry of State for Local
                               Development, USAID Project Number
6-263-10-035-N     08/29/10
                               263-0294-01, Implementation Letter
                               Number 2, for the Period From
                               May 15, 2007, to June 14, 2009
                               Close-Out Financial Audit of the
                               Egyptian Tourism Federation, Egyptian
                               Tourism Workforce Development
                                                                                       146 QC
6-263-10-036-N     08/29/10    Program, under USAID Agreement
                                                                                         2 UN
                               Number 263-A-00-05-00021-00, for
                               the Period From March 1, 2006, to
                               June 30, 2008
                               Close-Out Financial Audit of
                               USAID/Egypt Resources Managed and
                               Expenditures Incurred by El Nakib
                               Center for Training and Democracy                         93 QC
6-263-10-037-N     08/29/10
                               Support, “Freedom Today Not                                3 UN
                               Tomorrow,” Award Number 263-G-
                               00-08-00020-00, for the Period From
                               March 13, 2008, to July 31, 2008
                               Financial Audit of the National Council
                               for Human Rights, Under USAID
                               Funded Grant Agreement Number
                                                                                           2 QC
6-263-10-038-N     08/29/10    263-0294.02, Implementation Letter
                                                                                           2 UN
                               Numbers 1, 2, 3 and 4, for the Period
                               From February 1, 2007, to March 31,
                               2008




BU—Better Use of Funds    QC—Questioned Costs UN—Unsupported Costs              Note: UN is part of QC




                                       SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   77
                                                                                Amt. of
                       Date of                                                           Type of
 Report Number                                    Report Title                  Findings
                       Report                                                            Findings
                                                                                ($000)
                                    Close-out Audit of the Fund
                                    Accountability Statement of USAID
                                    Resources Managed by Alrafah
                                    Microfinance Bank, Under Risk
                                    Coverage Guarantee Agreement
                                    Number 3569-004-08-01-05 With
6-294-10-041-N      09/20/10        Academy for Educational
                                    Development, Cooperative Agreement
                                    Number 294-A-00-06-00210-00, “Small
                                    and Microfinance Assistance for
                                    Recovery and Transition,” for the
                                    Period From July 1, 2007, to June 30,
                                    2008
                                    Close-Out Examination of Al Tarify
                                    Group Compliance with Terms and
                                                                                  1,812 QC
6-294-10-044-N      09/28/10        Conditions of Contract Number 294-I-
                                                                                  1,812 UN
                                    06-05-00211-00, for the Period From
                                    July 11, 2007, to December 30, 2007
                                    Recipient Contracted Audit of USAID
                                    Resources Managed by the Catholic
                                    Secretariat of Nigeria under the Scale-
                                    up of the Catholic Community-Based
                                                                                    153 QC
7-620-10-012-R      06/04/10        Outreach in Response to HIV/AIDS
                                                                                    153 UN
                                    Project (Agreement No. 620-A-00-07-
                                    00217-00) for the Period Beginning
                                    October 1, 2007, and Ending
                                    October 31, 2008
                                    Recipient Contracted Audit of USAID
                                    and Kreditanstalt Fuer Wiederaufbau
                                    (KFW) Resources Managed by the
                                    Agency for the Development of Social
                                    Marketing (ADEMAS) under Grant                   26 QC
7-685-10-013-R      09/02/10
                                    Agreement No. 6856A-00-03-00118-                 26 UN
                                    00 and the KFW Program Agreement
                                    No. 2002-65-033 for the Period
                                    Beginning January 1, 2009, and Ending
                                    December 31, 2009




BU—Better Use of Funds        QC—Questioned Costs UN—Unsupported Costs        Note: UN is part of QC




78      USAID OFFICE OF INSPECTOR GENERAL
                                                                                   Amt. of
                     Date of                                                                Type of
 Report Number                                 Report Title                        Findings
                     Report                                                                 Findings
                                                                                   ($000)
                               Recipient-Contracted Audit of the
                               USAID Resources Managed by the
                               Ministry of Health of the Republic of
                                                                                       205 QC
7-688-10-014-R     09/02/10    Mali under the USAID Health Strategic
                                                                                        85 UN
                               Objective Program No. 688-006-00 for
                               the Period Beginning October 1, 2006,
                               and Ending December 31, 2008
                               Recipient Contracted Audit of USAID
                               Resources Managed by the Ghana
                               Centre for Democratic Development
                               under the Strengthening Parliamentary
                               Processes in Ghana Program (Grant                       262 QC
7-641-10-015-R     09/02/10
                               Agreement No. 641-A-00-06-00144-                        187 UN
                               00) and the Persons with Disabilities
                               Bill Program (Grant Agreement No.
                               641-A-00-05-00012) for the Period
                               from January 1 to December 31, 2007
                               Recipient Contracted Audit of USAID
                               Resources Managed by the Ghana
                               Centre for Democratic Development
                               under the Strengthening Parliamentary
                               Processes in Ghana Program (Grant
                               Agreement No. 641-A-00-06-00144-
                                                                                       597 QC
7-641-10-016-R     09/07/10    00), the Persons with Disabilities Bill
                                                                                       411 UN
                               Program (Grant Agreement No. 641-
                               A-00-05-00012), and the Civil Society
                               Actions Towards Credible Elections
                               Program (Grant Agreement No. 641-
                               A-08-00012-00) for the Period from
                               January 1 to December 31, 2008
                               Financial Audit of the Pakistan
                               Competitiveness Support Fund,
                               USAID/Pakistan Grant Agreement No.
                                                                                       355 QC
G-391-10-001-R     08/04/10    391-G-00-06-01073-00, Managed by
                                                                                       355 UN
                               Competitiveness Support Fund (CSF),
                               for the Period from February 3, 2006,
                               to June 30, 2009
                                 Local Currency Trust Fund
                               Financial Audit of USAID/Indonesia’s
5-497-10-003-N     09/15/10    Rupiah Trust Fund for the Years Ended
                               September 30, 2008 and 2009



BU—Better Use of Funds    QC—Questioned Costs UN—Unsupported Costs              Note: UN is part of QC




                                       SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   79
                                                                              Amt. of
                       Date of                                                         Type of
 Report Number                                         Report Title           Findings
                       Report                                                          Findings
                                                                              ($000)
                                            U.S.-Based Contractors
                                    Chemonics International, Inc., Report
                                    on Adequacy and Compliance of
                                    Revised Disclosure Statements,
0-000-10-006-D      05/28/10
                                    Effective September 30, 2006,
                                    Submitted by Chemonics International,
                                    Inc.
                                    Report on Agreed-Upon Procedures
                                    Performed on Local Expenditures and
                                    Systems Review of Resources Managed
                                    by TCG International LLC (TCGI) to
                                    Implement the Financial Institution           753 QC
5-386-10-001-O      05/28/10
                                    Reform and Expansion—Debt Market               75 UN
                                    (FIRE-D) Project, USAID/India
                                    Contract No. 386-C-00-04-00119, for
                                    the Period from June 1, 2004, to
                                    September 30, 2008
                                    Financial Audit of the Cost
                                    Representation Statement of USAID
                                    Resources Managed by DPK
6-294-10-025-N      06/22/10        Consulting Under Contract Number
                                    DFD-I-00-04-00173-00, Netham Rule
                                    of Law Program, for the Period From
                                    October 1, 2007, to June 30, 2008
                                    Close-Out Examination Procedures
                                    Related to Montgomery Watson Harza
                                    Americas, Inc. Compliance with Terms
                                    and Conditions of Purchase Order
                                    Number 294-O-00-08-00201-00,
6-294-10-039-N      09/14/10
                                    Infrastructure Needs Program Project
                                    Development, Project Management,
                                    General Engineering Consulting
                                    Service, for the Period From
                                    December 3, 2007, to July 30, 2008
                                    Close-Out Audit of USAID Resources
                                    Managed by Nathan Associates Inc.
                                    Under Contract Number PCE-I-00-98-
                                    00016-00, Task Order Number 842,
                                                                                1,787 QC
6-294-10-043-N      09/23/10        “Palestinian Information and
                                                                                1,787 UN
                                    Communications Technology
                                    Incubator,” for the Period From
                                    September 30, 2004, to September 29,
                                    2006
BU—Better Use of Funds        QC—Questioned Costs UN—Unsupported Costs      Note: UN is part of QC




80      USAID OFFICE OF INSPECTOR GENERAL
                                                                                   Amt. of
                     Date of                                                                Type of
 Report Number                                 Report Title                        Findings
                     Report                                                                 Findings
                                                                                   ($000)
                                    U.S.-Based Grantees
                               Education Development Center (EDC),
0-000-10-005-D     05/03/10    Application of Agreed Upon
                               Procedures
                               Michigan State University, Audit
                               Report on Special Incurred Cost Audit
0-000-10-007-D     06/25/10
                               of Grants 61-5826 (Tegemeo NGO)
                               and 61-5381 (Tampa II)
                               Audit Report of the U.S. Russia
                               Investment Fund’s Financial Statements
0-000-10-011-E     04/06/10
                               for Fiscal Year Ended September 30,
                               2009
                               Audit Report of the Hungarian-
                               American Enterprise Fund’s Financial
0-000-10-012-E     04/08/10
                               Statements for Fiscal Year Ended
                               September 30, 2009
                               Audit Report of Baltic-American
                               Enterprise Fund’s Financial Statements
0-000-10-013-E     04/07/10
                               for Fiscal Year Ended September 30,
                               2009
                               Audit Report of the Romanian-
0-000-10-014-E     08/11/10    American Enterprise Fund for the
                               Fiscal Year Ended September 30, 2009
                               Audit Report of Western NIS
                               Enterprise Fund Consolidated Financial
0-000-10-015-E     09/03/10
                               Statements for Fiscal Year Ended
                               September 30, 2009
                               Audit Report of Polish-American
                               Enterprise Fund Consolidated Financial
0-000-10-016-E     09/15/10
                               Statements for Fiscal Year Ended
                               September 30, 2009
                               Audit Report of Czech and Slovak
                               American Enterprise Fund
0-000-10-017-E     09/15/10
                               Consolidated Financial Statements for
                               Fiscal Year Ended September 30, 2009
                               A-133 Audit Report of American
0-000-10-017-T     04/21/10    University of Beirut for Fiscal Year
                               Ended September 30, 2007




BU—Better Use of Funds    QC—Questioned Costs UN—Unsupported Costs              Note: UN is part of QC




                                       SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   81
                                                                                 Amt. of
                       Date of                                                            Type of
 Report Number                                      Report Title                 Findings
                       Report                                                             Findings
                                                                                 ($000)
                                    Audit Report of Albanian-American
                                    Enterprise Fund Consolidated Financial
0-000-10-018-E      09/17/10
                                    Statements for Fiscal Year Ended
                                    September 30, 2009
                                    Audit Report of INMED Partnerships
0-000-10-018-T      04/22/10        for Children, Inc. and Affiliates Fiscal
                                    Year Ended December 31, 2007
                                    Enterprise Fund Audit Report for
                                    Bulgarian-American Enterprise Fund
0-000-10-019-E      09/21/10
                                    for the Year Ended September 30,
                                    2009
                                    INMED Partnerships for Children, Inc.
0-000-10-019-T      04/01/10        A-133 Audit Reports for Fiscal Years              18 QC
                                    Ended December 31, 2008
                                    A-133 Audit Report of Mercy Corp
0-000-10-021-T      04/23/10        Audited Financial Statements for Fiscal
                                    Year Ended June 30, 2008
                                    Audit Report of INMED Partnership
0-000-10-022-T      04/23/10        for Children, Inc. and Affiliates Fiscal
                                    Year Ended September 30, 2006
                                    A-133 Audit Report for Action Against
0-000-10-023-T      07/21/10        Hunger for Fiscal Year Ended
                                    December 31, 2006
                                    A-133 Audit Report for Action Against
0-000-10-024-T      07/21/10        Hunger for Fiscal Year Ended
                                    December 31, 2007
                                    A-133 Audit Report for Action Against
0-000-10-025-T      08/05/10        Hunger for the Fiscal Year Ended
                                    December 31, 2008
                                    Audit Report of American Council on
0-000-10-026-T      06/17/10        Education for Fiscal Year Ended
                                    September 30, 2006
                                    Audit of American Council on
0-000-10-027-T      06/17/10        Education for the Fiscal Year Ended
                                    September 30, 2007
                                    Audit of American Council on
0-000-10-028-T      06/17/10        Education for Fiscal Year Ended
                                    September 30, 2008



BU—Better Use of Funds        QC—Questioned Costs UN—Unsupported Costs         Note: UN is part of QC




82      USAID OFFICE OF INSPECTOR GENERAL
                                                                                   Amt. of
                     Date of                                                                Type of
 Report Number                                 Report Title                        Findings
                     Report                                                                 Findings
                                                                                   ($000)
                               A-133 Report for Children’s AIDS
0-000-10-029-T     07/12/10    Fund for Fiscal Year Ended
                               December 31, 2006
                               A-133 Audit Report of Children’s AIDS
0-000-10-030-T     07/12/10    Fund for Fiscal Year Ended
                               December 31, 2007
                               A-133 Audit Report of Children’s AIDS
0-000-10-031-T     07/12/10    Fund for Fiscal Year Ended
                               December 31, 2008
                               A-133 Audit Report of Consortium for
                               Elections and Political Process
0-000-10-033-T     09/03/10
                               Strengthening for the Fiscal Year Ended
                               September 30, 2007
                               A-133 Audit Report of Consortium for
                               Elections and Political Process
0-000-10-034-T     09/03/10
                               Strengthening for the Fiscal Year Ended
                               September 30, 2008
                               A-133 Audit Report Hadassah: The
                               Women’s Zionist Organization of
0-000-10-035-T     08/19/10
                               America, Inc. and Related Entities for
                               the Fiscal Year Ended May 31, 2006
                               A-133 Audit Report of Hadassah: The
                               Women’s Zionist Organization of
0-000-10-036-T     08/19/10
                               America, Inc. and Related Entities for
                               the Fiscal Year Ended May 31, 2007
                               A-133 Audit Report of International
0-000-10-037-T     07/12/10    Republican Institute for Fiscal Year
                               Ended September 30, 2007
                               A-133 Audit Report of International
0-000-10-038-T     07/12/10    Republican Institute for Fiscal Year
                               Ended September 30, 2008
                               A-133 Audit Report for International
0-000-10-039-T     09/09/10    City/County Management Association
                               for the Fiscal Year Ended June 30, 2007
                               A-133 Audit Report for International
0-000-10-040-T     09/09/10    City/County Management Association
                               for the Fiscal Year Ended June 30, 2008
                               Audit Report of Relief International for
0-000-10-042-T     06/17/10    the Fiscal Year Ended December 31,
                               2006

BU—Better Use of Funds    QC—Questioned Costs UN—Unsupported Costs              Note: UN is part of QC




                                       SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   83
                                                                                 Amt. of
                       Date of                                                            Type of
 Report Number                                     Report Title                  Findings
                       Report                                                             Findings
                                                                                 ($000)
                                    Audit Report of Relief International for
0-000-10-043-T      06/17/10        the Fiscal Year Ended December 31,
                                    2007
                                    Audit Report of Relief International for
0-000-10-044-T      06/17/10        the Fiscal Year Ended December 31,
                                    2008
                                    A-133 Audit Report for National Rural
                                    Electric Cooperative Association and
0-000-10-045-T      07/26/10
                                    Subsidiaries for Fiscal Year Ended
                                    December 31, 2006
                                    A-133 Audit Report for National Rural
                                    Electric Cooperative Association, Its
0-000-10-046-T      07/26/10        Wholly Owned Subsidiaries and
                                    Controlled Affiliated Organizations for
                                    Fiscal Year Ended December 31, 2007
                                    A-133 Audit Report for National Rural
                                    Electric Cooperative Association, Its
0-000-10-047-T      07/26/10        Wholly Owned Subsidiaries and
                                    Affiliated Organizations for Fiscal Year
                                    Ended December 31, 2008
                                    A-133 Audit Report of National
                                    Center for State Courts Financial
0-000-10-048-T      04/27/10
                                    Statements for Year Ended
                                    December 31, 2007
                                    A-133 Audit Report of National
                                    Center for State Courts Financial
0-000-10-049-T      04/27/10
                                    Statements for Year Ended
                                    December 31, 2008
                                    Education Development Centers Inc.,
0-000-10-050-T      05/17/10        OMB Circular A-133 Audit Report for
                                    Fiscal Year Ending September 30, 2007
                                    Education Development Center Inc.,
0-000-10-051-T      05/17/10        OMB Circular A-133 Audit Report for
                                    Fiscal Year Ending September 30, 2008
                                    A-133 Audit Report of Program for
                                    Appropriate Technology in Health and
0-000-10-052-T      05/03/10
                                    Subsidiaries for Fiscal Year Ending
                                    December 31, 2007




BU—Better Use of Funds        QC—Questioned Costs UN—Unsupported Costs         Note: UN is part of QC




84      USAID OFFICE OF INSPECTOR GENERAL
                                                                                   Amt. of
                     Date of                                                                Type of
 Report Number                                 Report Title                        Findings
                     Report                                                                 Findings
                                                                                   ($000)
                               A-133 Audit Report of Program for
                               Appropriate Technology in Health and
0-000-10-053-T     05/03/10
                               Subsidiaries for Fiscal Year Ending
                               December 31, 2008
                               A-133 Audit Report of International
0-000-10-054-T     04/27/10    Medical Corps Financial Statements for
                               Fiscal Year Ending June 30, 2007
                               A-133 Audit Report of International
                               Medical Corps Federal Awards Audit
0-000-10-055-T     04/27/10
                               Report for the Fiscal Year Ended
                               June 30, 2008
                               A-133 Audit Report of Aid to Artisans,
0-000-10-056-T     06/16/10    Inc. Financial Statements for Fiscal Year
                               Ended September 30, 2007
                               A-133 Audit Report of Aid to Artisans,
0-000-10-057-T     06/16/10    Inc. for Fiscal Year Ended
                               September 30, 2008
                               A-133 Report of International Real
0-000-10-058-T     07/12/10    Property Foundation for Fiscal Year
                               Ended December 31, 2008
                               Audit of IntraHealth International, Inc.
0-000-10-059-T     04/27/10    Financial Statements for Fiscal Year
                               Ended June 30, 2006
                               Audit of IntraHealth International, Inc.
0-000-10-060-T     05/03/10
                               for Fiscal Year Ended June 30, 2007
                               Audit of IntraHealth International, Inc.
0-000-10-061-T     05/03/10
                               for Fiscal Year Ended June 30, 2008
                               International Foundation for Education
                               and Self-Help, OMB Circular A-133
0-000-10-062-T     05/10/10
                               Audit Report for Fiscal Year Ended
                               September 30, 2007
                               International Foundation for Education
0-000-10-063-T     05/10/10    and Self-Help, A-133 Audit Report for
                               Fiscal Year Ending September 30, 2008
                               OMB Circular A-133 Audit Report of
                               the Center for Development and
0-000-10-064-T     06/15/10                                                                5 QC
                               Population Activities for Fiscal Year
                               Ended December 30, 2009



BU—Better Use of Funds    QC—Questioned Costs UN—Unsupported Costs              Note: UN is part of QC




                                       SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   85
                                                                                 Amt. of
                       Date of                                                            Type of
 Report Number                                     Report Title                  Findings
                       Report                                                             Findings
                                                                                 ($000)
                                    Review of Audit Report for Project
0-000-10-065-T      06/16/10        Harmony, Inc. for Fiscal Year Ended
                                    June 30, 2008
                                    OMB Circular A-133 Audit Report of
0-000-10-066-T      06/16/10        Project Harmony, Inc. for Fiscal Year
                                    Ended June 30, 2009
                                    Review of Audit Report for Childfund
0-000-10-067-T      06/15/10        International, USA for Fiscal Year
                                    Ended June 30, 2009
                                    IntraHealth International, Inc., OMB
0-000-10-068-T      06/02/10        Circular A-133 Audit Report for Fiscal
                                    Year Ended June 30, 2009
                                    International Foundation for Electoral
                                    Systems, OMB Circular A-133 Audit
0-000-10-069-T      06/04/10
                                    Report for Fiscal Year Ending
                                    September 30, 2008
                                    Review of Audit Report for Concern
0-000-10-070-T      06/11/10        Worldwide (U.S.), Inc. for Fiscal Year
                                    Ended December 31, 2008
                                    Air Serv International, Inc. and
                                    Subsidiary, OMB Circular A-133 Audit
0-000-10-072-T      09/23/10
                                    Report for Fiscal Year Ended
                                    December 31, 2008
                                    OMB Circular A-133 Audit of
0-000-10-073-T      06/28/10        American Near East Refugee Aid, Fiscal
                                    Year Ended May 31, 2009
                                    OMB Circular A-133 Audit Report of
0-000-10-074-T      06/28/10        Partnership for Child Health Care for
                                    Fiscal Year Ended September 30, 2009
                                    OMB Circular A-133 Audit Report of
0-000-10-076-T      07/12/10        Pathfinder International for Fiscal Year
                                    Ended June 30, 2009
                                    OMB Circular A-133 Report for
0-000-10-077-T      07/12/10        Counterpart International, Inc. for
                                    Fiscal Year Ended September 30, 2007
                                    A-133 Report of Global Rights for
0-000-10-078-T      07/27/10
                                    Fiscal Year Ended September 30, 2007
                                    A-133 Report of Global Rights for
0-000-10-079-T      07/27/10
                                    Fiscal Year Ended September 30, 2008


BU—Better Use of Funds        QC—Questioned Costs UN—Unsupported Costs         Note: UN is part of QC




86      USAID OFFICE OF INSPECTOR GENERAL
                                                                                   Amt. of
                     Date of                                                                Type of
 Report Number                                 Report Title                        Findings
                     Report                                                                 Findings
                                                                                   ($000)
                               A-133 Report for National
                               Cooperative Business Association for
0-000-10-080-T     08/05/10
                               the Fiscal Year Ended September 30,
                               2007
                               A-133 Report for National
                               Cooperative Business Association for
0-000-10-081-T     08/17/10
                               the Fiscal Year Ended December 31,
                               2008
                               A-133 Report for World Wildlife Fund
0-000-10-082-T     08/02/10
                               for the Fiscal Year Ended June 30, 2007
                               World Wildlife Fund, A-133 Audit
0-000-10-083-T     08/05/10    Report for Fiscal Year Ended June 30,                     29 QC
                               2008
                               Audit of CORE, Inc. for Fiscal Year
0-000-10-084-T     07/19/10
                               Ended September 30, 2009
                               OMB Circular A-133 Audit Report of
                               the Fund for Armenian Relief, Inc. and
0-000-10-085-T     07/19/10
                               Affiliates for Fiscal Year Ended
                               December 31, 2009
                               OMB Circular A-133 Audit of Aid to
0-000-10-086-T     07/20/10    Artisans, Inc., for Fiscal Year Ended
                               September 30, 2009
                               OMB Circular A-133 Audit Report of
0-000-10-087-T     07/21/10    Millennium Water Alliance for Fiscal
                               Year Ended September 30, 2009
                               OMB Circular A-133 Audit of the
                               Institute for Sustainable Communities
0-000-10-088-T     07/22/10
                               (ISC Enterprises L3C), for Fiscal Year
                               Ended September 30, 2009
                               OMB Circular A-133 Audit of the
                               German Marshall Fund of the U.S.—
0-000-10-089-T     07/22/10
                               Memorial to the Marshall Plan for
                               Fiscal Year Ended May 31, 2008
                               OMB Circular A-133 Audit of The
                               German Marshall Fund of the U.S.—A
0-000-10-090-T     08/01/10
                               Memorial to the Marshall Plan for
                               Fiscal Year Ended May 31, 2009




BU—Better Use of Funds    QC—Questioned Costs UN—Unsupported Costs              Note: UN is part of QC




                                       SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   87
                                                                                Amt. of
                       Date of                                                           Type of
 Report Number                                      Report Title                Findings
                       Report                                                            Findings
                                                                                ($000)
                                    OMB Circular A-133 Audit of
                                    International Orthodox Christian
0-000-10-091-T      07/28/10
                                    Charities Inc. and Affiliate for Fiscal
                                    Year Ended December 31, 2009
                                    OMB Circular A-133 Audit Report for
0-000-10-092-T      08/11/10        Project Concern International for
                                    Fiscal Year Ended September 30, 2009
                                    A-133 Report of Hadassah: The
                                    Women’s Zionist Organization of
0-000-10-093-T      08/19/10
                                    America Inc. and Related Entities for
                                    the Fiscal Year Ended May 31, 2008
                                    A-133 Audit Report of Research
0-000-10-094-T      09/09/10        Triangle Institute for the Fiscal Year
                                    Ended September 30, 2007
                                    Research Triangle Institute, A-133
                                                                                     33 QC
0-000-10-095-T      09/09/10        Audit Report for Fiscal Year Ended
                                                                                     33 UN
                                    September 30, 2008
                                    A-133 Audit Report of International
0-000-10-096-T      09/08/10        Rescue Committee for the Fiscal Year
                                    Ended September 30, 2009
                                    CHF International and Related Entities,
                                                                                  2,552 QC
0-000-10-097-T      09/17/10        OMB Circular A-133 Audit Report for
                                                                                  2,552 UN
                                    Fiscal Year Ended September 30, 2009
                                    OMB Circular A-133 Audit of Private
                                    Agencies Collaborating Together Inc.
0-000-10-098-T      09/14/10
                                    for Fiscal Year Ended September 30,
                                    2009
                                    A-133 Audit Report of The German
                                    Marshall Fund of the United States—A
0-000-10-099-T      09/17/10        Memorial to the Marshall Plan and
                                    Subsidiary for the Fiscal Year Ended
                                    May 31, 2007
                                    A-133 Audit Report of World Vision
                                    International and World Vision Inc.
0-000-10-105-T      09/24/10
                                    (USA) for the Fiscal Year Ended
                                    September 30, 2008
                                    OMB Circular A-133 Report for
0-000-10-109-T      09/24/10        Counterpart International, Inc. for the
                                    Fiscal Year Ended September 30, 2008


BU—Better Use of Funds        QC—Questioned Costs UN—Unsupported Costs        Note: UN is part of QC




88      USAID OFFICE OF INSPECTOR GENERAL
                                                                                   Amt. of
                     Date of                                                                Type of
 Report Number                                 Report Title                        Findings
                     Report                                                                 Findings
                                                                                   ($000)
                               Financial Audit of Cost Incurred and
                               Billed for the Project “Human and
                               Institutional Capacity Building for
                               Afghanistan Energy and Natural
                               Resources Sector” (Task Order No.
                               DOT-I-04-04-00022-00),
5-306-10-002-D     09/28/10                                                              12 QC
                               USAID/Afghanistan Cooperative
                               Agreement No. 306-P-00-10-00514-00,
                               Managed by the Advanced Engineering
                               Associates International (AEAI), for the
                               Period from July 3, 2008, to June 30,
                               2009
                               Close-Out Audit of USAID Resources
                               Managed by JSI Research and Training
                               Institute, Inc., Under Cooperative
                               Agreement Number 294-A-00-05-
6-294-10-024-N     06/22/10
                               00201-00, “Maternal Child Health and
                               Nutrition Project,” for the Period
                               From January 1, 2006, to October 31,
                               2008
                               Close-out Audit of the Fund
                               Accountability Statement of USAID
                               Resources Managed by American Near
                               East Refugee Aid, Under Cooperative
6-294-10-034-N     08/29/10    Agreement Number 294-A-00-05-
                               00240-00, Emergency Water and
                               Sanitation, for the Period From
                               September 27, 2006, to December 26,
                               2008
                               Close-out Audit of the Fund
                               Accountability Statement of Locally
                               Incurred Costs of USAID Resources
                               Managed by Academy for Educational
                               Development, Cooperative Agreement
6-294-10-040-N     09/20/10
                               Number 294-A-00-06-00210-00, “Small
                               and Microfinance Assistance for
                               Recovery and Transition,” for the
                               Period From October 1, 2007, to
                               September 29, 2008




BU—Better Use of Funds    QC—Questioned Costs UN—Unsupported Costs              Note: UN is part of QC




                                       SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   89
                                                                              Amt. of
                       Date of                                                         Type of
 Report Number                                   Report Title                 Findings
                       Report                                                          Findings
                                                                              ($000)
                                    Audit of the Fund Accountability
                                    Statement of USAID Resources
                                    Managed by Internews Network,
                                    Associate Cooperative Agreement
                                    Number 294-A-00-06-00208-00,
6-294-10-042-N      09/22/10        Under Leader Award Number GEG-A-                 7 QC
                                    00-001-00005-00 with Private Agencies
                                    Collaborating Together Inc.,
                                    Independent Media Program in the
                                    West Bank and Gaza, for the Period
                                    October 1, 2007, to June 30, 2008
                                    Audit of Direct Costs Incurred by Air
                                    Serv International Under USAID Grant
                                                                                  182 QC
E-267-10-003-D      06/23/10        Number DFD-G-00-04-00192-00 From
                                                                                  156 UN
                                    June 29, 2004, Through December 31,
                                    2008




BU—Better Use of Funds        QC—Questioned Costs UN—Unsupported Costs      Note: UN is part of QC




90      USAID OFFICE OF INSPECTOR GENERAL
                             Financial Audits
        Associated Questioned Costs, Unsupported Costs, and
      Value of Recommendations That Funds Be Put to Better Use
                              USADF and IAF
                          April 1–September 30, 2010


For this reporting period, OIG found no financial audits with associated
questioned costs, unsupported costs, or recommendations that funds be put to
better use for the United States African Development Foundation and the Inter-
American Foundation.




BU—Better Use of Funds   QC—Questioned Costs UN—Unsupported Costs             Note: UN is part of QC




                                     SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   91
                              Performance Audits
      Associated Questioned Costs, Unsupported Costs, and Value of
           Recommendations That Funds Be Put to Better Use
                                             USAID
                               April 1–September 30, 2010
                                                                                 Amt. of
                    Date of                                                               Type of
Report Number                                     Report Title                   Findings
                    Report                                                                Findings
                                                                                 ($000)
                                        Economy and Efficiency
                                 Follow-Up Audit of USAID/Brazil’s
1-512-10-006-P 06/04/10
                                 Environmental Activities
                                 Audit of USAID/Honduras’ Education
1-522-10-007-P 07/13/10
                                 Activities
                                 Audit of USAID/Panama’s Environment
1-525-10-008-P 07/29/10
                                 Activities
                                 Audit of USAID’s Cash-for-Work
1-521-10-009-P 09/24/10
                                 Activities in Haiti
                                 Audit of USAID/Southern Africa’s
4-674-10-005-P 05/12/10
                                 Regional HIV/AIDS Program in Botswana
                                 Audit of USAID/Mozambique’s HIV/AIDS
4-656-10-006-P 07/16/10
                                 Treatment Program
                                 Audit of USAID/Zambia’s Food Security
4-611-10-007-P 09/01/10
                                 Activities
                                 Audit of USAID/Kenya’s Efforts to Mitigate
4-615-10-008-P 09/29/10
                                 Environmental Impact in Its Project Portfolio
                                 Audit of USAID/Afghanistan’s Afghanistan
5-306-10-008-P 04/20/10          Vouchers for Increased Productive
                                 Agriculture (AVIPA) Program
                                 Audit of USAID/Afghanistan’s Oversight
5-306-10-009-P 05/21/10          of Private Security Contractors in
                                 Afghanistan
                                 Audit of USAID/Pakistan’s Primary
                                 Healthcare Revitalization, Integration and
5-391-10-010-P 06/28/10
                                 Decentralization in Earthquake-Affected
                                 Areas Project
                                 Audit of USAID/Afghanistan’s Alternative
5-306-10-011-P 07/29/10          Development Program Expansion, South
                                 West
 BU—Better Use of Funds        QC—Questioned Costs UN—Unsupported Costs Note: UN is part of QC



 92      USAID OFFICE OF INSPECTOR GENERAL
                                                                                  Amt. of
                  Date of                                                                  Type of
Report Number                                Report Title                         Findings
                  Report                                                                   Findings
                                                                                  ($000)
                            Audit of USAID/Pakistan’s Family
5-391-10-012-P 08/31/10
                            Advancement for Life and Health Program
                            Audit of USAID/Philippines’ Education
5-492-10-013-P 09/23/10     Quality and Access for Learning and
                            Livelihood Skills Program, Phase II
                            Audit of USAID/Egypt’s Efforts to Mitigate
6-263-10-005-P 08/19/10     Environmental Impact in its Project
                            Portfolio
                            Audit of USAID/Lebanon’s Rule of Law
6-268-10-006-P 08/24/10                                                                 71 QC
                            Program
7-641-10-006-P 06/28/10     Audit of USAID/Ghana’s HIV/AIDS Program
                            Audit of USAID’s Food Aid Assistance
7-669-10-007-P 06/29/10     Under the Liberia Integrated Assistance
                            Program
                            Audit of USAID/Nigeria’s Malaria                          710 QC
7-620-10-008-P 07/07/10
                            Intervention                                              710 UN
                            Audit of USAID/Democratic Republic of
7-660-10-009-P 07/21/10     Congo’s Efforts to Mitigate Environmental
                            Impact in Its Project Portfolio
                            Audit of USAID/Kenya’s PEPFAR-Funded
7-615-10-010-P 07/29/10     Activities for the Prevention of
                            Transmission of HIV
                            Audit of USAID’s Management of the
9-000-10-006-P 05/18/10
                            Victims of Torture Fund
                            Audit of USAID’s Response to the Global
9-000-10-007-P 06/04/10
                            Food Crisis
                            Audit of USAID/Uganda’s PEPFAR-Funded
9-000-10-008-P 06/15/10     Activities for the Prevention of
                            Transmission of HIV
                            Audit of USAID/Iraq’s Implementation of
E-267-10-002-P 07/19/10     the Iraq Financial Management
                            Information System




   BU—Better Use of Funds   QC—Questioned Costs UN—Unsupported Costs Note: UN is part of QC



                                      SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   93
                             Performance Audits
     Associated Questioned Costs, Unsupported Costs, and Value of
          Recommendations That Funds Be Put to Better Use
                                   USADF* and IAF
                               April 1–September 30, 2010
                                                                            Amt. of
                      Date of                                                        Type of
 Report Number                                  Report Title                Findings
                      Report                                                         Findings
                                                                            ($000)
                             Audit of the Inter-American
                             Foundation’s Compliance with
A-IAF-10-003-P      09/22/10 Provisions of the Federal Information
                             Security Management Act for
                             Fiscal Year 2010

*The United States African Development Foundation had nothing to report.




BU—Better Use of Funds        QC—Questioned Costs UN—Unsupported Costs Note: UN is part of QC



94      USAID OFFICE OF INSPECTOR GENERAL
                            Miscellaneous Reports
   Associated Questioned Costs, Unsupported Costs, and Value of
        Recommendations That Funds Be Put to Better Use
                                        USAID
                             April 1–September 30, 2010
                                                                                    Amt. of
                   Date of                                                                   Type of
Report Number                                  Report Title                         Findings
                   Report                                                                    Findings
                                                                                    ($000)
                                   Quality Control Reviews
                        Quality Control Review of OMB Circular
                        A-133 Audit of Educational Development
0-000-10-002-Q 08/27/10
                        Center for Fiscal Year Ended
                        September 30, 2009
                        Quality Control Review of OMB Circular
                        A-133 Audit of Management Science for
0-000-10-003-Q 09/29/10
                        Health for Fiscal Year Ended June 30,
                        2008
                        Quality Control Review of the Financial
                        Audit Conducted by KPMG Afghanistan
                        Limited of the Local Costs Incurred by
                        the Joint Venture Louis Berger Group,
                        Inc./Black & Veatch Special Projects Corp.
5-306-10-001-Q 05/18/10 (LBGI/B&V) to Implement the Afghanistan
                        Infrastructure Rehabilitation Program
                        (AIRP), USAID/Afghanistan Contract No.
                        306-I-00-06-00517-00, for the Period
                        from October 1, 2007, to September 30,
                        2008




   BU—Better Use of Funds     QC—Questioned Costs UN—Unsupported Costs Note: UN is part of QC



                                        SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   95
                                                                              Amt. of
                    Date of                                                            Type of
Report Number                                    Report Title                 Findings
                    Report                                                             Findings
                                                                              ($000)
                        Quality Control Review of Khadder and
                        Co. Audit of the Fund Accountability
                        Statement of USAID Resources Managed
                        by Internews Network, Sub-grant Under
                        USAID Associate Cooperative Agreement
                        Number 294-A-00-06-00208-00, Under
6-294-10-003-Q 09/14/10
                        Leader Award Number GEG-A-00-001-
                        00005-00, With “Private Agencies
                        Collaborating Together Inc.,” Independent
                        Media Program in the West Bank and
                        Gaza for the Period From October 1,
                        2007, to June 30, 2008
                        Quality Control Review of the Ghana
                        Audit Service Regarding the Audit of the
                        Ghana Science Association for the Year
7-641-10-005-Q 09/24/10 Ended December 31, 2008, and the Audit
                        of the Public Accounts of Ghana
                        (Consolidated Fund) for the Year Ended
                        December 31, 2008
                                               Other
                                 Review of USAID’s Internally Displaced
5-391-10-001-S    06/28/10
                                 Persons Programs in Pakistan
                        Review of School and Health Clinic
                        Buildings Completed Under the Schools
5-306-10-002-O 06/24/10
                        and Clinics Construction and
                        Refurbishment Program
                                 Review of Security Costs Charged to
5-306-10-002-S    09/29/10
                                 USAID Projects in Afghanistan
                           Risk Assessment of the Impact of
6-263-10-001-S    07/18/10 BearingPoint’s Restructuring on
                           USAID/Egypt Programs
                           Review of USAID’s Effectiveness in
9-000-10-001-S    07/19/10 Obtaining the Benefits of Its Research and
                           Development Efforts
9-000-10-002-S    08/12/10 Review of USAID’s Travel Card Program




 BU—Better Use of Funds        QC—Questioned Costs UN—Unsupported Costs Note: UN is part of QC



 96      USAID OFFICE OF INSPECTOR GENERAL
                          Miscellaneous Reports
  Associated Questioned Costs, Unsupported Costs, and Value of
       Recommendations That Funds Be Put to Better Use
                              USADF and IAF
                           April 1–September 30, 2010

During the reporting period, OIG found no miscellaneous reports with
associated questioned costs, unsupported coasts, or recommendations that
funds be put to better use from the United States African Development
Foundation and the Inter-American Foundation.




 BU—Better Use of Funds     QC—Questioned Costs UN—Unsupported Costs Note: UN is part of QC



                                      SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   97
                         Significant Audit Reports
                             Afghanistan, Pakistan, and Iraq
                                            USAID
                               April 1–September 30, 2010

                                                                            Amt. of
                     Date of                                                         Type of
 Report Number                                  Report Title                Findings
                     Report                                                          Findings
                                                                            ($000)
                                            Afghanistan
                             Financial Audit of Cost Incurred and Billed
                             for the Project “Human and Institutional
                             Capacity Building for Afghanistan Energy
                             and Natural Resources Sector” (Task
                             Order No. DOT-I-04-04-00022-00),
5-306-10-002-D      09/28/10                                                  12       QC
                             USAID/Afghanistan Cooperative
                             Agreement No. 306-P-00-10-00514-00,
                             Managed by the Advanced Engineering
                             Associates International (AEAI), for the
                             Period from July 3, 2008, to June 30, 2009
                             Audit of USAID/Afghanistan’s
                             Afghanistan Vouchers for Increased
5-306-10-008-P      04/20/10
                             Productive Agriculture (AVIPA)
                             Program
                             Audit of USAID/Afghanistan’s Oversight
5-306-10-009-P      05/21/10 of Private Security Contractors in
                             Afghanistan
                             Audit of USAID/Afghanistan’s Alternative
5-306-10-011-P      07/29/10 Development Program Expansion, South
                             West
                             Quality Control Review of the Financial
                             Audit Conducted by KPMG Afghanistan
                             Limited of the Local Costs Incurred by the
                             Joint Venture Louis Berger Group,
                             Inc./Black & Veatch Special Projects Corp.
5-306-10-001-Q      05/18/10
                             (LBGI/B&V) to Implement the Afghanistan
                             Infrastructure Rehabilitation Program
                             (AIRP), USAID/Afghanistan Contract No.
                             306-I-00-06-00517-00, for the Period from
                             October 1, 2007, to September 30, 2008



BU—Better Use of Funds        QC—Questioned Costs UN—Unsupported Costs Note: UN is part of QC



98      USAID OFFICE OF INSPECTOR GENERAL
                                                                                   Amount
                    Date of                                                           of    Type of
 Report Number                                 Report Title
                    Report                                                         Findings Findings
                                                                                   ($000)
                            Review of School and Health Clinic
                            Buildings Completed Under the Schools
5-306-10-002-O     06/24/10
                            and Clinics Construction and
                            Refurbishment Program
                              Review of Security Costs Charged to
5-306-10-002-S     09/29/10
                              USAID Projects in Afghanistan
                                           Pakistan
                           Financial Audit of the Developing Non-
                           Bankable Territories for Financial
                           Services Program, USAID/Pakistan
5-391-10-029-R    04/30/10 Cooperative Agreement No. 391-A-00-                        90         QC
                           03-01011-00, Managed by Khushhali
                           Bank, for the Year Ended December 31,
                           2008
                           Financial Audit of the College
                           Improvement Program, USAID/Pakistan
                           Grant Agreement No. 391-G-00-04-
5-391-10-033-R    05/18/10
                           01036-00, Managed by Forman Christian
                           College, Lahore (FCC), for the Period
                           from July 1, 2007, to June 30, 2009
                        Financial Audit of the Pakistan
                        Competitiveness Support Fund,
                        USAID/Pakistan Grant Agreement No.
                                                                                     355         QC
G-391-10-001-R 08/04/10 391-G-00-06-01073-00, Managed by
                                                                                     355         UN
                        Competitiveness Support Fund (CSF),
                        for the Period from February 3, 2006, to
                        June 30, 2009
                           Audit of USAID/Pakistan’s Primary
                           Healthcare Revitalization, Integration
5-391-10-010-P    06/28/10
                           and Decentralization in Earthquake-
                           Affected Areas Project
                           Audit of USAID/Pakistan’s Family
5-391-10-012-P    08/31/10 Advancement for Life and Health
                           Program
                              Review of USAID’s Internally Displaced
5-391-10-001-S    06/28/10
                              Persons Programs in Pakistan




  BU—Better Use of Funds      QC—Questioned Costs UN—Unsupported Costs Note: UN is part of QC



                                        SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   99
                                                                            Amount
                     Date of                                                   of    Type of
 Report Number                                  Report Title
                     Report                                                 Findings Findings
                                                                            ($000)
                                               Iraq
                        Audit of Direct Costs Incurred by Air
                        Serv International Under USAID Grant
                                                                              182      QC
E-267-10-003-D 06/23/10 Number DFD-G-00-04-00192-00 From
                                                                              156      UN
                        June 29, 2004, Through December 31,
                        2008
                            Audit of USAID/Iraq’s Implementation
E-267-10-002-P     07/19/10 of the Iraq Financial Management
                            Information System




                         Significant Audit Reports
                               USADF and IAF
                               April 1–September 30, 2010

For the reporting period, OIG had no significant audits to report for the United
States African Development Foundation or the Inter-American Foundation.




BU—Better Use of Funds        QC—Questioned Costs UN—Unsupported Costs Note: UN is part of QC



100     USAID OFFICE OF INSPECTOR GENERAL
            Statistical Table of Reports with
           Questioned and Unsupported Costs
                          USAID
                          April 1–September 30, 2010
                                                     Number of        Questioned        Unsupported
                    Reports                            Audit            Costs             Costs1
                                                      Reports            ($)                ($)

A. For which no management decision had
                                                          55          11,361,8872,3 7,685,6842,3
   been made as of April 1, 2010

B. Add: Reports issued April 1–
                                                          73           20,147,2904 15,552,1354
   September 30, 2010

Subtotal                                                 128            31,509,177        23,237,819

C. Less: Reports with a management decision
                                                          86           16,539,3095 10,470,2445
   made April 1–September 30, 2010

           Value of Recommendations
                                                                          8,377,128        4,164,330
           Disallowed by Agency Officials

           Value of Recommendations
                                                                          8,162,181        6,305,914
           Allowed by Agency Officials

D. For which no management decision had
                                                          42           14,969,8686 12,767,5756
   been made as of September 30, 2010
1
 Unsupported costs are included in questioned costs, but they are provided as additional
information, as required by the Inspector General Act as amended 1988 (Public Law 100-504).
2
 The ending balance at March 31, 2010, for questioned costs totaling $13,319,785 and for
unsupported costs totaling $8,845,469 were decreased by $1,957,898 and $1,159,785,
respectively, to reflect adjustments in recommendations from prior periods.
3
 Amounts include $1,380,004 in questioned costs and $1,072,623 in unsupported costs for
audits performed for OIG by other federal audit agencies.
4
 Amounts include $194,069 in questioned costs and $155,911 in unsupported costs for audits
performed for OIG by other federal audit agencies.
5
 Amounts include $1,380,004 in questioned costs and $1,072,623 in unsupported costs for
audits performed for OIG by other federal audit agencies.
6
 Amounts include $194,069 in questioned costs and $155,911 in unsupported costs for audits
performed for OIG by other federal audit agencies.




                                      SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   101
                    Reports with
          Questioned and Unsupported Costs
                   USADF and IAF
                              April 1–September 30, 2010

During the reporting period, OIG had no reports with questioned or
unsupported costs for the United States African Development Foundation and the
Inter-American Foundation.




102    USAID OFFICE OF INSPECTOR GENERAL
           Statistical Table of Reports With
            Recommendations That Funds
                 Be Put to Better Use
                         USAID
                       April 1–September 30, 2010
                                                              Number of
                                                                                     Value
                       Reports                                  Audit
                                                                                      ($)
                                                               Reports

E. For which no management decision had been made as
                                                                    1               57,000
   of April 1, 2010


F. Add: Reports issued April 1–September 30, 2010                   0                  0


Subtotal                                                            1              57,000

G. Less: Reports with a management decision made
                                                                    1               57,000
   April 1–September 30, 2010

         Value of Recommendations Disallowed by
                                                                                    57,000
         Agency Officials

         Value of Recommendations Allowed by
                                                                                       0
         Agency Officials

H. For which no management decision had been made as
                                                                    0                  0
   of September 30, 2010




                                  SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010 103
           Reports with Recommendations
           That Funds Be Put to Better Use
                   USADF and IAF
                            April 1–September 30, 2010

During the reporting period, OIG had no reports with recommendations that
funds to be put to better use for the United States African Development
Foundation and the Inter-American Foundation.




104    USAID OFFICE OF INSPECTOR GENERAL
            Reports Over 6 Months Old With
               No Management Decision
                        USAID
                          April 1–September 30, 2010
   Report                   Issue
                Auditee                                           Status
   Number                   Date
                                     Recommendation 5. Pursuant to the provisions
                                     of the Privacy Act of 1974 (5 U.S.C. 552a), USAID
                                     established a new system of records titled the
                                     “Partner Vetting System” (PVS). The information
                                     collected would be used to conduct screening to
                                     ensure that USAID funds and USAID-funded
                                     activities are not purposefully or inadvertently
                                     used to provide support to entities or individuals
                                     deemed to be a risk to national security. On
                                     November 6, 2007, OIG made a recommendation
                                     to USAID’s Office of Security to develop a plan to
                                     expand and then implement its antiterrorism
                                     vetting database for worldwide use. The FY 2010
               Office
                                     State and Foreign Operations Appropriations Bill
9-000-08-001-P of         11/06/07
                                     prohibits the use of funds for implementation of
               Security
                                     PVS on a worldwide basis, but it also provides that
                                     funds appropriated under that act may be used for
                                     a PVS pilot program, which is to apply equally to
                                     the programs and activities of the Department of
                                     State and USAID. The Department of State and
                                     USAID have formed a working group to
                                     determine a way forward and possible approaches
                                     are being examined. USAID is continuing with
                                     development of the necessary technical
                                     components and expects to undertake a pilot
                                     implementation later in FY 2010. However, as of
                                     September 2010, very little progress has been
                                     made on the pilot initiative.




                                     SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010 105
             Reports Over 6 Months Old With
                No Management Decision
                      USADF and IAF
                               April 1–September 30, 2010

During the reporting period, the United States African Development Foundation
and the Inter-American Foundation had no reports over 6 months old with no
management decision.


                          Significant Revisions of
                          Management Decisions
                               April 1–September 30, 2010

According to the Inspector General Act of 1978, as amended, semiannual
reports to Congress must report on serious or flagrant problems and disclose
information. One of those disclosures includes significant revisions of previous
management decisions. During this reporting period, USAID/Iraq made three
such decisions. USADF and IAF had nothing to report.

Audit of Direct Costs Incurred and Billed by CHF International Under
USAID Agreement No. 267-A-03-00004-00 (ICAP I) for August 1,
2005, through April 30, 2007, and USAID Agreement No. 267-A-00-
06-00507-00 (ICAP II) for September 30, 2006, through September 30,
2007.

OIG included a recommendation (no. 3) in the audit report that USAID/Iraq’s
Office of Acquisition and Assistance determine the allowability and collect as
appropriate $1,369,706 in questioned ineligible costs.

On November 25, 2009, OIG/Iraq issued a management decision that was based
on the contracting officer’s intent to disallow questioned costs of $1,038,845 and
allow $330,861. The $1,038,845 was composed of disallowed amounts from
three subrecipients. USAID collected the disallowed amounts from two of the
subrecipients. The agreement officer reviewed project and financial
documentation provided by the third subrecipient in support of the disallowed
ineligible costs and determined that all of the $1,020,630 in costs were allowable
and consequently rescinded a bill of collection. Thus, for Recommendation 3, of
the $1,369,706 of questioned ineligible costs, USAID has disallowed (sustained)
$18,215 and allowed $1,351,491.




106    USAID OFFICE OF INSPECTOR GENERAL
USAID/Iraq issued a revised management decision on July 25, 2010. OIG/Iraq
acknowledged and concurred with the revised management decision on July 30,
2010.

(Audit Report No. E-267-09-011-D)

Audit of Costs Incurred and Billed to USAID by BearingPoint, Inc.,
Under Contract No. RAN-C-00-03-00043-00 From December 1, 2003,
to March 31, 2004

In the audit report, OIG included two recommendations for USAID/Iraq’s Office
of Acquisition and Assistance to determine the allowability and collect as
appropriate $1,189,543 (no. 1) and $3,927,881 (no. 2) of questioned ineligible
costs. On August 22, 2005, OIG issued a management decision that was based
on the contracting officer’s intent to disallow $2,762,600 of questioned costs.

Subsequently, on November 14, 2005, the USAID contracting officer issued a
new final decision (no revised management decision was requested by USAID or
acknowledged by the OIG) and in October 2009, the Armed Services Board of
Contract Appeals (ASBCA Nos. 55354, 55555) issued a decision. The cumulative
effect of these two actions was:

•    For Recommendation 1, of the $1,189,543 of questioned ineligible costs,
     USAID has disallowed (sustained) $350,623 and allowed $838,920.
•    For Recommendation 2, of the $3,927,881 of questioned unsupported costs,
     USAID has disallowed (sustained) $92,462 and allowed $3,835,419.

However, the remaining disallowed amounts of $443,084 were subject to a
settlement agreement17 of USAID claims, and USAID/Iraq’s contracting officer
rescinded the demand for payment on the remaining disallowed costs. Thus, no
questioned costs have been sustained from Recommendations 1 and 2. USAID/Iraq
issued a revised management decision on July 6, 2010. OIG/Iraq acknowledged and
concurred with the revised management decisions on July 14, 2010.

(Audit Report No. E-266-04-043-D)

Audit of Costs Incurred and Billed to USAID by BearingPoint, Inc.
Under Contract No. RAN-C-00-03-00043-00, April 1, 2004, Through
September 30, 2004

The audit report included two recommendations: that USAID/Iraq’s Office of
Acquisition and Assistance determine the allowability and collect as appropriate


17
  Refers to a settlement reached between USAID and BearingPoint on USAID claims arising out
of BearingPoint’s bankruptcy filing.




                                       SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010 107
the $440,210 of questioned ineligible costs (Recommendation 1) and
$12,891,630 of questioned unsupported costs (Recommendation 2) charged to
USAID by Bearing Point, Inc., under contract number RAN-C-00-03-00043-00.

On November 8, 2005, OIG acknowledged the determination by the USAID/Iraq
contracting officer for the two recommendations and issued a management
decision that was based on the contracting officer’s intent to disallow questioned
costs of $229,564 from Recommendation 1 and $12,787,483 from
Recommendation 2.

Subsequently, on January 7, 2006; July 10, 2006; and October 6, 2008; the USAID
contracting officer issued new final decisions. However, no revised management
decisions were ever requested by USAID, and thus no revised management
decisions acknowledged by OIG. In October 2009, the Armed Services Board of
Contract Appeals (ASBCA Nos. 55354, 55555) issued a decision. As a
consequence, the cumulative effect of these actions is as follows.

•     For Recommendation 1, of the $440,210 of questioned ineligible costs,
      USAID has disallowed (sustained) $229,303 and allowed $210,907.
•     For Recommendation 2, of the $12,891,630 of questioned unsupported
      costs, USAID has disallowed (sustained) $506,345 and allowed $12,385,285.

However, the remaining disallowed amounts ($229,303 and $506,345), were
subject to a settlement agreement of USAID claims. As a result, the USAID/Iraq
contracting officer rescinded the demand for payment on the questioned
ineligible and unsupported costs of $735,648 (in total) from BearingPoint
covering the remaining disallowed costs from Recommendations 1 and 2. Thus,
no questioned costs have been sustained from Recommendations 1 and 2.
USAID/Iraq issued a revised management decision on July 18, 2010. OIG/Iraq
acknowledged and concurred with the revised management decisions on July 25,
2010.

OIG reports E-266-04-043-D and E-267-05-013-D describe the results of audits
of costs billed to USAID by BearingPoint under contact RAN-C-00-03-00043-00.
After these audits were conducted BearingPoint filed for bankruptcy protection.
The terms of the bankruptcy settlement included this contract in the list of
contracts to be closed out, and no further claims were to be pursued.
USAID/Iraq closed out the contracts and rescinded the demand for payment on
the remaining questioned costs.

Final action took place on the three reports on August 16, 2010.

(Audit Report No. E-267-05-013-D)




108      USAID OFFICE OF INSPECTOR GENERAL
      Management Decisions With Which the
          Inspector General Disagrees
             USAID, USADF, and IAF
                        April 1–September 30, 2010

The Inspector General Act of 1978, as amended, requires inspectors general to
provide information concerning any significant management decisions with which
the inspector general disagrees.

During the reporting period, the Inspector General did not disagree with any
significant management decisions.




                                  SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010 109
      Noncompliance With the Federal Financial
          Management Improvement Act
              USAID, USADF, and IAF
                               April 1–September 30, 2010

The Inspector General Act of 1978, Section 5(a)(13), as amended, requires
inspectors general to provide an update on issues outstanding under a
remediation plan required by the Federal Financial Management Improvement
Act (FFMIA, Public Law 104-208, Title VIII, codified at 31 U.S.C. 3512 note).
FFMIA requires agencies to comply substantially with (1) federal financial
management system requirements, (2) federal accounting standards, and (3) the
U.S. Standard Ledger at the transaction level. An agency that is not substantially
compliant with FFMIA must prepare a remediation plan.

USAID, USADF, and IAF had no instances of noncompliance to report during
this reporting period.




110    USAID OFFICE OF INSPECTOR GENERAL
                   Significant Findings From
                    Contract Audit Reports
                    USAID, USADF, and IAF
                        April 1–September 30, 2010

The National Defense Authorization Act for FY 2008 (Public Law 110-181,
Section 842, codified at 10 U.S.C. 2302 note) requires inspectors general to
submit information on contract audit reports that contain significant audit
findings in semiannual reports to Congress. The act defines “significant audit
findings” to include unsupported, questioned, or disallowed costs in excess of
$10 million and other contract-related findings that the Inspector General
determines to be significant.

During the reporting period, OIG had no significant findings from contract audit
reports for USAID, the United States African Development Foundation, or the
Inter-American Foundation.




                                  SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010 111
                          Peer Reviews
                   USAID, USADF, IAF, and MCC
                               April 1–September 30, 2010

The Dodd-Frank Wall Street Reform and Consumer Protection Act (Public Law
111-203) was signed into law July 21, 2010. Section 989C of this law amends the
Inspector General Act to require federal inspectors general to report on peer
results in their semiannual reports.

Results of any peer reviews conducted on USAID OIG during the reporting
period.

Audit: No peer reviews were conducted during this period.

Investigations: No peer reviews were conducted during this period.

Date of the last peer review conducted on USAID OIG, if a review was not
conducted during the last reporting period.

Audit: September 2009

Investigations: April 2008

List of outstanding recommendations from any peer review conducted on
USAID OIG that have not been fully implemented, including a statement
describing the status of the implementation and why implementation is not
complete.

Audit: None

Investigations: None

List of peer reviews conducted by USAID OIG during the rating period, including
a list of any outstanding recommendations made from any previous peer review
(including any peer review conducted before the rating period) that remain
outstanding or have not been fully implemented.

Audit: None

Investigations: None




112    USAID OFFICE OF INSPECTOR GENERAL
SEMIANNUAL REPORT TO THE CONGRESS

 Millennium Challenge Corporation (MCC)




                SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010 113
                                   INTRODUCTION
Established in 2004 by the Millennium Challenge Act of 2003,18 the Millennium
Challenge Corporation (MCC) is a U.S. Government corporation that works to
reduce poverty and stimulate economic growth in some of the poorest countries
in the world. When a country meets the performance standards of MCC’s
17 policy indicators, it may become eligible to receive a compact—the chief
grant instrument between MCC and the country to fund specific programs.

Compact countries must ensure that certain conditions are met after
the agreement is signed, which can take several months to resolve. When
the agreement conditions are met, the agreement timeline begins and the
agreement is said to “enter into force.” Entry into force is the point at which a
binding commitment is recognized and compact funds are obligated. Each
compact country identifies an agency or entity that will manage the compact
funds or accounts. Such organizations are usually called Millennium Challenge
accounts (MCA) and refer to the funds of the compact.

During this period, OIG has provided audit oversight for MCC’s financial and
performance accountability. Financial audits of U.S. taxpayer monies granted to
compact countries are an important component of OIG’s audit activities. With
the assistance of independent audit firms, OIG issued 13 audit reports covering
approximately $234 million expended by compact countries. The audits
identified questioned costs of about $632,000. OIG also completed a limited-
scope review in Mali. In the review of MCA-Mali, we identified questioned costs
of approximately $408,000. The review also identified about $300,000 in funds
that could be put to better use, and MCA-Mali agreed. Finally, an OIG survey on
MCC’s oversight of value-added taxes on MCC funds by host governments
identified areas that required strengthening.

OIG also conducted information technology audits of MCC. The first audit dealt
with MCC’s implementation of key components of a privacy program for its
information technology systems. In addition, OIG contracted with an
independent public accounting firm to determine whether MCC had
implemented selected security controls requirements under FISMA. OIG made
27 recommendations to address problem areas identified in these audits.

In addition, OIG carried out performance audits related to MCC’s transport
infrastructure project in Vanuatu and MCC’s school building programs in Burkina
Faso. Ten recommendations were made to improve MCC’s operations.



18
      Public Law 108-199.




114        USAID OFFICE OF INSPECTOR GENERAL
                  SIGNIFICANT FINDINGS

              Economic Growth and Prosperity

                               Economic Security
Audit of MCC’s Programs in Burkina Faso. MCC signed a threshold
agreement in July 2005 amounting to $12.9 million with the Government of
Burkina Faso to build 132 schools suitable for girls and including Grades 1–3.
Three years later, MCC awarded a $481 million compact to the Government of
Burkina Faso, which included $28.8 million to add Grades 4–6 at these schools.
The programs aimed to improve the primary school completion rate for girls
through Grade 6.




            Schools like this one were built as part of the threshold program.
                                (Photo by OIG, April 2010.)

The audit found that the threshold-funded school project had not improved the
primary school completion rate for girls. The project built primary schools with
Grades 1–3 instead of schools with six grades. The subsequent compact funding
added Grades 4–6, and these schools should improve the primary school
completion rate for girls. We made three recommendations to MCC to improve
monitoring and evaluation and to develop an action plan for funding school
repairs. Management decisions have been reached for all of the
recommendations.

(Audit Report No. M-000-10-006-P)




                                     SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010 115
Audit of MCC’s Transport Infrastructure Project in Vanuatu. In March
2006, MCC and the Government of Vanuatu signed a 5-year compact for about
$65.7 million to reduce poverty and increase incomes in rural areas. Specific
activities would improve the transport infrastructure to stimulate economic
activity in the tourism and agricultural sectors.

The MCC project was scaled down because of inadequate funding and only
2 of the 11 subprojects were completed, thus reducing MCC’s overall
intervention. In part, the audit found that MCC had not finalized a 2010
Monitoring and Evaluation (M&E) plan to include appropriate indicators that
would annually measure economic growth. MCC did have a 2009 M&E plan.
However, we believe that without establishing annual targets, which provide up-
to-date performance data, MCC would not be able to modify the project as
needed during its progression and cannot determine whether the project meet
its intended results until after the compact ends. OIG made seven
recommendations to help MCC address these problems. Management decisions
were reached on all seven recommendations, and final actions were reached on
four by the time the report was issued.

(Audit Report No. M-000-10-005-P)


                          Management Capabilities

                                 Information Technology
Audit of MCC’s Implementation of Key Components of a Privacy
Program for Its Information Technology Systems. OIG initiated this audit
to determine whether MCC had implemented key components of a privacy
program for its information technology systems.

We found that MCC had not implemented the key components of the privacy
program, and in some instances there was a risk that individuals’ privacy may
have been violated. MCC did not develop comprehensive privacy policies and
procedures (including assignment of key roles and responsibilities), develop or
implement comprehensive privacy training, or monitor privacy activities. Also,
the chief privacy officer’s position did not give him the authority to implement an
effective privacy program.




116    USAID OFFICE OF INSPECTOR GENERAL
OIG made 18 recommendations to correct the weaknesses identified in MCC’s
privacy program. MCC agreed with 14 of the recommendations. MCC also
disagreed with two recommendations. Finally, two recommendations and a
portion of a third are no longer valid. Thus, management decisions were reached
on 14 recommendations but not on the other 2.

(Audit Report No. M-000-10-003-P)

Audit of the Millennium Challenge Corporation’s Compliance with the
Federal Information Security Management Act for 2002 FY 2010. OIG
contracted with an independent public accounting firm, Clifton Gunderson LLP,
to conduct this audit to determine whether MCC had implemented selected
security controls for selected information systems to meet FISMA requirements.
The audit disclosed that MCC had generally implemented the controls and had
continued to make progress in complying with FISMA requirements. The audit
also found some weaknesses, and OIG made 11 recommendations to address
the deficiencies. Clifton Gunderson agreed with MCC’s plans to implement nine
of the recommendations and requested that MCC provide additional information
for the remaining two.

(Audit Report No. M-000-10-004-P)


                          Financial Management
Audit of MCC’s Financial Statements for the Period Ending
September 30, 2009 and 2008 (Management Letter). OIG contracted
with an independent public accounting firm, Cotton and Company LLP, to audit
MCC’s financial statements as of September 30, 2009. The company issued an
unqualified opinion.

In conjunction with the audit, OIG issued a management letter to communicate
matters involving internal controls and other operational issues. We made 14
recommendations. None of the reported findings and recommendations had a
material effect on MCC’s financial statements, and they were not required to be
reported in the financial statements audit report.

MCC concurred with all 14 recommendations, and management decisions were
reached on all of them.

Survey of MCC’s Oversight of Value-Added Taxes on MCC Funds by
Host Governments. When foreign governments impose value-added taxes
(VAT) on funds provided by MCC, MCC should collect those amounts as
reimbursements. According to the compacts, all MCC funds are exempt from
taxation by host governments. This survey assessed whether MCC has a process
in place to follow up on or collect these VAT payments and reimbursements.



                                    SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010 117
The survey found that MCC did not have an adequate oversight process in place
and lacked adequate standard procedures to account for VAT transactions.

OIG made four recommendations to help MCC correct these problems, and

MCC agreed with all of them. A management decision was reached for three,
and no management decision was reached for the remaining one.

(Survey Report No. M-000-10-003-S)

Limited-Scope Review of MCA-Mali. MCAs must comply with MCC’s
Policies and Procedures for Common Payment System and, in their fund
accountability statements, comply with MCC’s Cost Principles for Government
Affiliates Involved in MCC Compact Implementation. OIG performed this review
to obtain reasonable assurance that MCA-Mali was in compliance with these
policies and principles.

OIG found many instances of noncompliance with compact requirements.
We also discovered findings and questioned costs related to such transactions as
(1) vehicles purchased for $376,008 with inadequate supporting documentation,
(2) unallocable employee compensation of $14,006, and (3) unallowable travel
costs of $17,753. We made 13 recommendations, and management decisions
were reached on five of them. Final actions were achieved for three
recommendations, and no management decisions were reached for the
remaining five. OIG will provide a separate letter to MCC for it to respond to
the recommendations for which no management decisions were reached. The
letter will provide an opportunity to obtain management decisions or final
actions.

(Review Report No. M-000-10-004-S)


                          Fund Accountability Statements
The OIG financial audit team is responsible for reviewing and issuing semiannual
fund accountability statement audits of each accountable entity that is awarded a
compact. The audits are conducted by independent public auditors, as required
by compact agreements.

Under the terms of MCC compacts, funds expended by a recipient country must
be audited at least annually, but they are usually audited twice a year. The
recipient establishes an MCA and produces financial statements documenting
account activity. The audit of the fund accountability statement is conducted by a
firm that OIG has approved.




118    USAID OFFICE OF INSPECTOR GENERAL
The selected audit firm issues an opinion on whether the financial statements
present fairly, in all material respects, the program revenues and costs incurred
and reimbursed, in conformity with the terms of a compact agreement and
related supplemental agreement for the period being audited. In addition, the
audit firm is required to employ generally accepted government auditing
standards in performing the audits. All audit reports are reviewed, approved, and
issued by OIG. During this reporting period, OIG issued 15 recommendations
for the 13 fund accountability statement audits conducted.

Cape Verde. The MCA-Cape Verde audit covered incurred costs of
$15.6 million for the period January 1–June 30, 2009. The 5-year compact for
approximately $110 million addresses support for strategic investments in three
major projects that will improve the country’s investment climate and reform
the financial sector. Specifically, the compact intends to improve infrastructure in
support of the increased economic activity and provide access to markets,
employment, and social services; increase agricultural productivity and raise the
income of the rural population; and carry out key reforms needed for sustained
economic growth.

Except for an ineligible questioned cost of $3,365 related to paid VAT, the fund
accountability statement presented fairly, in all material respects, program
revenue received and expenses incurred and reimbursed during the period
under audit. We found no matters involving internal controls that we considered
to be significant deficiencies. However, we identified several repeated instances
of internal control deficiencies and noncompliance issues that pertained to
government contribution reports, internal audits, quarterly reports, and VAT
reimbursements.

(Audit Report No. M-000-10-014-N)

El Salvador. The MCA-El Salvador (FOMILENIO) audit covered incurred costs
of $15.8 million for the period January 1–June 30, 2009. The 5-year compact for
$460.94 million supports three project-level objectives—human development,
productive development, and connectivity—as well as other cross-cutting
themes that include environment, territorial development, gender equality, and
participation.

The MCA-El Salvador fund accountability statement presents fairly, in all material
respects, program revenue received and expenses incurred and reimbursed
during the period under audit. In addition, no internal control or compliance
problems were reported.

(Audit Report No. M-000-10-017-N)

Georgia. The MCA-Georgia (MCG) audit covered incurred costs of nearly
$29.9 million for the period January 1–June 30, 2009. The 5-year, $294.7 million



                                    SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010 119
compact funds projects in the following areas: Samtske–Javakheti Road, energy
rehabilitation, regional infrastructure development, Georgia Regional
Development Fund (GRDF), and agribusiness development.

The fund accountability statement presents fairly, in all material respects,
program revenues as well as costs incurred and reimbursed.

The audit identified $352,350 as a questioned, unsupported cost related to
interim payments made to contractors under the Samtske-Javakheti Roads
Rehabilitation Project. The audit also found two internal control deficiencies.
MCG did not fully document milestone achievements by grantees or provide
accurate documentation of civil works under Samtske-Javakheti Roads
Rehabilitation Project-Contracts SJRRP/CW/04, SJRRP/CW/04-01, and
SJRRP/CW/04-05. Finally, the audit also found a noncompliance issue—
inconsistency between the GRDF fund management agreement and travel and
compensation guidelines for the GRDF board of directors.

(Audit Report No. M-000-10-009-N)

Ghana. The MCA-Ghana audit covered incurred costs of more than $46 million
for the period July 1–December 31, 2009. The 5-year compact for $547 million
is intended to (1) enhance the profitability of cultivation, (2) provide services to
agriculture and product handling to support expansion of commercial agriculture
among crops of small-holder farms; (3) reduce the transportation costs affecting
agricultural commerce regionally and subregionally; and (4) strengthen the rural
institutions that provide services to complement and support agricultural and
agribusiness development.

The independent auditor reported that, except for a questioned cost of $2,573,
the fund accountability statement presented fairly, in all material respects,
program revenues and expenditures for the period audited. The questioned cost
related to outstanding travel advances. The auditor also reported a significant
deficiency in internal controls involving inadequate monitoring of employee
travel advances. The auditor also indicated that no compliance issues were
reported during the reporting period.

(Audit Report No. M-000-10-016-N)

Honduras. The independent audit of MCA-Honduras covered incurred costs
totaling $60.4 million for the period July 1, 2008–June 30, 2009. In June 2005,
MCC signed a 5-year, $215 million compact with the Government of Honduras
aimed to reduce poverty by alleviating two key impediments to economic
growth: low agricultural productivity and high transportation costs. The
compact will fund training for farmers in the production and marketing of high-
value horticultural crops, expand farmer access to credit through technical
assistance to financial institutions and loans, construct and rehabilitate feeder



120    USAID OFFICE OF INSPECTOR GENERAL
roads, and provide grants for public goods such as research, infrastructure, and
pest and disease control measures.

The MCA-Honduras fund accountability statement presented fairly, in all material
respects, program revenues, costs incurred and reimbursed, and commodities
and technical assistance procured directly by MCC for the period ending June 30,
2009. No deficiencies were reported.

(Audit Report No. M-000-10-018-N)

Lesotho—Two Audits. In July 2007, MCC signed a 5-year, $362.6 million
compact with the Kingdom of Lesotho designed to provide water supplies for
industrial and domestic use, improve health outcomes, and remove barriers to
foreign and local private sector investment.

January 1–June 30, 2009—The independent audit of MCA-Lesotho for this period
covered incurred costs totaling $7,045,750.

The MCA-Lesotho fund accountability statement presented fairly, in all material
respects, program revenues and expenditures for the period audited.

Deficiencies were reported on matters associated with the fund accountability
statement, internal controls, and noncompliance with laws, regulations, and
compact term agreements.

(Audit Report No. M-000-10-012-N)

July 1–December 31, 2009—The independent audit of MCA-Lesotho for this
period covered incurred costs totaling $7.5 million and was a separate audit
activity from the prior reported Lesotho audit.

The MCA-Lesotho fund accountability statement presented fairly, in all material
respects, program revenues, costs incurred and reimbursed, and commodities
and technical assistance procured directly by MCC for the audit period. The
audit found deficiencies in internal controls related to procurement procedures
for goods and services and project activity payment allocations. In addition, we
found noncompliance with procurement laws and regulations; procurement
procedures and documentation; content of the fixed asset register; and the
implementation of a value-added-tax exemption.

(Audit Report No. M-000-10-015-N)

Morocco. The MCA-Morocco audit covered incurred costs of $2.2 million
for the period January 1–December 31, 2008. The 5-year compact for
$697.5 million funds projects in the following areas: feasibility and design
studies; strategic environmental (and social) assessments; environmental impact




                                    SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010 121
assessments; environmental management plans; resettlement action plans;
financial management and procurement activities; monitoring and evaluation
activities; administration activities, including salaries and administrative support
expenses; and other program implementation activities.

The fund accountability statement presents fairly, in all material respects,
program revenues as well as costs incurred and reimbursed. The auditors found
no significant deficiencies or material weaknesses in internal controls.

(Audit Report No .M-000-10-011-N)

Mozambique. The independent audit of MCA-Mozambique covered incurred
costs totaling $3.9 million for the period January 1–December 31, 2008. In June
2007, MCC signed a 5-year, $506.9 million compact with the Republic of
Mozambique designed to increase the productive capacity of the population in
the northern districts. The intended goals were to reduce poverty, increase
household income, and reduce chronic malnutrition in the targeted districts. The
projects were meant to foster investment and increase economic opportunities
for Mozambicans.

The MCA-Mozambique fund accountability statement presented fairly, in all
material respects, program revenues, costs incurred and reimbursed, and
commodities and technical assistance procured directly by MCC for the period
ending December 31, 2008. Deficiencies were noted in the areas of the fund
accountability statement, internal controls, and compliance with laws and
regulations.

(Audit Report No. M-000-10-024-N)

Nicaragua. The MCA-Nicaragua audit covered incurred costs of $22.5 million
for the period January 1–June 30, 2009. The 5-year compact for approximately
$175 million is meant to increase investment by strengthening property rights;
reducing transportation costs between domestic, regional, and global markets;
and increasing profits and wages of farms and enterprises.

The fund accountability statement presented fairly, in all material respects,
program revenue received and expenses incurred and reimbursed during the
period under audit.

The auditors identified 10 deficiencies in the internal control structure:

1. An overdraft was found in the local currency account, corresponding to an
   undelivered check.
2. Tax withholdings for professional technical services were not documented in
   adequate forms.




122    USAID OFFICE OF INSPECTOR GENERAL
3. Reception and delivery of goods at the warehouse lacked controls.
4. Passwords of information systems and servers’ administrators were not
   adequately safeguarded.
5. Data backups made by the fiscal agent had not been transferred to an
   alternative site since March 2009.
6. MCA-Nicaragua’s server room had no contingency air-conditioning device,
   and the entrance log book for access to this room was not being used.
7. Users’ backups were not being transferred to the alternative site; backups
   from the Rural Business Development Project Control System were
   transferred without encryption; and backups sent or received from the
   alternative site were not adequately controlled.
8. The information system “Control System for Rural Business Projects” did
   not have a security module for assigning roles and functions and did not have
   audit tracking (a repeat finding from two prior audit reports).
9. Information systems lacked authorization and communication of security
   policies (a repeat finding from two prior audit reports).
10. The MCA lacked a formal and documented contingency plan (a repeated
    finding from two prior audit reports).
(Audit Report No. M-000-10-008-N)

Tanzania. The MCA-Tanzania audit for September 1, 2007–December 31,
2008, covered incurred costs of $2.3 million for 609(g) funds and $739,901 for
compact implementation funding. The $698 million, 5-year compact is meant to
reduce poverty and stimulate economic growth by increasing household incomes
through targeted investments in transportation, energy, and water.

The fund accountability statement presented fairly, in all material respects,
program revenues, costs incurred and reimbursed, and commodities and
technical assistance directly procured by MCC during the period under audit.

The independent auditors reported significant and material weaknesses in
internal control involving matters such as: restricted access to terminated
employees, lack of information technology corporate strategic planning, and the
lack of adequate controls over the computer server room. The auditors also
reported an instance of material noncompliance related to the performance
analysis against budgeted expenditures, as well as a conflict of interest related to
technical assistance.

(Audit Report No. M-000-10-013-N)

Tanzania. The MCA-Tanzania audit for January 1–June 30, 2009, covered
incurred costs in the amount of $4.2 million for 609(g) funds, $1.5 million for




                                    SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010 123
compact implementation funding, and $721,223 for compact funds. 19 This was a
separate audit activity from the Tanzania audit reported above.

The fund accountability statement presented fairly, in all material respects, the
funds received and costs paid by MCA-Tanzania during the audit period.

The independent auditors reported a material weakness in internal control due
to monetary differences between inventory records and supplier invoices. Also,
the auditors found a significant deficiency in internal control caused by late filings
of expense travel reports by MCA employees. The auditors reported several
material weaknesses involving compliance with the MCA’s procurement process
activities and contract approvals.

(Audit Report No. M-000-10-022-N)

Vanuatu. An independent audit of MCA-Vanuatu covered incurred costs
totaling $13.6 million during the period July 1–December 31, 2009. In March
2006, MCC signed a 5-year, $65.7 million compact with the Government of
Vanuatu to reduce poverty and stimulate economic growth by improving the
country’s poor transportation infrastructure. The compact will benefit poor,
rural agricultural producers and providers of tourist-related goods and services
by reducing transportation costs and improving the reliability of access to
transportation services.

The MCA-Vanuatu fund accountability statement presented fairly, in all material
respects, program revenues, costs incurred and reimbursed, and commodities
and technical assistance procured directly by MCC for the period July 1–
December 31, 2009. Deficiencies were noted in the areas of the fund
accountability statement, internal controls, and compliance with compact
agreement, laws, and regulations.

(Audit Report No. M-000-10-027-N)




19
   Section 609(g) of the Millennium Challenge Act of 2003 permits the chief executive officer to
enter into a contract or make grants for any eligible country for the purpose of facilitating the
development and implementation of the compact between the United States and the country.




124     USAID OFFICE OF INSPECTOR GENERAL
Quality-Control Reviews—Burkina Faso and Mali. During this reporting
period, OIG conducted quality-control reviews of work performed by the audit
firms that conduct semiannual audits of the compact funds in Burkina Faso and
Mali. In these reviews, OIG found that the audit work was adequately planned
and that the working papers generally supported the audit report conclusions in
accordance with generally accepted government auditing standards and other
guidelines.

(Quality-Control Review Reports Nos. M-000-10-002-Q and M-000-10-003-Q)




                                  SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010 125
      Significant Recommendations Described
          Previously Without Final Action
                       MCC
                               April 1–September 30, 2010

The Inspector General Act of 1978, Section 5(a)(3), as amended, requires each
inspector general to identify each significant recommendation described in
previous semiannual reports on which corrective action has not been completed.
For the reporting period, OIG found no previous recommendations on which
corrective action has not been taken.




      Investigative Activities Including Matters
        Referred to Prosecutive Authorities
                        MCC
                              April 1–September 30, 2010

Investigative activities for MCC are incorporated into the totals appearing on page 58.



        Incidents in Which OIG Was Refused
              Assistance or Information
                        MCC
                              April 1–September 30, 2010

During the reporting period, there were no reports of instances in which OIG
was refused information or assistance by MCC.




126    USAID OFFICE OF INSPECTOR GENERAL
                                Financial Audits
   Associated Questioned Costs, Unsupported Costs, and Value of
        Recommendations That Funds Be Put to Better Use
                                           MCC
                             April 1–September 30, 2010
                                                                                Amt. of
                   Date of                                                                    Type of
Report Number                                Report Title                       Findings
                   Report                                                                     Findings
                                                                                ($000)
                                   Programs and Operations
                        Survey of the Millennium Challenge
                        Corporation’s Oversight of Value
M-000-10-003-S 09/28/10
                        Added Taxes Due from Compact
                        Countries.
                                    MCA Audits and Reviews
                        Audit of the Millennium Challenge
                        Corporation (MCC) Resources
                        Managed by Millennium Challenge
                        Account-Nicaragua (MCA)
M-000-10-008-N 04/01/10
                        Nicaragua, under the Compact
                        Agreement Between the MCC and
                        the Government of Nicaragua from
                        January 1, 2009, to June 30, 2009
                        Audit of the Millennium Challenge
                        Corporation (MCC) Resources
                        Managed by Millennium Challenge
                        Georgia Fund (MCG), Under the                             352           QC
M-000-10-009-N 04/01/10
                        Compact Agreement between the                             352           UN
                        MCC and the Government of
                        Georgia From January 1, 2009, to
                        June 30, 2009
                        Audit of the Millennium Challenge
                        Corporation (MCC) Resources
                        Managed by Millennium Challenge
                        Account-Morocco (MCA-Morocco),
M-000-10-011-N 04/23/10 Under the Compact Agreement
                        Between the MCC and the
                        Government of Morocco from
                        January 1, 2008, to December 31,
                        2008


BU—Better Use of Funds       QC—Questioned Costs UN—Unsupported Costs Note: UN is part of QC



                                         SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010 127
                                                                          Amt. of
                    Date of                                                          Type of
Report Number                                 Report Title                Findings
                    Report                                                           Findings
                                                                          ($000)
                        Audit of the Millennium Challenge
                        Corporation (MCC) Resources
                        Managed by Millennium Challenge
                        Account-Lesotho, under the
M-000-10-012-N 04/29/10
                        Compact Agreement Between the
                        MCC and the Government of the
                        Kingdom of Lesotho from January 1,
                        2009, to June 30, 2009
                        Audit of the Millennium Challenge
                        Corporation (MCC) Resources
                        Managed by Millennium Challenge
                        Account-Tanzania, Under the
M-000-10-013-N 05/05/10
                        Compact Agreement Between the
                        MCC and the Government of
                        Tanzania from September 1, 2007, to
                        December 31, 2008
                        Audit of the Millennium Challenge
                        Corporation (MCC) Resources
                        Managed by Millennium Challenge
                        Account-Cape Verde (MCA-Cape
M-000-10-014-N 06/23/10 Verde), Under the Compact                            3         QC
                        Agreement between the MCC and
                        the Government of Cape Verde
                        From January 1, 2009, to June 30,
                        2009
                        Audit of the Millennium Challenge
                        Corporation (MCC) Resources
                        Managed by Millennium Challenge
                        Account-Lesotho (MCA) Lesotho,
M-000-10-015-N 08/05/10 Under the Compact Agreement                         129        QC
                        Between the MCC and the
                        Government of Kingdom of Lesotho
                        from July 1,2009, to December 31,
                        2009
                        Audit of the Millennium Challenge
                        Corporation (MCC) Resources
                        Managed by Millennium
                        Development Authority (MiDA),
M-000-10-016-N 08/13/10
                        Under the Compact Agreement
                        Between the MCC and the
                        Government of Ghana from July 1,
                        2009, to December 31, 2009


  BU—Better Use of Funds        QC—Questioned Costs UN—Unsupported Costs Note: UN is part of QC



128     USAID OFFICE OF INSPECTOR GENERAL
                                                                                Amt. of
                   Date of                                                                    Type of
Report Number                                Report Title                       Findings
                   Report                                                                     Findings
                                                                                ($000)
                        Audit of the Millennium Challenge
                        Corporation (MCC) Resources
                        Managed by Millennium Challenge
                        Account- Honduras (MCA-
M-000-10-018-N 08/31/10 Honduras), Under the Compact
                        Agreement between the MCC and
                        the Government of Republic of
                        Honduras From July 1, 2008, to
                        June 30, 2009
                        Audit of the Millennium Challenge
                        Corporation (MCC) Resources
                        Managed by Millennium Challenge
                        Account-Tanzania (MCA-Tanzania),
M-000-10-022-N 09/30/10
                        Under the Compact Agreement
                        Between the MCC and the
                        Government of Tanzania from
                        January 1, 2009, to June 30, 2009
                        Audit of the Millennium Challenge
                        Corporation (MCC) Resources
                        Managed by Millennium Challenge
                        Account-Mozambique (MCA-
M-000-10-024-N 09/30/10 Mozambique), Under the Compact                            145           QC
                        Agreement Between the MCC and
                        the Government of Mozambique
                        from January 1, 2008, to December
                        31, 2008
                        Audit of the Millennium Challenge
                        Corporation (MCC) Resources
                        Managed by Millennium Challenge
                        Account-Vanuatu (MCA-Vanuatu),
M-000-10-027-N 09/30/10                                                            2            QC
                        Under the Compact Agreement
                        Between the MCC and the
                        Government of Vanuatu from July 1,
                        2009, to December 31, 2009




BU—Better Use of Funds       QC—Questioned Costs UN—Unsupported Costs Note: UN is part of QC



                                         SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010 129
                                Performance Audits
      Associated Questioned Costs, Unsupported Costs, and Value of
           Recommendations That Funds Be Put to Better Use
                                               MCC
                                April 1–September 30, 2010
                                                                           Amt. of
                      Date of                                                         Type of
Report Number                                    Report Title              Findings
                      Report                                                          Findings
                                                                           ($000)
                                         Economy and Efficiency
                        Audit of the Millennium Challenge
                        Corporation’s Implementation of
M-000-10-003-P 07/09/10 Key Components of a Privacy
                        Program for its Information
                        Technology Systems
                        Audit of The Millennium Challenge
                        Corporation’s Compliance with
M-000-10-004-P 08/31/10 Provisions of the Federal Information
                        Security Management Act for Fiscal
                        Year 2010
                                  Audit of the Millennium Challenge
M-000-10-005-P 09/30/10           Corporation’s Transport
                                  Infrastructure Project in Vanuatu
                        Audit of the Millennium Challenge
M-000-10-006-P 09/30/10 Corporation’s Programs in Burkina
                        Faso




  BU—Better Use of Funds         QC—Questioned Costs UN—Unsupported Costs Note: UN is part of QC



130      USAID OFFICE OF INSPECTOR GENERAL
                         Miscellaneous Reports
   Associated Questioned Costs, Unsupported Costs, and Value of
        Recommendations That Funds Be Put to Better Use
                                           MCC
                              April 1–September 30, 2010
                                                                                Amt. of
                     Date of                                                                  Type of
 Report Number                                Report Title                      Findings
                     Report                                                                   Findings
                                                                                ($000)
                                    Quality Control Reviews
                             Quality Control Review (QCR) of the
                             audit report documentation related to
                             the audit titled Audit of the Fund
                             Accountability Statement of the
                             Millennium Challenge Corporation
                             (MCC) Resources Managed by the
M-000-10-002-Q      09/30/10
                             Millennium Challenge Account-Burkina
                             Faso under the Compact Agreement
                             dated July 14, 2008 between MCC and
                             the Government of Burkina Faso for
                             the audit period from July 1, 2008 to
                             December 31, 2009
                             Quality Control Review (QCR) of the
                             audit report (Audit report No. M-000-10-
                             001-N) and documentation related to the
                             audit titled Audit of the Fund
                             Accountability Statement of the Millennium
M-000-10-003-Q               Challenge Corporation (MCC) Resources
                    09/30/10
                             Managed by the Millennium Challenge
                             Account-Mali under the Compact
                             Agreement dated November 13, 2006
                             between MCC and the Government of
                             Mali for the audit period from January 1,
                             2009, to June 30, 2009
                                    Limited-Scope Reviews
                               Limited Scope Review of the Millennium
                               Challenge Corporation (MCC) Resources
                               Managed by Millennium Challenge
M-000-10-004-S      9-30-10                                                        408           QC
                               Account-Mali (MCA-Mali), Under the
                               Compact Agreement between the MCC
                               and the Government of Mali




BU—Better Use of Funds     QC—Questioned Costs UN—Unsupported Costs Note: UN is part of QC



                                         SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010 131
            Statistical Table of Reports With
           Questioned and Unsupported Costs
                           MCC
                               April 1–September 30, 2010
                                                    Number of      Questioned    Unsupported
                       Reports                        Audit          Costs         Costs*
                                                     Reports          ($)            ($)

 A. For which no management decision had
                                                         6         $296,226        $179,916
    been made as of April 1, 2010

 B. Add: Reports issued April 1–September 30,
                                                         6        $1,039,441       $352,350
    2010

Subtotal                                                12        $1,335,667      $532,266

 C. Less: Reports with a management decision
                                                         5         $245,515        $154,397
    made April 1–September 30, 2010

            Value of Recommendations
                                                                    $15,148        $15,148
            Disallowed by Agency Officials

            Value of Recommendations
                                                                   $230,367        $139,249
            Allowed by Agency Officials

 D. For which no management decision had
                                                         6        $1,039,441       $352,350
    been made as of September 30, 2010


   *Unsupported costs are included in questioned costs, but they are provided as additional
  information, as required by the Inspector General Act as amended 1988 (Public Law 100-504).




132     USAID OFFICE OF INSPECTOR GENERAL
           Statistical Table of Reports With
            Recommendations That Funds
                 Be Put to Better Use
                          MCC
                      April 1–September 30, 2010
                                                              Number of
                                                                                     Value
                     Reports                                    Audit
                                                                                      ($)
                                                               Reports

A. For which no management decision had been made
                                                                    0                  0
   as of April 1, 2010


B. Add: Reports issued April 1–September 30, 2010                   0                  0


Subtotal                                                            0                  0

C. Less: Reports with a management decision made
                                                                    0                  0
   April 1–September 30, 2010

        Value of Recommendations Disallowed by
                                                                                       0
        Agency Officials

        Value of Recommendations Allowed by
                                                                                       0
        Agency Officials

D. For which no management decision had been made
                                                                    0                  0
   as of September 30, 2010




                                SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   133
                 Reports Over 6 Months Old
                With No Management Decision
                           MCC
                               April 1–September 30, 2010
      Report                                Issue
                         Auditee                    Recommendation Status
      Number                                Date
                                      Recommendation 3. OIG recommends
                                      that MCC develop more definitive
                                      guidance for selecting countries for the
                                      Threshold Program. MCC does not concur
                                      with this recommendation. MCC’s
                                      authorizing legislation provides a significant
                                      degree of flexibility to the Board regarding
                                      the selection of Threshold eligible
                                      countries by not requiring definitive
                                      standards and benchmarks. Although these
                                      specific measurements are not required,
                                      MCC agrees that certain elements should
                                      be consistently considered during an
                                      eligibility review. The Board’s selections of
                                      threshold countries have resulted in a
               Department             range of partner countries, some of which
               of Policy and          are further from qualifying for compact
M-000-09-003-P               04/29/09
               International          eligibility than others. MCC recommends
               Relations              that the Board consider the following five
                                      factors when reviewing Threshold Program
                                      eligibility: the number of policy areas that
                                      need to be addressed, the type of policy
                                      reforms necessary, the degree of
                                      improvement needed, the government’s
                                      commitment to positive trends on reform,
                                      and whether MCC’s assistance will
                                      improve the country’s policy performance.
                                      These factors were introduced in FY 2008
                                      and continue to be used. Developing more
                                      definitive guidance or criteria would
                                      reduce the flexibility provided to the Board
                                      in the Millennium Challenge Act, and MCC
                                      does not believe that reducing this
                                      flexibility is either necessary or advisable.




134     USAID OFFICE OF INSPECTOR GENERAL
                    Significant Revisions of
                    Management Decisions
                             MCC
                        April 1–September 30, 2010

According to the Inspector General Act of 1978, as amended, semiannual
reports to Congress must report on serious or flagrant problems and disclose
information. One of those disclosures includes significant revisions of previous
management decisions. During the reporting period, MCC did not make any
significant revisions of previous management decisions.



      Management Decisions With Which the
          Inspector General Disagrees
                     MCC
                        April 1–September 30, 2010

The Inspector General Act of 1978, as amended, requires inspectors general to
provide information concerning any significant management decisions with which
the inspector general disagrees.

During the reporting period, the Inspector General did not disagree with any
significant management decisions.




                                  SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   135
      Noncompliance with the Federal Financial
          Management Improvement Act
                      MCC
                              April 1–September 30, 2010

The Inspector General Act of 1978, Section 5(a)(13), as amended, requires
inspectors general to provide an update on issues outstanding under a
remediation plan required by the Federal Financial Management Improvement
Act (FFMIA, Public Law 104-208, Section 05(b), 31 U.S.C 3512). FFMIA requires
agencies to comply substantially with (1) federal financial management system
requirements, (2) federal accounting standards, and (3) the U.S. Standard Ledger
at the transaction level. An agency that is not substantially compliant with FFMIA
must prepare a remediation plan.

OIG had no instances of MCC noncompliance to report during the reporting
period.



           Significant Findings From Contract
                      Audit Reports
                           MCC
                              April 1–September 30, 2010

The National Defense Authorization Act for FY 2008 (Public Law 110-181,
Section 842, codified at 10 U.S.C. 2302 note) requires the Inspector General to
submit information on contract audit reports that contain significant audit
findings in semiannual reports to Congress. The act defines “significant audit
findings” to include unsupported, questioned, or disallowed costs in excess of
$10 million and other contract-related findings that the Inspector General
determines to be significant.

During the reporting period, OIG had no significant findings from MCC contract
audit reports.




136    USAID OFFICE OF INSPECTOR GENERAL
                            Peer Reviews
                               MCC
                       April 1–September 30, 2010

The Dodd-Frank Wall Street Reform and Consumer Protection Act (Public Law
111-203) was signed into law July 21, 2010. Section 989C of this law amends the
Inspector General Act to require federal inspectors general to report on peer
results in their semiannual reports. OIG’s peer review reporting pursuant to
this requirement is addressed on page 112 of our Semiannual Report to the
Congress for USAID, USADF, and IAF.




                                 SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   137
                                ABBREVIATIONS
ARRA              American Recovery and Reinvestment Act of 2009 (Public Law
                  111-5)

AOTR              agreement officer’s technical representative

CFR               Code of Federal Regulations

COTR              contracting officer’s technical representative

DCAA              Defense Contract Audit Agency

FAR               Federal Acquisition Regulation

FATA              Federally Administered Tribal Areas (Pakistan)

FFMIA             Federal Financial Management Improvement Act of 1978 (Public
                  Law 104-208, Title VIII)

FISMA             Federal Information Security Management Act of 2002
                  (E-Government Act of 2002, Public Law 107-347, Title III)
FY                fiscal year

GAO               Government Accountability Office

GDP               gross domestic product

GOP               Government of Pakistan

HIV/AIDS          human immunodeficiency virus/acquired immunodeficiency
                  syndrome

IAF               Inter-American Foundation

IDP               internally displaced person

MCA               Millennium Challenge Account

MCC               Millennium Challenge Corporation

MOU               memorandum of understanding

NGO               nongovernmental organization

NWFP              North-West Frontier Province (Pakistan), recently renamed
                  Khyber Pakhtunkhwa


138     USAID OFFICE OF INSPECTOR GENERAL
OIG      Office of Inspector General

OMB      Office of Management and Budget

PEPFAR   President’s Emergency Plan for AIDS Relief

PSC      private security contractor

QCR      quality-control review

SAI      Supreme Audit Institution

USADF    United States African Development Foundation

U.S.C.   United States Code

VAT      value-added tax




                            SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2010   139
        U.S. Agency for International Development
               Office of Inspector General
               1300 Pennsylvania Avenue, NW
                         Room 6.6D
                  Washington, DC 20523
                    www.usaid.gov/oig




The Semiannual Report to the Congress is available on the Internet at
      www.usaid.gov/oig/public/semiann/semiannual_recent.htm
